<html>
<title> - REVIEW OF HYDRAULIC FRACTURING TECHNOLOGY AND PRACTICES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                     REVIEW OF HYDRAULIC FRACTURING
                        TECHNOLOGY AND PRACTICES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, MAY 11, 2011

                               __________

                           Serial No. 112-17

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


       Available via the World Wide Web: http://science.house.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-221 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY







                            C O N T E N T S

                        Wednesday, May 11, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

                           Witnesses: Panel I

Mrs. Elizabeth Ames Jones, Commissioner, Texas Railroad 
  Commission
    Oral Statement...............................................    17
    Written Statement............................................    19

Dr. Robert M. Summers, Secretary, Maryland Department of the 
  Environment
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Harold Fitch, Michigan State Geologist; Director, Office of 
  Geological Survey, Michigan Department of Environmental 
  Quality; and Board Member, Ground Water Protection Council
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Cal Cooper, Manager, Worldwide Environmental Technologies, 
  Greenhouse Gas, and Hydraulic Fracturing, Apache Corporation
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Michael Economides, Professor of Chemical and Biomolecular 
  Engineering, University of Houston
    Oral Statement...............................................    39
    Written Statement............................................    40

                          Witnesses: Panel II

Dr. Paul Anastas, Administrator, Office of Research and 
  Development, U.S. Environmental Protection Agency
    Oral Statement...............................................    76
    Written Statement............................................    77

             Appendix I: Answers to Post-Hearing Questions

Mrs. Elizabeth Ames Jones, Commissioner, Texas Railroad 
  Commission.....................................................    96

Dr. Robert M. Summers, Secretary, Maryland Department of the 
  Environment....................................................   103

Mr. Harold Fitch, Michigan State Geologist; Director, Office of 
  Geological Survey, Michigan Department of Environmental 
  Quality; and Board Member, Ground Water Protection Council.....   106

Dr. Cal Cooper, Manager, Worldwide Environmental Technologies, 
  Greenhouse Gas, and Hydraulic Fracturing, Apache Corporation...   108

Dr. Michael Economides, Professor of Chemical and Biomolecular 
  Engineering, University of Houston.............................   112

Dr. Paul Anastas, Administrator, Office of Research and 
  Development, U.S. Environmental Protection Agency..............   116

            Appendix II: Additional Material for the Record

Additional Material Submitted for the Record by Dr. Michael 
  Economides, Professor of Chemical and Biomolecular Engineering, 
  University of Houston..........................................   146

 
        REVIEW OF HYDRAULIC FRACTURING TECHNOLOGY AND PRACTICES

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Hall. Okay. The Committee on Science, Space, and 
Technology will come to order, and we all say good morning and 
welcome to today's hearing entitled a Review of Hydraulic 
Fracturing Technology and Practices.
    In front of each of you are packets containing the written 
testimony, biographies, and truth in testimony disclosures by 
today's witnesses. Today's hearing includes two panels which is 
not the typical practice of our Committee. I will have more to 
say about that a little bit later.
    All right. I recognize myself for the first five minutes 
for an opening statement.
    I want to welcome everyone here today for this hearing to 
review hydraulic fracturing technology and practices, and I 
thank you for your time. I know it took time to prepare 
yourself to travel here and to give us this time, and we are 
very grateful to you. The empty seats here shouldn't startle 
anybody because everybody has two or three Committees, and they 
are on them. They will be in and out of here today, but your 
testimony has been taken down by experts here, and it will be 
in the Congressional Record for the next 200 years for people 
to read. So we do read these things.
    The primary focus of today's hearing is our study on 
hydraulic fracturing, and hydraulic fracturing, so far as I 
understand it, or fracking, is the process by which water, 
sand, and a small amount of additives are pumped into a well to 
create enough pressure to fracture formations deep within the 
earth. That is pretty simple, but that is what they wrote out 
for me to say here.
    Advances in this 60-year-old technology, combined with 
horizontal drilling, have transformed the production of natural 
gas along with the natural gas industry.
    Access to shale gas that was until recently uneconomical 
and technically unrecoverable is driving state and local 
economic growth all around the country with providing new 
sources of domestic energy to meet growing demand. As with all 
energy development, deep gas drilling is not without risk and 
concerns about potential environmental effects. This has to be 
examined.
    However, we have to be careful to ensure that such concerns 
are evaluated with objectivity and within the proper context 
and with care taken to avoid the influence of political 
rhetoric. Science must drive that discussion. For example, the 
University of Texas just announced a comprehensive study that 
will do just that, separate fact and try to look at facts 
separate from fiction regarding the potential environmental 
studies of hydraulic fracturing.
    Unfortunately, objectivity is not EPA's strong suit, and 
its draft study plan is yet another example of this 
Administration's desire to stop domestic energy development 
through regulation.
    The study intends to identify the potential impacts of 
hydraulic fracturing on drinking water, without even taking 
into consideration the probability that such an effect may 
occur or the ability of industry best practices, state laws and 
direct oversight, and existing Federal laws to manage the risk 
associated with hydraulic fracturing. No regulation or law can 
totally eliminate risk. A study that does not quantify 
environmental risks using standard practices is useless to 
regulators and risk managers and as such, is a waste of 
taxpayers' money.
    With that in regards to process, that is the process we are 
going through today, I want to note my disappointment with the 
lack of cooperation from the Administration in assembling this 
hearing. I am well aware that many of the members sit on 
multiple Committees and as such, we try to be as respectful as 
possible on the time demands of our members. Unfortunately, 
this Administration is not so respectful. We have invited six 
witnesses to testify this morning on hydraulic fracturing, and 
as you can see, there is plenty of room at the witness table to 
accommodate all six. However, the Environmental Protection 
Agency refused to permit Dr. Anastas to testify unless he was 
given his own panel.
    This demand is counter to longstanding Committee precedent. 
In the last decade, EPA Senate-confirmed officials testified on 
single panels alongside with non-government witnesses at least 
eight times that we have records of. I personally wrote 
Administrator Jackson several weeks ago inquiring as to the 
rationale behind EPA's decision to treat this situation 
differently from prior practice and consistent with this 
Administration's refusal to work with the Congress, this 
Administrator failed to even acknowledge, let alone, respond to 
my letter.
    The lack of courtesy and the lack of professionalism being 
displayed is counter to President's stated goal that his 
Administration would work cooperatively with the 112th 
Congress. Of course he wants to work cooperatively, work 
together now, especially in the House, and his previous 
attitude was we won. I hope we never go that far. EPA's actions 
are unacceptable, are absolutely unacceptable and going to be 
long remembered.
    I thank the witnesses for even being here.
    [The prepared statement of Mr. Hall follows:]
               Prepared Statement of Chairman Ralph Hall
    I want to welcome everyone here today for this hearing to review 
hydraulic fracturing technology and practices.
    The primary focus of today's hearing is EPA's draft study of 
hydraulic fracturing. Hydraulic fracturing, or fracking, is the process 
by which water, sand, and a small amount of additives are pumped into a 
well to create enough pressure to fracture formations deep within the 
Earth.
    Advances in this 60-year old technology, combined with horizontal 
drilling, have transformed the production of natural gas along with the 
natural gas industry.
    Access to shale gas that was until recently uneconomical and 
technically unrecoverable is driving State and local economic growth 
all around the country while providing new sources of domestic energy 
to meet growing demand. As with all energy development, deep gas 
drilling is not without risk and concerns about (potential) 
environmental effects must be examined.
    However, we must be careful to ensure that such concerns are 
evaluated objectively and within the proper context and with care taken 
to avoid the influence of political rhetoric. Science must drive this 
discussion. For example, the University of Texas just announced a 
comprehensive study that will do just that--separate fact from fiction 
regarding the potential environmental risks of hydraulic fracturing.
    Unfortunately, objectivity is not EPA's strong suit, and its draft 
study plan is yet another example of this Administration's desire to 
stop domestic energy development through regulation.
    The study intends to identify the potential impacts of hydraulic 
fracturing on drinking water, without ever taking into consideration 
the probability that such an effect may occur, or the ability of 
industry best practices, state laws and direct oversight, and existing 
Federal laws to manage the risk associated with hydraulic fracturing.
    No regulation or law can totally eliminate risk. A study that does 
not quantify environmental risks using standard practices is useless to 
regulators and risk managers and as such, is a waste of taxpayer money.
    With regards to process, I want to note my disappointment with the 
lack of cooperation from the Administration in assembling this hearing.
    I am well aware that many of our Members sit on multiple Committees 
and as such, we try to be as respectful as possible on the time demands 
our Members have. Unfortunately, this Administration is not as 
respectful.
    I have invited six witnesses to testify this morning on hydraulic 
fracturing, and as you can see, there is plenty of room at the witness 
table to accommodate all six.
    However, the Environmental Protection Agency refused to permit Dr. 
Anastas to testify unless he was given his own panel.
    This demand is counter to long-standing Committee precedent--in the 
last decade, EPA Senate-confirmed officials testified on single panels 
alongside non-government witnesses at least eight different times. I 
personally wrote Administrator Jackson several weeks ago inquiring as 
to the rationale behind EPA's decision to treat this situation 
differently from prior practice.
    Consistent with this Administration's refusal to work with this 
Congress, the Administrator failed to acknowledge, let alone respond, 
to my letter.
    The lack of courtesy and professionalism being displayed is counter 
the President's stated goal that his Administration would work 
cooperatively with the 112th Congress. EPA's actions are unacceptable 
and will be remembered.
    I thank the witnesses for being here, and I now recognize Ranking 
Member Johnson for five minutes for her opening statement.

    Chairman Hall. And I now recognize Ranking Member Mrs. 
Johnson for five minutes for her opening statement. Ms. 
Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I must 
say that this is my third meeting this morning and the last two 
that I left many of the Committee members were still there, so 
I am sure they will drift in.
    Thank you for holding this hearing. As Texans, Chairman 
Hall and I know well the importance of oil and natural gas in 
this country. Fossil fuels power our manufacturing base, our 
transportation sector, our culture sector, and more, and for 
the foreseeable future we rely on these resources and 
technologies to achieve our energy, economic, national 
security, and in some cases our environmental objectives.
    Unconventional shale gas produced through hydraulic 
fracturing may very well be an integral part of our future 
energy mix, however, we also know that fossil fuels carry 
significant environmental risks. In this I am speaking of the 
oceans we fish, the soil we farm, the air we breathe, and the 
water we drink, all of which have real economic value. Nobody 
gets rich from clean water and air. But everybody benefits, and 
nobody should have the right to take those away. The Congress 
has acted in the past to protect these commons through 
legislation such as the Clean Air Act and the Safe Water 
Drinking Act, and results have been just that, cleaner air and 
safer drinking water.
    However, in 2005, Congress exempted hydraulic fracturing 
from the Safe Drinking Water Act, and now we need to understand 
at what cost. Today we will hear that such regulations hinder 
the development of unconventional oil and gas and that more 
stringent regulations are not needed to protect public health 
and the environment.
    That may or may not be the case, but we simply do not have 
enough data yet to say, nor will we if industry refuses to 
disclose the chemicals it uses and if EPA cannot do its job of 
determining the risks. EPA study is just in the beginning. In 
the next few years efforts by other agencies, various state 
regulators, and academic groups such as the one being 
undertaken by the University of Texas Energy Institute will add 
to our understanding of hydraulic fracturing.
    In the process EPA has also identified a number of serious 
issues which will be covered in subsequent studies beyond the 
effects on drinking water. Contrary to the industry's claim 
that it has been doing this safely for 60 years, this is a new 
suit of technologies that may have very different environmental 
impacts, especially given the scale of operations we see today.
    Ultimately, I believe the science will speak for itself, 
and I sincerely hope that hydraulic fracturing proves to be as 
benign as the industry asserts. Regardless of the outcome of 
these studies let us not be fooled into believing that the 
drilling industry alone out of sheer benevolence will implement 
cleaner and potentially more costly technologies and practices. 
It has never worked that way and likely never will.
    Without regulations to level the playing field there are 
few incentives to improve the environmental performance. 
Precaution is warranted here. We have seen recently how flawed 
industry practices, inadequate training and technologies, 
poorly-designed systems, short-sighted risk assessments, lacks 
governmental oversight, and sheer bad luck can have tragic and 
unimaginable consequences. Major disasters such as Fukushima 
and the Deep Water Horizon remind us of the real risk of 
catastrophic accidents, but they also overshadow the frequency 
of smaller safety incidents and spills and the pollution that 
escapes regulators' attentions every day. We do not have to 
accept this as the cost of our energy addictions. We can do 
better.
    That said, I want to focus on what I believe is a guiding 
principle of this Committee, which is that technology should 
evolve and in the case of drilling for unconventional oil and 
natural gas become more efficient, safe, environmentally 
sustainable, and economically viable. I want to hear how 
advances in drilling technologies, chemicals, and practices can 
protect public health while providing energy to our Nation.
    As the President has said, natural gas can a viable 
domestically-sourced option for significantly decreasing both 
air pollution and America's reliance on oil. I agree with the 
President, but I don't believe we have to compromise our values 
and violate the rights of Americans to cleaner water and air in 
the process. If hydraulic fracturing has problems, let's 
acknowledge it and work to advance technologies to get around 
them.
    I look forward to this hearing and any future ones on this 
subject. Thank you, Mr. Chairman. I yield back.[The prepared 
statement of Ranking Member Eddie Bernice Johnson follows.]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Chairman Hall, for holding this important hearing.
    As Texans, Chairman Hall and I know well the importance and the 
impact of oil and natural gas development in this country. Our economy 
has relied on fossil fuels to power our manufacturing base, our 
transportation sector, our agricultural sector, and more. And, for the 
foreseeable future, the country will continue to develop these 
resources and technologies to achieve our energy, economic, national 
security, and, in some cases, our environmental objectives. 
Unconventional shale gas produced through hydraulic fracturing may very 
well play an integral role in meeting these goals.
    However, we must acknowledge that the development of any fossil 
resource can have significant negative environmental impacts. I am not 
speaking of the environment for its own sake, but of the very oceans we 
fish, the air we breathe, and the water we drink. Like oil and gas, 
these too have real economic value. While few people get rich from 
clean air and water, everybody benefits. Likewise, nobody should have 
the right to take those away, regardless of the potential for financial 
profit. This strikes me as something on which most all of our 
constituents would agree.
    The Congress has acted in the past to protect these commons through 
legislation such as the Clean Air Act and the Safe Drinking Water Act, 
and the results have been just that --cleaner air and safer drinking 
water. However, in 2005, anticipating the boom to come, Congress 
awarded drillers with an exemption from the Safe Drinking Water Act for 
hydraulic fracturing.
    Today we will hear from some Members and witnesses that such 
regulations make it difficult and more costly to extract unconventional 
oil and gas, and that industry does not need more stringent regulations 
to protect public health and the environment. Maybe we do, or maybe we 
don't. We simply do not have enough data yet to say, nor will we if 
industry is not forthcoming in disclosing the chemicals it uses and if 
Congress does not allow the EPA to do its job of determining the risks 
of these practices.
    EPA's work is just the beginning. In the next few years efforts by 
the Department of Energy, various state regulators, and 
interdisciplinary academic projects, such as the one being undertaken 
by the University of Texas Energy Institute, and others will add to the 
overall understanding of the impacts of this new suite of technologies 
known as hydraulic fracturing. And, let us be clear that, contrary to 
industry claims that it has been doing this safely for 60 years, this 
is a new suite of technologies that may have very different and lasting 
environmental impacts, especially when compounded by the sheer scale of 
operations we see today.
    If there is conclusive evidence that the chemicals and practices 
used by the drilling industry contaminate water supplies, Congress has 
a responsibility to acknowledge these new risks and protect the public. 
I believe the science will ultimately speak for itself, and I sincerely 
hope that hydraulic fracturing proves to be as benign as the industry 
claims.
    No matter what the outcome, let us not be fooled into believing 
that we can rely on the industry, out of sheer benevolence, to change 
the way they operate or to implement cleaner, but potentially more 
costly, technologies. With very few exceptions, it has never worked 
that way, and likely never will. Without regulations to level the 
playing field, they simply do not have the financial incentive to do 
so.
    It is not alarmist to exercise precaution here, nor is it 
unwarranted. Too often we are reminded of how flawed industry 
practices, inadequate training and technologies, poorly designed 
systems, shortsighted risk assessments, lax governmental oversight, and 
sheer bad luck can contribute to tragedies in the energy industry. 
Major disasters such as Fukushima and the Deepwater Horizon serve to 
remind us of the risk of truly catastrophic, and previously 
unimaginable, events. But, they also overshadow the frequency of 
smaller safety incidents and spills, as well as the lower-level 
pollution that escapes regulators' attention every day. We do not have 
to accept this as the cost of our energy addiction. We can do better.
    That being said, I want to focus on what I believe is a guiding 
principle of this Committee, which is that technology should continue 
to evolve, and, in the case of drilling for unconventional oil and 
natural gas, become more efficient, safer, environmentally sustainable, 
and economically viable. I want to hear from this panel how 
advancements in everything from casing technologies to the recycling of 
water and the greening of chemicals can protect public health while 
still producing domestic energy sources.
    Additionally, I want to hear what role the Federal Government 
should play in both developing and understanding the impacts of these 
technologies. The Department of Energy was instrumental in developing 
new technologies to make extraction of unconventional natural gas from 
shale formations feasible, and I would like to hear how such federal 
resources could now be leveraged to clean up these processes.
    So I look forward to learning about the study that Congress has 
directed EPA to conduct on the impacts of hydraulic fracturing on 
water. While I had hoped that EPA would have been able to cover some 
important issues related to hydraulic fracturing other than drinking 
water, such as air quality, it is clear that this may have to be 
covered in a different study.
    As the President has said, natural gas has the potential to be a 
viable domestically-sourced option for significantly decreasing air 
pollution while reducing America's reliance on oil. I agree with the 
President, but I don't believe we have to compromise our values and 
violate the rights of Americans to cleaner water and air to get there. 
If there are problems with hydraulic fracturing, let's acknowledge them 
and work to advance technologies that remedy them.
    I look forward to this and future hearings on this subject.
    Thank you.

    Chairman Hall. The gentlelady from Texas yields back.
    If there are other members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce the first panel of 
witnesses.
    Our first witness is Mrs. Elizabeth Ames Jones, Chairman. 
She is the leader of the Texas Railroad Commission. That is the 
state agency that oversees all aspects of Texas oil and gas, 
natural gas industry. Mrs. Jones is a member of the Interstate 
Oil and Gas Compact Commission and a former member of the 
National Association of Regulatory Utility Commissioners and 
the Southern States Energy Board. Prior to her appointment to 
the Railroad Commission Mrs. Jones served as a member of the 
Texas House of Representatives. Her family are and have been 
long-time leaders in the energy field, and Chairwoman Jones is 
recognized as knowing as much or more about energy than most 
public servants. We are very happy to have you with us, and 
thank you for traveling from Austin and leaving that 
legislature in session there, and I hope they are working on a 
good Congressional District for Mrs. Johnson and for me and for 
the others.
    Our second witness is Dr. Robert Summers, and at this time 
I yield to Mr. Sarbanes, the gentleman from Maryland, to 
introduce Dr. Summers.
    Mr. Sarbanes. Thank you, Mr. Chairman, for the opportunity 
to introduce to the Committee Dr. Robert Summers, who was very 
recently named by our governor, Martin O'Malley, to be the 
Secretary of the Maryland Department of the Environment, but he 
has served in the Maryland Department of the Environment for 
many years. He was Deputy Secretary from January of 2007, he 
became Acting Secretary in December of 2010, and Dr. Summers 
leads the Department's planning, regulatory, management, and 
financing programs focusing on restoring public health, 
insuring a safe and reliable water supply, restoring and 
protecting air quality, wetlands and waterways, et cetera.
    He has served the citizens of Maryland for over 27 years in 
a variety of capacities within Maryland's environmental 
programs, emphasizing scientific and technical issues related 
to water pollution control, drinking water protection, and 
federal, state, and local government environmental laws and 
regulations.
    He has a very, I think, sophisticated understanding of the 
interplay between the different levels of government oversight 
relating to these kinds of issues. It is a pleasure to have him 
before the Committee today, and I yield back.
    Chairman Hall. The gentleman yields back. Reclaiming my 
time I thank you, Mr. Sarbanes, for that introduction.
    Our third witness is Mr. Harold Fitch. Mr. Fitch is a 
Michigan State Geologist, Director of the Office of Geological 
Survey at the Michigan Department of Environmental Quality and 
a Board Member of the Groundwater Protection Council. He 
oversees the regulation of oil, natural gas, and mining 
operations in the State of Michigan, and we thank you for being 
here.
    Our fourth witness, Dr. Cal Cooper, is the Worldwide 
Manager of Environmental Technologies, Greenhouse Gas, and 
Hydraulic Fracturing for Apache Corporation. For the past few 
years he served on technical committees for industry 
associations and has spearheaded the move to publicly disclose 
fracturing fluids and produced waters. Prior to the service 
with Apache, Dr. Cooper worked for several multinational oil 
and gas companies throughout his career and is considered an 
expert in subsurface geosciences.
    Our final witness on the first panel is Dr. Michael 
Economides, a Chemical and Petroleum Engineer and expert on 
energy geopolitics and a Professor at the Cullen College of 
Environmental at the University of Houston. Dr. Economides, am 
I saying that right?
    Dr. Economides. Pretty close.
    Chairman Hall. He served as a technical advisor at the 
energy companies in Europe, Asia, and South America. He is also 
Editor-in-Chief of the Energy Tribune and of the Peer Reviewed 
Journal of Natural Gas, Science, and Engineering.
    As our witnesses should know and probably do know, your 
testimony is limited to five minutes. We hope you can stay 
there, but if you go over a little, we respect that. We are not 
going to have a hard gamut. You have given us your time and 
preparation and you are here, which is more than some of the 
others would do. After which each Member here will have five 
minutes to ask each of you questions or all of you together 
questions, and we will stay pretty close to that five minutes 
if we can.
    I recognize our first witness, Mrs. Elizabeth Ames Jones 
from the Texas Railroad Commission. Mrs. Jones.

STATEMENT OF MRS. ELIZABETH AMES JONES, COMMISSIONER, TEXAS RAILROAD 
                    COMMISSION

    Mrs. Jones. Thank you, Chairman Hall and Ranking Member 
Johnson and Members of this Committee for the opportunity to be 
here before you today. I am delighted to represent the 
interests of Texas, a state that you so eloquently stated is 
prominent in the regulation of oil and natural gas. We are, in 
fact, the top-producing state in the country, and we regulate, 
have a lot of hydraulic fracturing that goes on and has been 
ongoing in the State of Texas for over 50 years.
    So to that extent I would say that we have a little bit of 
expertise in this arena that everybody across the country is so 
interested in now. As chairman of the Texas Railroad Commission 
I am head of the agency that oversees Texas's rich energy 
resources.
    Over 45 percent of all of all the rigs running in the 
America are running in Texas, so it is fair to say I have a 
bird's eye view of American energy production in the world's 
most prolific shale but not quite the biggest yet but the most 
prolific, the Barnett Shale.
    My statutory obligation as an elected official who is, in 
fact, very, very happy to be here today, Chairman, I might add, 
on a panel with these distinguished panelists, it is my 
obligation to protect private property rights of mineral owners 
and to see that our energy assets, oil and natural gas, are not 
wasted.
    As a steward of Texas's energy resources I am also a 
steward of the environment. As an elected official I am 
accountable to the people, and I must have a targeted focus and 
particular sensitivity to protecting public health and public 
safety.
    The regulation of oil and gas activities including 
hydraulic fracturing and horizontal drilling but not limited to 
that, fall under the jurisdiction of the states, and we are 
doing a good job in this arena. The state-centered approach 
assures a win-win for citizens, industry, and the environment. 
Part of that win-win is increased energy security for America. 
When we produce more oil and gas in America, we import less. By 
putting the newest technologies to work for us across the 
Nation, we increase our domestic supply of oil and natural gas, 
and it can be quantified.
    Last month the U.S. Energy Information Agency reported that 
natural gas imports to America declined in 2010, for the third 
consecutive year. Over the past 4-1/2 years we have cut our 
reliance on imported natural gas by a third.
    So what happened? America's shale gas production more than 
tripled from 2007, to 2010. The point is this. Producing more 
of our own resources really does mean energy security for our 
country, and I mean, if that is--these facts are not a 
definition of that energy security, I don't know what is.
    The good news is the American people have a reliable energy 
source we can call our own, and we have it because the 
technologies developed in America, by Americans, and I might 
add that was primarily right there in the Barnett Shale field 
today, in the last 20 years, this technology is making it 
possible.
    The bad news is the current proliferation of 
misrepresentation and myths regarding this proven technology, 
and I am talking about hydraulic fracturing, the subject of 
today's Committee hearing. It is a technology that generates 
American jobs and lowers energy costs for American consumers, 
and it has the potential to fuel the economic recovery of this 
country.
    It would be a travesty if the mistruths succeeded in 
driving up energy costs and forcing Americans to abandon the 
most promising and prolific energy source to come along in 100 
years, natural gas. The truth is that all Americans benefit 
mightily from hydraulic fracturing and the horizontal drilling 
that is going on and the oil because it is also producing oil 
and natural gas resources produced.
    There are those, unfortunately, who are willing to 
undermine this technological innovation by raising false 
specters of environmental hazards and unsafe drinking water. 
Americans deserve better. Americans deserve the truth, not a 
fractured fairytale. I will tell you right now. As an elected 
official of the State of Texas, not once has a case of 
groundwater contamination from hydraulic fracturing ever been 
confirmed by the Railroad Commission of Texas. For fracturing 
fluid or the natural gas or oil to affect the water table in 
Texas, those substances would have to migrate upwards of 
thousands of feet of rock, sometimes even miles. It is simply 
geologically impossible. The stories of environmental damage or 
contaminated drinking water from hydraulic fracturing are 
simply untrue. You have a better chance frankly of hitting the 
moon with a Roman candle than fracturing into fresh water zones 
by hydraulic fracturing shale rock.
    Furthermore, I believe it is morally wrong to deprive 
Americans of the benefit of their God-given natural energy 
resources because a few special interest Grimm Brothers insist 
on perpetrating fairytales. If the EPA falls victim to this 
disinformation and institutes the new regulations that are 
being considered today, over half our oil and natural gas wells 
would be eliminated. Nearly 200,000 barrels of oil per day, 245 
billion cubic feet of natural gas a year would stay buried in 
the ground. The Federal Government would lose billions, up to 
$4 billion supposedly in revenue, states could lose $785 
million in revenue, not to mention the lost jobs.
    I appreciate the opportunity to be here today. You can tell 
that I do have an opinion on this subject, and I am glad to be 
able to share it and will look forward to the questions. Thank 
you.
    [The prepared statement of Mrs. Ames Jones follows:]
 Prepared Statement of Mrs. Elizabeth Ames Jones, Commissioner, Texas 
                          Railroad Commission

Introduction

    The regulation of oil and gas exploration and production 
activities, including hydraulic fracturing and horizontal drilling 
falls within the jurisdiction of the states. The Texas Railroad 
Commission (RRC) has been regulating the mining of hydrocarbons for 100 
years. The Commission no longer over sees the rail industry.
    Texas is the largest producer of oil and natural gas in the 
country. From the drill bit to the burner tip, the oversight of the oil 
and natural gas industries that operate in Texas, including the 
responsibility to prevent and to abate surface and ground water 
pollution related to oil and gas development in state lands and waters, 
falls under the jurisdiction of the Railroad Commission of Texas. With 
over one million wells drilled, the RRC is responsible for more oil and 
gas wells than any other entity in the nation. Currently, 45% of all 
the rigs running in the United States of America are in Texas. Market 
forces and the introduction of new technologies developed in Texas, 
like hydraulic fracturing and horizontal drilling, made shale gas 
production profitable in the 1990s. Since then, Texas' natural gas 
production has increased more than 50 percent. Never in this period has 
hydraulic fracturing been a contributor to groundwater contamination.

The Railroad Commission of Texas and Hydraulic Fracturing

    The RRC's regulatory framework for well construction and water 
protection, which extends well beyond just hydraulic fracturing, 
protects surface water and groundwater in a very effective manner. Like 
other aspects of our comprehensive regulatory framework that covers 
virtually all oil and gas activities, our regulatory practices 
addressing hydraulic fracturing are the culmination of over 50 years of 
experience. The recent expansion in hydraulic fracturing activity in 
the Barnett Shale produced more than 13,000 gas wells. Even with such a 
dramatic increase in activity, not once has Texas experienced a case of 
groundwater contamination caused by hydraulic fracturing. I do not know 
of a single reported case of contamination nationwide.
    The Texas regulatory framework emphasizes well construction with 
multiple layers of protection for groundwater. Our inspectors conduct 
thousands of inspections and tests annually to ensure regulatory 
compliance.
    Protection of water resources that can be used for human 
consumption should be of the utmost importance to every community, and 
it certainly is to the RRC. The location and depth of the underground 
strata from which that water is taken is very important when discussing 
hydraulic fracturing. While those depths vary regionally, in Texas the 
strata from which water to be used for human consumption is generally 
thousands of feet, perhaps miles, above the targeted formations during 
the hydraulic fracturing process. For example, the water table can 
extend to a depth of 1000 feet in some areas of the Barnett Shale. The 
horizontal lateral pipes are located more than one and a half miles 
below the surface.
    Additionally, the volumes of fluids other than water that are being 
injected must also be kept in mind. Water typically makes up more than 
99% of the liquids in fracturing fluid; e.g., the percentage of non-
H<INF>2</INF>O compounds may be approximately 0.05% in a job utilizing 
5 million gallons of water.
    Cooperation among governmental agencies is a necessity to 
successfully ensure environmental mitigation. Before permitting a well 
for hydraulic fracturing, we must receive certification from our sister 
agency, the Texas Commission on Environmental Quality (TCEQ), that 
identifies where the location and depths of groundwater must be 
protected by cement and steel casing. TCEQ geologists and hydrologists 
evaluate the well logs from previous wells in the area around any 
proposed well to determine the required depth of surface casing to 
ensure the protection of fresh water formations. An operator must 
obtain this certification from the TCEQ and must present it to the RRC 
before we will even consider issuing a drilling permit. In every new 
well, the RRC requires that heavy steel surface casing extend beyond 
the deepest fresh water formation. Surface casing must be pressure 
tested for leakage before restarting drilling activity as an additional 
safeguard.
    Whether it is fracturing fluid, oil or natural gas, to affect the 
usable quality of water, those substances would have to migrate upward 
through thousands of feet of rock. That is physically impossible. For 
produced water that is recovered at the surface from the well to 
contaminate fresh water formations, a leak in the heavy steel surface 
casing and a breach of the other protections would have to occur. There 
is no evidence or history of that ever occurring in Texas.

Interstate Coordination

    Since the regulations of these activities fall under the states' 
jurisdiction, it is essential for oil and gas producing states to work 
cooperatively and to share information. The RRC actively participates 
in the Interstate Oil and Gas Compact Commission (IOGCC), the national 
Groundwater Protection Council (GWPC), and STRONGER (State Review of 
Oil and Natural Gas Environmental Regulations). The RRC is proud to 
state that our Chief Geologist was the chair of the STRONGER workgroup 
that developed their guidelines for hydraulic fracturing. Our staff may 
be some of the most talented available today.
    Participation with the GWPC and the IOGCC led to the initiation of 
a national registry to voluntarily disclose the chemicals used during 
hydraulic fracturing. Our heavy involvement with the GWPC and the IOGCC 
led to the development of the website-FracFocus. This coordinated 
effort worked closely with producers and service companies to develop a 
format allowing the submission of well and chemical data. Many of the 
active shale gas producers have stated their intent to provide this 
information, and numerous regional and national oil and gas 
associations have endorsed the project.
    STRONGER was initially directed to review state drilling fluids and 
produced water management. This purview was expanded in 2010 to address 
hydraulic fracturing regulations in response to public concerns. As 
stated above, the RRC was heavily involved in that process. Since then, 
STRONGER has conducted reviews in multiple states. These reviews 
provide significant benefits to the states demonstrating the 
effectiveness of regulatory programs by bringing in experts from across 
the nation to identify possible regulatory improvements. Some of these 
experts are RRC employees. STRONGER reviews demonstrate in a clear and 
public process that state programs are sound and effective. Our program 
is sound and effective.

Risk Management and Drinking Water

    The best avenue to risk management is concentrated and prudently 
developed experience. The history of hydraulic fracturing goes back 
decades. It was first commercially employed in 1948. As many of you 
know, the Safe Drinking Water Act (SDWA) was enacted in 1974 to protect 
public water. Hydraulic fracturing had been commercially utilized for 
25 years at that time, and the SDWA never considered it as an issue. 
For the next 22 years the SDWA was debated and amended only twice, and 
both times hydraulic fracturing was never discussed. In 1997, a court 
case, Legal Environmental Assistance Foundation (LEAF) vs. 
Environmental Protection Agency (EPA), brought the process of hydraulic 
fracturing into question without considering any legislative history or 
environmental impacts.
    In 2002, for the first time ever, the EPA released a draft study on 
hydraulic fracturing concluding the process does not pose a risk to 
drinking water. To lay the alarm to rest, the US House passed the 
bipartisan 2005 Energy Bill clarifying that Congress never intended for 
hydraulic fracturing to be regulated under the SDWA. Only recently has 
there been a growing impetus to further regulate the fracturing process 
even though over 50 years of history record no harm to drinking water 
from the process. And, for over those 50 years, the RRC has cautiously, 
expeditiously and thoroughly monitored the process and collected data 
while upholding our goals to protect public health and safety and to 
prevent the waste of our mineral assets.
    Through our many years of experience with the hydraulic fracturing 
process, we have developed a reliable regulatory framework based on 
sound science, technical expertise and common sense. The RRC 
regulations address pad site surface operations, water use and 
wastewater disposal/storage, casing requirements and injection 
procedures. Any state experiencing the economic blessings of shale 
developments concerned with acquiring appropriate regulatory schemes 
should look to Texas.
    A very important aspect of being a regulator is managing complaints 
and properly conducting inspections by competent geologists, engineers 
and other scientists to ensure regulatory policies are upheld and 
enforced. At the RRC, handling complaints is one of the most critical 
functions of our Field Operations section. Frequently, responsible 
industry participants will notify us of bad operators in an attempt to 
avoid the industry-wide problems and publicity caused by irresponsible 
oil and gas operators.
    Once a complaint is received and a docket is assigned, an initial 
inspection is made with or without the complainant. This inspection is 
immediate in the case of imminent danger due to pollution or a threat 
to public health. Both parties, the complainant and the respondent, are 
entitled to our inspection report to ensure transparency and due 
process.
    Once the field personnel are deployed to investigate a 
contamination, they utilize a variety of procedures to confirm if 
contamination exists, what the source is, and how to eliminate the 
source and to initiate clean up if necessary. To make this 
determination, field staff collects water samples from the well and 
other water wells in the area for testing and comparison analysis. They 
also collect samples of produced water from oil or gas wells within a 
quarter-mile of the subject water well. Bacteriological samples are 
forwarded to the local health department, and the surrounding area 
approximately a quarter-mile from where the subject water well is 
inspected. This area inspection includes an investigation into disposal 
or injection wells, oil and gas storage and treatment facilities, both 
current and abandoned pits, flow-lines, evidence of past leaks or 
spills, any creeks and streams, and any other situation that may shed 
light on a possible contamination. If a water contamination is 
verified, the case is sent to the Site Remediation division for clean 
up efforts. If enforcement action is necessary, our Office of General 
Counsel pursues the necessary filings.
    A recent case of interest where the RRC applied these sound 
principles and due process is the situation in which the EPA alleged 
that natural gas from a well operated by Range Resources, a Texas-based 
company, migrated into water wells in North Texas. Our Commission field 
staff fully vetted the area and sent those investigative reports to our 
administrative hearings' examiners to either confirm a contamination 
had occurred and if so then to determine the source. After weeks of 
technical and legal investigations and the presentation of arguments in 
keeping with the Administrative Procedures Act, my fellow commissioners 
and I ruled there was no evidence of natural gas contamination 
attributed to Range Resources. We are confident in our ruling, and we 
stand behind the RRC process. This case exemplifies the RRC's success 
in properly regulating the Texas energy industry, which regulation 
includes making decisions based on sound science and accepted and 
approved testing methods, while ensuring that mineral interest owners 
can enjoy the monetary benefit of their property ownership and that the 
state benefits accordingly.

EPA's Draft Plan

    The EPA's original charge was not to study the ``full life cycle'' 
of an oil and gas well, inclusive of all oil and gas exploration and 
production activity such as site selection and development, production, 
storage and transportation, all of which are unrelated to hydraulic 
fracturing. EPA's own Science Advisory Board rightfully concluded that 
the scope of the study should be restricted, at least initially, to 
researching sources and pathways of the potential impacts of hydraulic 
fracturing on water resources. The RRC submitted comments on the draft 
plan a month and a half ago. We concur with the EPA's Science Advisory 
Board and believe that the scope of the draft plan remains broader than 
that which Congress may have intended. This raises concerns of scope 
creep.
    Our two main concerns about the EPA's study are that it proposes to 
delve into areas beyond the reach of federal law and that it also 
proposes to study areas beyond the practice of hydraulic fracturing. 
Specifically, the EPA now includes a study of how water withdrawals 
might impact water availability and water quality. Water availability 
and water withdrawal have historically been the issues of state law, 
and we believe is beyond the reach of federal law and regulation. In 
addition, the EPA proposes to study the potential impacts of spills, 
containment, treatment, and disposal of wastewaters resulting from 
hydraulic fracturing. There is no need for the EPA to enter into these 
issues since there already exist controls on oil and gas activities in 
federal law, which include the SDWA, Clean Water Act (CWA), Clean Air 
Act (CAA), and Resource Conservation and Recovery Act (RCRA). 
Furthermore, there are a myriad of state laws and regulations actively 
being enforced by the states that care just as deeply for our state and 
national resources. Another federal study is just a waste of taxpayer 
money.
    The EPA has performed similar studies in the past. In the 1980s, 
the EPA performed an exhaustive study of oil and gas activities and 
wastes with respect to the Resource Conservation and Recovery Act 
(RCRA). There is no need for new information on the comprehensive 
process of oil and gas exploration and production. For this reason and 
in an effort to save time and money, we recommended the scope of study 
return to that directed by Congress-focus on practices directly 
associated with hydraulic fracturing and drinking water resources. With 
that said, I have offered the RRC and its staff as a resource to both 
the EPA and the Science Advisory Board in this endeavor to conduct an 
evaluation of the chemicals used in the fracturing process. 
Furthermore, I would eagerly join the discussion on the development of 
other alternatives, the evaluation of well construction and 
maintenance, evaluation of fracture development, and development of 
best management practices. As stated above, we have been doing this in 
Texas for over 60 years, the technology to advance these practices and 
make shale development possible was pioneered in Texas, and we have the 
most experience with the largest shale play in the nation.
    Finally, when operators complete the required RRC forms, they list 
the amount and kind of material used during hydraulic fracturing. 
Additionally, service companies are required by the Office of the 
Safety and Health Administration (OSHA) to post on site Material Safety 
Data Sheets of all chemicals used on a drilling location for on-site 
employees and emergency first responders.

Economic Generator

    Hydraulic fracturing has made the impossible possible. It allows 
access to oil and natural gas trapped in areas that were unobtainable 
in the past. This process is responsible for 30% of the nation's 
domestically recoverable oil and natural gas. Seven billion barrels of 
oil and 600 trillion cubic feet of natural gas have been recovered by 
hydraulic fracturing.
    Some say that up to 90% of wells operating today are because of 
hydraulic fracturing and 60-80% of new wells will need hydraulic 
fracturing to continue to production.
    In 2007, $226 billion was invested in domestic exploration and 
production. This is an economic generator that supports local 
businesses and creates American jobs. Royalties paid totaled $30 
billion in 2007. Without delving too far into how this business drives 
up local, state and federal tax revenue, it is exciting to note that 33 
school districts in Texas are funded mostly by oil and gas dollars 
alone.
    If some of the new EPA regulations considered today are 
implemented, more than half our oil and natural gas wells could be 
eliminated. America's production of domestic energy resources would 
diminish by 183,000 barrels of oil per day and 245 billion cubic feet 
of natural gas annually. The Federal Government would lose $4 billion 
in revenue, and the states would lose $785 million in taxes, not 
counting the additional jobs lost.
    The American Petroleum Institute engaged IHS Global Insight to 
study potential impacts of policy changes for hydraulic fracturing. 
They reported that all states will feel a decline in economic activity, 
but some states are more affected than others. The most affected will 
be Texas. By 2015, Texas could lose up to 364,000 jobs. These are jobs 
that paid an estimated $30,000 per job in taxes and royalties to Texas 
in 2009 and provide the average oil and gas worker with a salary of 
about $107,000 per year. For comparison, consider that the rest of the 
private sector workforce in Texas earns an average of $44,000 per year. 
The report concludes that Texas could experience a loss of nearly $37 
billion in gross state product. The country will suffer when a domestic 
homegrown energy source is diminished.
    Texas is not the only state affected. The analysis concludes that 
in addition to Texas, Oklahoma, Kentucky and West Virginia will suffer 
the largest natural gas production decline. Wyoming joins the 
aforementioned group in terms of employment and real output declines in 
the excess of 7%. Nevada, Colorado, Montana, Arizona, and Florida are 
all mentioned. And, if development does not continue in New York and 
Pennsylvania, then they will see a loss also.

Summary

    In closing, I understand there is a broad concern in the public 
related to hydraulic fracturing. I am not here to belittle or to 
disregard that concern. Rather, I am here to provide confidence to the 
public that these activities can be, and in Texas are, safe, secure and 
sufficiently regulated. Furthermore, the production increase due to 
these operations is a blessing to our nation, and we should be proud of 
the technological innovations discovered and perfected in America, more 
specifically, in Texas.
    There is a French delegation back in Texas meeting with RRC staff 
learning how to establish appropriate regulatory protocols for all 
activities related to natural gas production via the process of 
hydraulic fracturing and horizontal drilling. These foreign officials 
are already convinced of the benefits. These are not the only foreign 
officials to visit. In the past year, we have had numerous foreign 
consulates and ambassadors knocking on our door wanting to learn from 
our successes in Texas and apply our process to their respective 
countries. Technology is working the way it was intended- improving our 
quality of life.
    The numbers do not lie. In Texas alone, we could lose over 364,000 
jobs and almost $37 billion if this practice is outlawed. The numbers 
for the entire country are even greater. The truth is that America and 
Texas benefit substantially due to the practice of hydraulic fracturing 
and horizontal drilling. Any stories of environmental damage or 
contamination of drinking water from hydraulic fracturing are fairy 
tales.
    From 2007 to up until last year, net imports of natural gas have 
decreased by about 1.2 trillion cubic feet. My goal as Chairman of the 
Railroad Commission is energy security for our country; a diminished 
reliance on imported energy of any kind, be it natural gas or oil. 
Declining imports that are a direct result of increased domestic supply 
that result from putting technology to work is the news the American 
people want to hear. They are sick and tired of fractured fairy tales 
and they deserve to hear the truth. Thank you for the opportunity to 
speak it today.

    Chairman Hall. Well, I do thank you, and at this time I 
recognize Dr. Robert Summers, Secretary for the Maryland 
Department of the Environment, to present his testimony.
    Dr. Summers.

    STATEMENT OF DR. ROBERT M. SUMMERS, SECRETARY, MARYLAND 
                 DEPARTMENT OF THE ENVIRONMENT

    Dr. Summers. Thank you, Chairman Hall and Ranking Member 
Johnson and Congressman Sarbanes for your introduction and 
other Members of the Committee. Thank you for the opportunity 
to share Maryland's experience and concerns with hydraulic 
fracturing.
    I am Bob Summers, newly-appointed Secretary of the 
Environment. Portions of the Marcellus Shale formation underlie 
Garrett County and part of Allegheny County in Western 
Maryland. In these two counties gas companies have leased gas 
rates on more than 100,000 acres so far. An industry 
representative has estimated as many as 2,200 wells could be 
eventually drilled on 180,000 acres in Maryland, so obviously, 
we are fairly small compared to my--the previous speaker.
    But this represents about one well for every 80 acres 
leased, and Western Maryland is a very popular recreation 
destination for millions just living 3-1/2 hours to the east in 
major metropolitan areas, and citizens and businesses in 
Western Maryland are very concerned about the potential impact 
of widespread drilling.
    The Department of the Environment is the regulatory agency 
with the responsibility for permitting gas wells in the state. 
We currently have applications pending for drilling and 
hydraulic fracturing, but no permits have been issued at this 
point. We are mindful of the tremendous benefits that we just 
heard about that can accrue to the economy by exploring and 
developing our gas reserves.
    At the same time we have observed events in Pennsylvania 
during the first few years of drilling there, and we are 
equally alert to the potential adverse impacts on public health 
and the environment.
    As a result, we are proceeding in a cautious and 
deliberative manner. We have issued no permits, and we do not 
intend to allow drilling and fracking in Maryland until the 
issues are resolved to our satisfaction. There are numerous 
issues that must be addressed before Maryland can conclude 
whether and how drilling in Marcellus Shale can be done safely. 
There include the adequacy and sustainability of regional 
surface water and groundwater supplies needed for fracking, 
minimum requirements for constructing, casing, cementing, 
integrity testing of wells, installing and testing blow-out 
prevention equipment, potential migration of gas from the well, 
including migration from induced or naturally-occurring faults 
and fractures. Toxicity transport and fate of fracking fluid, 
proper handling and disposal of naturally-occurring radioactive 
materials, best practices for managing and disposing of 
flowback, drilling mud and drill cuttings, the need for 
refracturing, its potential effect on well integrity, measures 
to control air pollution, including greenhouse gas emissions 
and ozone production.
    We are also concerned about impacts to aquatic ecosystems, 
habitat fragmentation, introduction or spread of invasive 
species, and damage to wetlands and streams from access roads, 
drill pads, gathering lines, and ancillary operations. Not to 
mention increased truck traffic, public safety, and emergency 
response services.
    We anticipate moving forward in two stages. First, during 
the next year to 18 months we will survey existing practices, 
select best practices for drilling and fracking of wells. The 
Department will consider permits for a small number of 
exploratory wells to be drilled and fracked in the Marcellus 
Shale using these standards and cites eligible for these 
exploratory wells must be those who would present minimum risks 
to human health and the environment.
    The permits will be conditioned on the company's commitment 
to collect and share data with the state regarding all aspects 
of the drilling and fracking process, monitoring of wastes, 
monitoring of surface and groundwater quality in the zone of 
influence and the risks and adequacy of best practices.
    Second, we will use the data from these wells, along with 
the results of other research as it becomes available, to 
evaluate the environmental viability of gas production from the 
Marcellus Shale in Maryland. This phase will focus on long-term 
and cumulative risks, including landscape level effects like I 
mentioned with forest fragmentation. If we determine that gas 
production can be accomplished without unreasonable risks, the 
Department would then make decisions on applications for 
production wells.
    We are also concerned about the impact on our waters and 
citizens from drilling and fracturing-associated activities in 
nearby states. We are, in fact, pleased that EPA Region 3 has 
recently taken a more active role in overseeing drilling 
operations. The region has provided guidance on important 
issues such as the need to reopen discharge permits of 
facilities that treat Marcellus Shale fracking water and to 
initiate monitoring to ensure drinking water supplies are not 
impacted by the discharge of the treated waste water.
    We need the Federal Government to take an active role in 
studying, providing technical support to the state. We commend 
Congress for directing EPA to conduct research to examine the 
relationship between hydro fracking and drinking water 
resources, and while we firming believe the states need to 
retain the authority to enact more stringent requirements, the 
Federal Regulatory floor would ensure at least basic protection 
of the environment and public health.
    Interstate waters such as the Susquehanna and Potomac 
Rivers, Chesapeake Bay, are critical resources to all of the 
jurisdictions in the region and provide drinking water for 
millions of people. We need to ensure that these critical water 
supplies are protected, and toward that end existing federal 
regulatory exemptions for oil and gas drilling activities 
should be re-examined. In this regard we support Fracturing 
Responsibility Awareness of Chemicals Act, H.R. 1084, which was 
introduced by Representative DeGette and co-sponsored by 
Representatives Sarbanes, Tonko, and Woolsey, among others. 
This would reinstate regulation of hydraulic fracturing under 
the Safe Drinking Water Act, and we think this is an important 
step.
    The states need the Federal Government to provide guidance 
and to lend its resources to this effort. We have a strong 
federal-state partnership in Maryland with EPA and EPA Region 3 
to protect our public health, safety, the environment, and 
natural resources. And we need to maintain this. None of us 
have the resources we need by ourselves to deal with these very 
complex issues, and it is important that we have a strong team 
approach.
    Thank you for taking the initiative to inquire about this 
important issue.
    [The prepared statement of Dr. Summers follows:]
 Prepared Statement of Dr. Robert Summers, Secretary for the Maryland 
                     Department of the Environment

``Hydraulic Fracturing Technology and Practices''--Major Points

    Portions of the Marcellus Shale formation underlie Garrett County 
and part of Allegany County in western Maryland. We are mindful of the 
benefits that could accrue to the economy, but we are equally alert to 
potential impacts on public health and the environment.
    Maryland has issued no permits for exploration or production of gas 
in the Marcellus Shale, and we do not intend to do so until the 
legitimate issues are resolved to our satisfaction. Among the most 
important are these:

    <bullet>  Construction standards for wells and pads;

    <bullet>  Testing standards for well integrity and blowout 
prevention devices;

    <bullet>  The potential for migration of gas from the well;

    <bullet>  The toxicity, transport and fate of fracking fluid that 
remain underground;

    <bullet>  The proper handling and disposal of flowback and other 
liquid wastes;

    <bullet>  Control of air emissions, including greenhouse gases and 
ozone; and

    <bullet>  Landscape level impacts such as habitat fragmentation, 
introduction or spread of invasive species, and damage to wetlands and 
streams from access roads, drill pads, gathering lines, and ancillary 
operations.

    Maryland proposes to move forward in stages:

    <bullet>  Identify best practices for on site operations from site 
selection through fracking, and develop model permit provisions;

    <bullet>  Allow a small number of exploratory wells to be drilled 
and fracked in order to obtain data;

    <bullet>  Depending on the results, these wells may then be 
permitted to produce gas; and

    <bullet>  Use the information obtained from the exploratory wells, 
and other available information, to complete the evaluation of issues, 
and decide whether and how to proceed with permitting.

    We need the Federal Government to take an active role in studying, 
providing technical support to States and assisting the States in 
regulating activities such as deep drilling, horizontal drilling, 
hydraulic fracturing, and waste disposal.

    <bullet>  The EPA draft Hydraulic Fracturing Study Plan is a good 
start, but there are important areas it does not address.

    <bullet>  With sufficient direction, States could collect 
monitoring data and data about drilling and fracking that EPA could use 
in its study.

    <bullet>  A federal regulatory ``floor'' would be helpful, 
especially given the interstate nature of the surface and groundwater.

    <bullet>  Existing federal regulations that exclude oil and gas 
drilling wastes from coverage should be reexamined.

``Hydraulic Fracturing Technology and Practices''

    Chairman Hall, Ranking Member Johnson and honorable members of the 
Committee, thank you for the opportunity to share Maryland's experience 
and concerns with hydraulic fracturing.

The Marcellus Shale in Maryland

    In these two counties, gas companies have leased the gas rights on 
more than 100,000 acres. The Department of the Environment is the 
regulatory agency with responsibility for permitting gas wells in the 
State. We currently have applications pending for drilling and 
hydraulic fracturing (``fracking'') in the Marcellus Shale from two 
companies for a total of five wells. An industry representative has 
estimated that as many as 1,600 wells could be drilled in 128,000 acres 
in Garrett County and another 637 wells in 51,000 drillable acres in 
Allegany County. We are mindful of the tremendous benefits that could 
accrue to the economy by exploring and developing our gas reserves. 
Lease payments, royalties, and in Garrett County, severance taxes, and 
the economic activity associated with drilling-related jobs could bring 
significant economic benefits to these western counties. At the same 
time, we have observed events in Pennsylvania during the first few 
years of drilling there, and we are equally alert to potential adverse 
impacts on public health and the environment. Our paramount concern is 
protecting our ground and surface waters. As a result, we are 
proceeding in a cautious and deliberative manner. We have issued no 
permits, and we do not intend to allow drilling and fracking in 
Maryland until the issues are resolved to our satisfaction.

Environmental, Public Health and Public Safety Concerns

    There are numerous issues that must be addressed before Maryland 
can conclude whether and how drilling in the Marcellus Shale can be 
done safely. They include:

    <bullet>  minimum requirements for constructing, casing and 
cementing wells

    <bullet>  minimum requirements for integrity testing of wells

    <bullet>  minimum requirements for installing and testing blowout 
prevention equipment

    <bullet>  the potential migration of gas from the well, including 
migration from induced or naturally occurring faults and fractures

    <bullet>  the toxicity, transport and fate of fracking fluid

    <bullet>  proper handling and disposal of naturally occurring 
radioactive materials

    <bullet>  best practices for managing and disposing of flowback

    <bullet>  best practices for managing and disposing of drilling mud 
and drill cuttings

    <bullet>  best practices for containment and management of fuels 
and other liquids

    <bullet>  air pollution, including greenhouse gas emissions and 
ozone production

    <bullet>  re-fracturing and its potential effect on well integrity

    <bullet>  habitat fragmentation, introduction or spread of invasive 
species, and damage to wetlands and streams from access roads, drill 
pads, gathering lines, and ancillary operations

    <bullet>  other impacts to aquatic ecosystems, including stream 
sedimentation from damaged roads and dust from truck traffic

    <bullet>  the adequacy and sustainability of regional surface water 
and ground water supplies needed for fracking

    <bullet>  public safety and emergency response services

    Additional research and study is needed in each of these areas in 
order to be fully protective of public health and safety and the 
environment.

Maryland Legislation

    Public interest and concern brought the issue of Marcellus Shale 
drilling to the attention of Maryland legislature this year, which 
recently concluded its 90-day session. One bill was introduced to 
accelerate the issuance of drilling permits, another to place the 
burden on each applicant for a permit to demonstrate the safety of 
drilling and fracking, and another to require a study before permits 
could be issued. The Governor and the Department supported a bill to 
require the State to perform a comprehensive study of short-term, long-
term and cumulative effects of hydraulic fracturing, to be paid for by 
those gas companies holding leases in Maryland. None of the bills 
passed.

How the Maryland Department of the Environment Proposes to Proceed

    We anticipate moving forward in two stages. First, during the next 
year to 18 months, we will survey existing practices \1\and select 
``Best Practices'' for the drilling and fracking of wells. These Best 
Practices will cover all aspects of site preparation and design, 
delivery and management of materials, drilling, casing, cementing and 
fracking. After we develop this interim ``gold standard'' the 
Department will consider issuing permits for a small number of 
exploratory wells to be drilled and fracked in the Marcellus Shale 
using these standards. Sites eligible for these exploratory well 
permits must present minimum risks to human health and the environment. 
The permits will be conditioned on the company's commitment to collect 
and share data with the State regarding all aspects of the drilling and 
fracking process, monitoring of waste produced, monitoring of surface 
and ground water quality in the zone of influence of the operation and 
any other information needed to advance our understanding of the risks 
and the adequacy of the Best Practices.
---------------------------------------------------------------------------
    \1\ We will survey information from other states, but we note that 
there are regional differences in geology, climate, and formation 
composition that may limit the applicability of some methods in 
Maryland. For example, disposal of wastewater in underground injection 
wells, common in some areas, may not be feasible in Maryland.
---------------------------------------------------------------------------
    Second, we will use the data from these exploratory wells, along 
with the results of other research as it becomes available, to evaluate 
the environmental viability of gas production from the Marcellus Shale 
in Maryland. This phase will focus on long-term and cumulative risks, 
and include landscape level effects like forest fragmentation. If we 
determine that gas production can be accomplished without unreasonable 
risk to human health and the environment, the Department could then 
make decisions on applications for production wells. Permit conditions 
would be drafted to reflect Best Practices and avoid environmental 
harm. At this time, we have not identified a source of funding for this 
work.
    Maryland is also concerned about the impact on its own waters and 
citizens from drilling and hydraulic fracturing and associated 
activities in nearby states. Pennsylvania has experienced incidents of 
well blowouts and releases of flowback. It has been reported that 
inadequately treated hydraulic fracturing wastewater has been 
discharged to surface water in Pennsylvania. The potential risk to 
Maryland of repeated incidents in Pennsylvania, the most recent of 
which resulted in it release of flowback to a tributary of the 
Susquehanna River in April, prompted the Attorney General of Maryland 
to send a notice letter to the companies involved in the April release, 
asserting Maryland's right to bring a citizen suit for injunctive 
relief and civil penalties under the provisions of the Resource 
Conservation and Recovery Act (RCRA) and the Clean Water Act (CWA).

The Need for Federal Leadership

    We need the Federal Government to take an active role in studying, 
providing technical support to States and assisting the States in 
regulating activities such as deep drilling, horizontal drilling, 
hydraulic fracturing, and waste disposal. In the absence of a strong 
federal regulatory program, the burden of assuring that wells can be 
safely drilled and hydraulically fractured in the Marcellus Shale falls 
on the states individually.
    We commend Congress for directing the Environmental Protection 
Agency (EPA) to conduct research to examine the relationship between 
hydraulic fracturing and drinking water resources. EPA's Office of 
Research and Development has developed a solid, comprehensive plan for 
this study; however, we note that some important issues are beyond the 
scope of the study, including re-fracturing, and impacts to air quality 
and terrestrial and aquatic ecosystems. These issues also need to be 
studied.
    At EPA's request, the Science Advisory Board (SAB) is reviewing the 
study plan. Preliminary indications are that the SAB recognizes the 
importance of the study, as well as the challenges posed by the limited 
budget and time frame. It may suggest a narrowing of the focus of the 
study, but also additional research activities. Among those mentioned 
that Maryland considers to be of critical importance are: identifying 
best practices for well construction and whether those practices 
protect public water supply; and evaluating the potential release of 
contaminants to underground sources of drinking water through naturally 
occurring or induced faults.
    While the states should retain the authority to enact more 
stringent requirements, a federal regulatory ``floor'' would ensure at 
least basic protection of the environment and public health. Federal 
regulation is particularly important given the interstate nature of 
surface and ground waters and the fact that states do not have 
jurisdiction over out-of-state drilling and fracking activities, even 
when those activities could have significant impacts on water quality 
in neighboring states. Interstate waters such as the Susquehanna and 
Potomac Rivers and the Chesapeake Bay, are critical resources to all of 
the jurisdictions in the region.
    Existing regulatory exemptions for oil and gas drilling activities 
should be re-examined. For example, gas and oil exploration and 
production wastes are currently excluded from RCRA Subtitle C 
regulation. The Clean Water Act was amended to expand the regulatory 
exemption for stormwater runoff to cover all oil and gas field 
activities and operations, not just uncontaminated stormwater runoff 
from certain operations. The injection of hydraulic fracturing fluids 
is excluded from the Safe Drinking Water Act's Underground Injection 
Program. In this regard, we support the Fracturing Responsibility and 
Awareness of Chemicals Act, H.R. 1084, which was introduced on March 
15, 2011, by Representative DeGette and co-sponsored by Representatives 
Sarbanes, Tonko and Woolsey, among others. The Bill would reinstate 
regulation of hydraulic fracturing under the Safe Drinking Water Act 
and require the person conducting hydraulic fracturing operations to 
disclose to the government all of the chemical constituents used in 
hydraulic fracturing. This is a positive step forward. Under the bill, 
however, proprietary chemical formulas could still be protected from 
public disclosure, and we encourage a reexamination of the scope of 
protection for proprietary information. The public has an important 
interest in knowing what chemicals are being injected underground.
    We note also that Region III of the EPA has recently taken a more 
active role in overseeing drilling operations in the Marcellus Shale. 
It provided guidance on important issues, such as the need to reopen 
the discharge permits of facilities that treat Marcellus Shale fracking 
wastewater, and to initiate monitoring to ensure that drinking water 
supplies are not being impacted by the discharge of the treated 
wastewater. More recently, following a release of fracking fluid at the 
Chesapeake Energy gas well in Bradford County, Pennsylvania, EPA Region 
III used its authority under the Clean Water Act, the Comprehensive 
Environmental Response, Compensation and Liability Act (commonly called 
Superfund), and the Resource Conservation and Recovery Act to require 
Chesapeake Energy to provide information and documents regarding the 
release, including the exact chemical identity of each constituent in 
the fracking fluid.
    We are also encouraged by President Obama's ``Blueprint for a 
Secure Energy Future,'' which he announced on March 30. In particular, 
we welcome the plan to have the Energy Advisory Board establish a 
subcommittee to identify immediate steps that can be taken to improve 
the safety and environmental performance of fracking and to develop 
consensus recommendations for federal agencies on practices that will 
ensure the protection of public health and the environment. Secretary 
of Energy Chu named the group on May 5. The planned establishment by 
DOE and EPA of a mechanism to provide technical assistance to states to 
assess the adequacy of existing state regulations is also welcome.
    The states need the Federal Government to provide guidance and to 
lend its resources to the effort. We need a strong state-federal 
partnership. Timing and other factors probably preclude using an 
exploratory well in Maryland for one of the prospective case studies 
planned for the EPA study, but we hope that EPA will provide expanded 
guidance on the study plan for the prospective case study so that 
Maryland can gather the most relevant data, if a permit is issued for 
an exploratory well. We would also welcome the technical assistance of 
the US Geological Survey in determining what to monitor in the process 
of drilling and fracking wells for exploration, and in analyzing the 
data we obtain. A compilation of Best Practices and, until the EPA 
study can' better delineate the subsurface zone that is potentially 
impacted by hydraulic fracturing activities, preliminary guidance on 
the proper spatial area for monitoring, would also be helpful. Lastly, 
we urge EPA to develop water quality criteria for conductivity 
(specific to chemical species), dissolved solids and salinity in 
freshwater, as well as pretreatment standards for fracking flowback 
that is protective of drinking water supplies and the health of the 
citizens who rely upon those supplies.
    The Chesapeake Bay Foundation and other groups have filed a 
petition with the Federal Government for a Programmatic Environmental 
Impact Statement to address the risks and cumulative impacts of the 
extraction of natural gas from the Marcellus Shale formation in the 
Chesapeake Bay watershed. We support the goal of a comprehensive 
assessment, and we note that portions of the Marcellus Shale lie to the 
west of the Eastern Continental Divide, and that the environment 
outside the Chesapeake Bay watershed deserves protection, too.
    Thank you for taking the initiative to inquire into this important 
issue and for the opportunity to share Maryland's perspective.

    Chairman Hall. Thank you, sir.
    I now recognize Mr. Harold Fitch, Board Member of the 
Groundwater Protection Council, for five minutes to present his 
testimony.

   STATEMENT OF MR. HAROLD FITCH, MICHIGAN STATE GEOLOGIST, 
 DIRECTOR, OFFICE OF GEOLOGICAL STUDY, MICHIGAN DEPARTMENT OF 
ENVIRONMENTAL QUALITY, AND BOARD MEMBER, GROUNDWATER PROTECTION 
                            COUNCIL

    Mr. Fitch. Good morning, Chairman Hall and Members of the 
Committee. I appreciate the opportunity to be here this 
morning. In addition to my role as head of Michigan's 
Regulatory Agency for Oil and Gas and my role on the Board of 
Directors with the GWPC, I serve as Governor Snyder's official 
representative to the Interstate Oil and Gas Compact 
Commission, and I am chair of the IOGCC Shale Gas Director's 
Task Force. I also serve on the Board of Directors of State 
Review of Oil and Natural Gas Environmental Regulations 
Incorporated or STRONGER. STRONGER has conducted focused 
reviews of state hydraulic fracturing regulations in four 
states over the past year.
    I would like to talk first about regulation of hydraulic 
fracturing by the states. Hydraulic fracturing has been 
utilized throughout the United States for more than 60 years, 
and the states have a long history of successful regulation of 
the practice. I would say in contrast to Maryland, Michigan has 
a longstanding regulatory program for oil and gas. We go back 
to about 1925. We feel we have a very good handle on hydraulic 
fracturing, as well as the other oil and gas issues out there, 
and we believe that the states are the proper place to retain 
that regulatory oversight.
    In Michigan we have more than 12,000 wells that have been 
hydraulically fractured. We don't have one instance of 
groundwater contamination resulting from the practice.
    The recent development of deep shale gas formations has 
raised concern in Michigan and other states over about five 
issues which I would like to address in turn.
    The first issue is migration of gas or fracture fluids. 
There has been a few recent incidents of gas migration into 
aquifers in other states, but the cause has been well 
construction problems and not hydraulic fracturing itself. In 
fact, there are no cases of hydraulic fracturing directly 
causing gas or fluids to migrate into fresh water zones. The 
keys to preventing migration of gas or fluids are proper casing 
and sealing of oil and gas wells and proper plugging of 
abandoned wells.
    The second issue is water use. A fractured treatment of a 
typical shale gas well may require three million gallons of 
water or more. To put that in perspective, three million 
gallons is about the volume of water used by five or six acres 
of corn in a year. The states have the regulatory tools to 
address the issue in a manner tailored to their specific needs 
and legal structures. In Michigan we require application of a 
web-based water withdrawal assessment tool to evaluate those 
large withdrawals.
    Third issue is management of flowback water. After 
fractures are created in the reservoir rock, 25 to 75 percent 
of that fracturing fluid is recovered as flowback. In Michigan 
and many other states flowback water is transported to licensed 
deep disposal wells where it is isolated from the environment. 
In some states flowback water may be hauled to wastewater 
treatment plants where it is treated and discharged into 
surface waters. There have been a few cases where that has 
caused legitimate concerns over water quality impacts.
    The fourth issue is surface spills. As with any industrial 
operation, there is a potential for accidental spills or 
releases related to hydraulic fracturing. However, the states 
have requirements in place to minimize the risk of spills, to 
reduce their impacts, including secondary containment, spill 
reporting, and cleanup criteria.
    And finally, the fifth issue is identification of chemical 
additives. A growing number of public interest groups are 
advocating for public disclosure of chemical additives used in 
hydraulic fracturing fluids. Federal law requires posting of 
material safety data sheets that provide information on 
hazardous chemicals and their potential health and 
environmental impacts. While the identities of some chemicals 
are protected under federal laws and trade secrets, we believe 
that the material safety data sheets provide enough information 
to respond to and track spills.
    Next I would like to talk about the Groundwater Protection 
Council actions to address hydraulic fracturing. The GWPC has 
been engaged on the issue for some time and has published two 
very relevant reports on shale gas and state regulations to 
protect water resources. Last September the GWPC in cooperation 
with the IOGCC began development of a national registry of 
chemicals used in hydraulic fracturing. The result is a website 
called Frac Focus, www.fracfocus.org, launched on April 11. The 
website gives the public and regulators access to comprehensive 
information on chemicals used in hydraulic fracturing for 
individual wells nationwide.
    The website also contains other useful information on 
hydraulic fracturing. Within its first month of operation 40 
companies had agreed to participate, and information on more 
than 450 wells had been loaded into the system.
    Michigan and other states are encouraging the industry to 
upload data to the Frac Focus website, and several states are 
considering using Frac Focus as part of future rule changes.
    Finally, let me comment on the pending U.S. EPA study. 
While we believe the states have adequate programs, authority, 
and expertise for regulating hydraulic fracturing, we also 
acknowledge the potential benefits of a review by the EPA, 
particularly in light of the intense controversy surrounding 
the subject.
    We appreciate the EPA's pledge to work with the states, 
GWPC, and other stakeholders in conducting a study, and we are 
committed to upholding our respective roles.
    We do, however, have some concern with the scope of the 
draft study plan. The plan calls for addressing a broad range 
of questions, including the fracturing process itself, water 
withdrawals, releases of fracturing fluids and flowback water, 
and treatment of wastewaters. We are concerned that the study 
would cover general oil and gas practices that are not specific 
to hydraulic fracturing, and in addition, the broad scope of 
the study as proposed would make it difficult to produce a 
timely report.
    EPA's Science Advisory Board has urged the agency to focus 
on waste discharges, and we agreed with that recommendation.
    In conclusion, the states and GWPC are committed to dealing 
with the issues surrounding hydraulic fracturing and to 
supporting a focused study by the EPA.
    Thank you, again, for the opportunity to appear here, and I 
would be glad to entertain any questions the Committee may 
have.
    [The prepared statement of Mr. Fitch follows:]
   Prepared Statement of Mr. Harold Fitch, Michigan State Geologist, 
     Director, Office of Geological Study, Michigan Department of 
Environmental Quality, and Board Member, Groundwater Protection Council
                                Summary
    I am representing the State of Michigan and the Groundwater 
Protection Council, or GWPC. I am the Director of the Office of 
Geological Survey (OGS) of the Michigan Department of Environmental 
Quality and a member of the Board of Directors of the GWPC.
    I want to discuss the experience in regulating hydraulic fracturing 
in Michigan as well as other states, the GWPC's role in addressing some 
of the controversies surrounding the technique, and the study that is 
underway by the U.S. Environmental Protection Agency (EPA).
    Hydraulic fracturing has been utilized throughout the United States 
for more than 60 years, and the states have a long history of 
successful regulation of the practice. Recent concerns center on five 
issues: (1) migration of gas or fracture fluids, (2) water use, (3) 
management of produced water, (4) surface spills, and (5) disclosure of 
chemical additives. I will discuss each in turn.
    The GWPC has been engaged on the issue of hydraulic fracturing for 
some time, and has published two very relevant reports on shale gas 
development and hydraulic fracturing. On April the GWPC launched a 
website called Frac Focus. The website gives the public and regulators 
access to comprehensive information on chemical use in hydraulically-
fractured wells nationwide and contains much additional information 
about hydraulic fracturing and related issues. It is already getting 
extensive use.
    We support in principle the U.S. EPA ``Draft Plan to Study the 
Potential Impacts of Hydraulic Fracturing on Drinking Water 
Resources.'' While we believe the states have adequate programs and 
authority for regulating hydraulic fracturing and a very good 
understanding of the technology and its potential for impacts, we also 
acknowledge the potential benefits of a review by the EPA in light of 
the intense controversy surrounding the subject. The states and GWPC 
are committed to providing all pertinent information and other support 
to the EPA in conducting the study, although we do have some concern 
with the scope and timing.
   TESTIMONY SUBMITTED TO THE HOUSE COMMITTEE ON SCIENCE, SPACE, AND 
                               TECHNOLOGY
    Good morning Chairman Hall and members of the Subcommittee. My name 
is Harold Fitch. I am here today representing the State of Michigan and 
the Groundwater Protection Council, or GWPC. I am the Director of the 
Office of Geological Survey (OGS) of the Michigan Department of 
Environmental Quality and have served in that capacity for the past 15 
years. The OGS is charged with regulating oil, gas, and mineral 
exploration and production operations in Michigan. The Ground Water 
Protection Council is a national association of state ground water and 
underground injection control agencies whose mission is to promote the 
protection and conservation of ground water resources. I am a member of 
the Board of Directors of the GWPC.
    I am also involved in two other organizations that play prominent 
roles in hydraulic fracturing issues: the Interstate Oil and Gas 
Compact Commission, or IOGCC, and State Review of Oil and Natural Gas 
Environmental Regulations, Inc., or STRONGER.
    The IOGCC is an organization chartered by Congress that represents 
the governors of more than 30 oil and gas producing states. Its mission 
is to conserve domestic oil and gas resources while ensuring 
environmental protection. I am Michigan's Official Representative to 
the IOGCC, and I serve as Chair of the IOGCC Shale Gas Directors' Task 
Force.
    STRONGER is a non-profit organization representing states, 
industry, and public interest groups whose purpose is evaluate state 
oil and gas regulatory programs against a set of established 
guidelines. I serve on the Board of Directors of STRONGER. Over the 
past year we have conducted focused reviews of state hydraulic 
fracturing requirements for Pennsylvania, Ohio, Oklahoma, and 
Louisiana.
    I appreciate this opportunity to address you on the important issue 
of hydraulic fracturing. I want to talk briefly about the experience in 
regulating hydraulic fracturing in Michigan as well as other states, 
the GWPC's role in addressing some of the controversies surrounding the 
technique, and the study that is underway by the U.S. Environmental 
Protection Agency (EPA).

Regulation of Hydraulic Fracturing by the States

    Hydraulic fracturing has been utilized throughout the United States 
for more than 60 years, and the states have a long history of 
successful regulation of the practice. In Michigan more than 12,000 
wells have been hydraulically fractured, beginning in the 1970s. Most 
of these are relatively shallow shale gas wells in the northern Lower 
Peninsula. More recently, there has been interest in a deeper shale 
formation that requires the drilling of long horizontal holes and 
larger volumes of fracturing fluid for effective development. It is 
this type of development that has raised concerns over hydraulic 
fracturing in Michigan and other states. The concerns center on five 
issues: (1) migration of gas or fracture fluids, (2) water use, (3) 
management of produced water, (4) surface spills, and (5) disclosure of 
chemical additives. Let me address each of those issues in turn.
    Migration of gas or fracture fluids. Whenever an oil and gas well 
is drilled through a fresh water aquifer there is a potential for 
migration of gas or other fluids up the well bore and into the aquifer, 
whether or not the oil and gas well is hydraulically fractured. There 
have been a few recent incidents of gas migration in other states, but 
the cause has been well construction problems and not hydraulic 
fracturing itself. Because of rock characteristics and the physics of 
the fracturing process, it is virtually impossible for an induced 
fracture to propagate upward into fresh water zones. The key to 
preventing migration of gas or fluids is installation of steel pipe, or 
``casing,'' encased in cement. In addition, it is important to assure 
there are no abandoned and inadequately plugged wells in the vicinity 
that could constitute a conduit for movement of fluids or gas during a 
hydraulic fracturing operation or during subsequent production 
operations. The states have the regulatory tools to address these 
issues.
    Water use. A fracture treatment of a typical deep shale gas well 
may require three million gallons of water or more. To put this in 
perspective, three million gallons is the volume of water typically 
used by five to six acres of corn during a growing season. While water 
withdrawal regulations vary across the U.S., the states again have the 
regulatory tools to address the issue in a manner tailored to their 
specific needs and legal structures. In Michigan we require evaluation 
of large water withdrawals for hydraulic fracturing using the same 
methodology required of other large water users.
    Management of flowback water. After fractures are induced in the 
reservoir rock, pressure is released and a portion of the fracturing 
fluids is recovered from the well. The recovered fluid is termed 
``flowback.'' It typically constitutes 25 to 75 percent of the 
fracturing fluid originally injected. The remainder stays in the 
reservoir rock or is produced gradually along with the natural gas as 
``produced water.'' In Michigan, flowback water must be contained in 
steel tanks and transported to licensed disposal wells where it is 
injected into deep rock layers that are isolated from fresh water 
supplies. That is at least an option in many other states. In some 
states flowback water may be hauled to wastewater treatment plants 
where it is treated and discharged into surface waters. This has raised 
issues with water quality because treatment plants may not be capable 
of removing some constituents of the flowback water-particularly 
dissolved salts that may be in the native reservoir fluids and be mixed 
with the flowback. In some areas flowback water is stored and recycled.
    Surface spills. Spills of chemical additives or flowback water can 
have adverse environmental or public health impacts. As with any 
industrial operation, there is a potential for accidental spills or 
releases associated with hydraulic fracturing. However, the states have 
safeguards in place to minimize the risk of spills and reduce their 
impacts. Michigan requires secondary containment in areas where spills 
may be most likely, and has strict requirements for spill reporting and 
cleanup.
    Identification of chemical additives. A growing number of public 
interest groups are advocating for public disclosure of chemical 
additives used in hydraulic fracturing fluid. A few states are taking 
actions to require disclosure to a state regulatory agency, although 
not to the general public. Under federal law information on chemicals 
and potential health and environmental effects must be provided in 
Material Safety Data Sheets (or MSDSs), which are posted wherever the 
additives are stored, transported, or used. However, the chemical 
identities and concentrations of some of the chemicals are exempted 
from disclosure as trade secrets. Those details must be provided to 
medical personnel in the event of an emergency. In Michigan we believe 
the MSDSs provide enough information to respond to and track spills. We 
are working to make that information more readily available to the 
public.

GWPC Actions to Address the Hydraulic Fracturing Controversy

    The GWPC has been engaged on the issue of hydraulic fracturing for 
some time, and has published two very relevant reports. The first of 
these reports is called Modern Shale Gas Development in the United 
States: A Primer. The primer discusses the regulatory framework, policy 
issues, and technical aspects of shale gas resources and provides 
accurate technical information on hydraulic fracturing.
    The second report is entitled State Oil and Gas Regulations 
Designed to Protect Water Resources. The report is a comprehensive 
state-by-state evaluation. It concludes that state oil and gas 
regulations are in general adequately designed to directly protect 
water resources. The report also recommends consideration of flexible 
Best Management Practices; commends the STRONGER, Inc. process of 
reviewing state programs; and supports increased digitization of state 
data.
    Last September the GWPC began a project in cooperation with the 
IOGCC to develop a national registry of chemicals used in hydraulic 
fracturing. The result is a website called Frac Focus, 
www.fracfocus.org, launched on April 11. The U.S. Department of Energy 
provided funding support for the project. The initiative provides oil 
and gas exploration and production companies with a single-source means 
to publicly disclose the chemical additives used in the hydraulic 
fracturing process.
    The Frac Focus website features an easy-to-use interface that gives 
the public and regulators access to comprehensive information about 
hydraulically-fractured wells nationwide. Searchable fields allow users 
to identify wells by location, operator, state, and county, as well as 
a standard well identification number, known as an API number.
    The website also contains information about the process of 
hydraulic fracturing, groundwater protection, chemical use, state 
regulations, publications, and links to federal agencies, technical 
resources and each participating company. Within its first months of 
operation 40 companies had agreed to participate in the effort, more 
than 450 wells were loaded into the system by 18 of these companies, 
and the website was visited more than 28,000 times by people in 78 
countries.
    Future enhancements to the site will include an improved uploading 
system that should result in quicker posting of greater numbers of 
records, a Geographic Information System interface that will aid the 
public in locating records more easily and links to more publications, 
state agencies and other resources.
    My agency in Michigan joins other states in strongly encouraging 
the industry to upload data to the Frac Focus website. Several states 
are considering using Frac Focus as part of future chemical disclosure 
rule changes.

The Pending U.S. EPA Study

    I have reviewed the U.S. EPA ``Draft Plan to Study the Potential 
Impacts of Hydraulic Fracturing on Drinking Water Resources'' that was 
published February 7, 2011. We support the study plan in principle. 
While we believe the states have adequate programs and authority for 
regulating hydraulic fracturing and a very good understanding of the 
technology and its potential for impacts, we also acknowledge the 
potential benefits of a review by the EPA in light of the intense 
controversy surrounding the subject.
    We appreciate the EPA's pledge to work with the states, GWPC, and 
other stakeholders in conducting the study and are committed to 
upholding our respective roles. In particular, we want to assure that 
the study adhere to the directive of Congress that the study utilize 
the best available science; rely on independent sources of information; 
be a transparent, peer-reviewed process; and incorporate consultation 
with stakeholders.
    We do have some concern with the scope and timing of the study. The 
EPA intends to produce an interim report in 2012, and provide 
additional results in a 2014 report. The EPA has identified a number of 
questions to be addressed, including impacts of water withdrawals; 
releases of fracturing fluids, flowback, and produced water; the 
injection and fracturing process itself; and inadequate treatment of 
hydraulic fracturing wastewaters. EPA's Science Advisory Board has 
urged the agency to focus on waste discharges, and we agree with that 
recommendation, particularly with respect to the interim report. We 
believe that management of flowback and produced water is the primary 
concern in hydraulic fracturing. We are concerned that the broad scope 
of the study as proposed will make it difficult to produce a timely 
report.
    We have one final concern: President Obama has directed the 
Department of Energy to establish a panel to address concerns regarding 
potential negative impacts associated with hydraulic fracturing. Within 
six months, the panel is to offer advice to other agencies on how to 
better protect the environment from shale gas drilling. It is unclear 
how the panel's study will be combined with the ongoing EPA study.

Conclusion

    In conclusion, we believe the laws and rules in Michigan and other 
states effectively protect water and other natural resources as well as 
public health and safety from potential adverse effects of hydraulic 
fracturing. Michigan is typical of the oil and gas producing states in 
taking a proactive approach to address large-scale hydraulic fracturing 
as well as other issues associated with deep shale gas development. The 
GWPC will continue to assist states with their regulatory needs for the 
purpose of protecting water, our most vital natural resource.
    Thank you again for the opportunity to appear here today. I would 
be glad to entertain any questions the Committee may have.

    Chairman Hall. Thank you, Mr. Fitch.
    I now recognize Dr. Cal Cooper from Apache Corporation for 
five minutes to present his testimony.

 STATEMENT OF DR. CAL COOPER, MANAGER, WORLDWIDE ENVIRONMENTAL 
TECHNOLOGIES, GREENHOUSE GAS, AND HYDRAULIC FRACTURING, APACHE 
                          CORPORATION

    Dr. Cooper. Mr. Chairman Hall, Ranking Member Johnson, and 
Members of the Committee, thank you.
    For the oil and gas business hydraulic fracturing is one of 
the most enabling technologies ever. It will unlock vast 
amounts of hydrocarbons not only in shales but also in mature 
fields and widespread unconventional reservoirs. Companies are 
testing new applications every day. Our energy future is being 
redefined, especially here at home. This is going to have a 
really major economic impact.
    We all agree we must rationally understand its risks. Based 
on existing knowledge and practical experience we believe these 
risks are minimum and manageable. We have faith that if a 
problem is identified, industry will be able to innovate, 
adapt, and resolve it.
    Certainly the public deserves more than our assurances. As 
a Nation our choice is to employ high-quality science to frame 
and investigate concerns and then have rigorous scientific 
review that validates our conclusions.
    That means calm, dispassionate reasoning and analysis and 
focused investigations, objectivity. The common good is not 
advanced by emotionally-charged distortions and confrontational 
media. This is not a game of gotcha. It is not entertainment. 
It is about our future in every sense of the word.
    Maybe some folks believe this is just about the Marcellus. 
Well, Apache doesn't currently operate in the Marcellus Shale 
Play, but we have a big acreage position in British Columbia 
where the second-largest hydrocarbon producer in the Permian 
Basin, and we have been doing quite a bit of fracking in 
Western Oklahoma and the Texas Panhandle in the Granite Wash.
    We know this technology is truly revitalizing production in 
the North American Oil Patch, and it will rapidly expand 
internationally.
    Developing oil and gas resources requires continued 
innovation to reduce costs, never compromising efforts to 
improve environmental protection and safety. Ultimately we all 
benefit from doing this correctly, but no formula applies 
everywhere. Apache operates in states and provinces where we 
are permitted to re-inject 100 percent of flowback and produced 
water into deep underground reservoirs, completely isolated 
from freshwater aquifers. We believe this is the safest option, 
and it eliminates many potential conflicts. This is not done in 
the Marcellus.
    Recently we proved for our Canadian operations that we can 
use high-sailing water instead of fresh water for our frack 
jobs. Working with our partner, EnCana, we extract and treat 
water from a deep saline reservoir known as the Debolt 
formation. We do some treatment to it, and after fracking we 
then re-inject the flowback and produce water into that same 
formation in a closed loop system.
    High-flow-rate brackish or salt water systems like the 
Debolt, well, they are not present everywhere, and they are 
probably not present in the Marcellus. But in the Permian Basin 
we think that the Santa Rosa groundwater system can be adapted 
for a similar purpose, and we are working hard to advance that 
as fast as we can.
    Apache has also made a real effort to help the industry 
reach consensus regarding disclosure of the composition of 
hydraulic fracturing fluids. We have committed to post the 
composition of every U.S. frac job operated by us on the 
FracFocus website that Mr. Fitch just described.
    Well, the success of any scientific evaluation can usually 
be predicted by the quality and commitment of the team 
assembled to do the work, the clarity and focus of the 
investigation to prioritize testing of what is important, and 
the availability of the necessary tools and resources to get 
the job done. Good oversight also helps. Based on those 
criteria it is frankly difficult to expect much of value from 
this EPA study. It aspires to do too much with too little, in 
too short a time frame. It has no direction of priorities based 
on testing existing knowledge. It reads like a shopping list 
for research funding. Buy one of each.
    The national interest may be well served by changing the 
tone of the study. What can be done quickly for that budget? 
Perhaps the EPA could collaborate with industry to identify and 
prioritize concerns, perhaps rapid progress could be made to 
identify the chemical additives of greatest concern based on 
regionally-specific information and analysis about the ultimate 
presence of those chemicals in produced waters and the 
quantification of actual risks to the public. This would help 
all of us.
    I have met and discussed hydraulic fracturing with a great 
many talented people, including some exceptional scientists in 
industry, the EPA, national labs, universities, and committed 
environmentalists. I consider it a privilege to have served as 
a technical theme lead for an EPA hydraulic fracturing 
workshop. We all have different perspectives, but we all agree. 
Ultimately science must be objective. Sometimes it takes awhile 
to realize that truth, and hydraulic fracturing is far too 
important to be dismissed for the wrong reasons.
    Thank you.
    [The prepared statement of Dr. Cooper follows:]
Prepared Statement of Dr. Cal Cooper, Manager, Worldwide Environmental 
    Technologies, Greenhouse Gas, and Hydraulic Fracturing, Apache 
                              Corporation
    Mr. Chairman, and members of the committee,
    Thank you for this opportunity to provide an industry perspective 
on the exciting, technology driven opportunity of hydraulic fracturing. 
Today I hope to share with you some perspectives on both the technology 
as a whole and on the proposed EPA draft plan to study the potential 
impacts of hydraulic fracturing on drinking water resources.
    Apache considers hydraulic fracturing (HF) one of the most enabling 
technologies in the oil and gas business. It is a technique that 
continues to evolve; and it benefits from constant innovation as 
companies explore new applications every day. Literally the future of 
the world energy supply is being re-written as economically recoverable 
oil and gas supplies increase at dramatic rates thanks to advances in 
hydraulic fracturing. With so much potential it is essential that we, 
as a nation, investigate and rationally understand the risks associated 
with hydraulic fracturing techniques by employing high quality science 
and rigorous scientific review to validate our conclusions. The public 
may not want to engage in the analytical techniques required for 
understanding scientific tests, but it has every right to believe that 
regulators, the scientific community and industry will collaborate to 
investigate and ensure public safety, and especially to preserve 
precious resources such as groundwater and clean air.
    Given the rapid expansion of the technique, many are uncomfortable 
and even afraid of the changes it brings. To complicate matters, public 
understanding is not advanced by emotionally charged distortions and 
confrontational media. It appears that many are content to criticize 
techniques they barely begin to understand, and jump to conclusions 
without also acknowledging that innovation is likely to overcome 
obstacles as they are properly understood. The Society of Petroleum 
Engineers has estimated that there have been over two million fracture 
stimulation jobs done worldwide--more than one million in the United 
States alone in the last 60 years; there is no doubt the technique has 
improved considerably in the past five years. Science is about testing 
ideas and solving problems. The oil and gas business has a long 
tradition of technical innovation based on applied science and 
engineering that has created enormous wealth for this country and 
allowed Americans to enjoy high standards of living with relatively 
low-cost energy.

Apache's hydraulic fracturing operations

    Most focus on hydraulic fracturing in shale gas plays. Apache 
believes hydraulic fracturing will unlock vast amounts of hydrocarbons 
in both existing conventional and new unconventional reservoirs. While 
Apache does not currently operate in the Marcellus shale play, it is 
both a major player and a significant innovator elsewhere. We have a 
leading acreage position in the Horn River Basin shale gas play in 
British Columbia, Canada. Apache is the second-largest hydrocarbon 
producer in the Permian Basin of West Texas and New Mexico, where we 
are applying high-volume horizontal hydraulic fracturing techniques to 
increase oil production from a very large inventory of drilling targets 
in fields that have been producing for 60 years or more. In the 
Anadarko basin of western Oklahoma and the Texas Panhandle, we have 
achieved great success in advancing the Granite Wash play, producing 
high flow rates of natural gas and condensate from a laterally 
extensive tight sandstone reservoir that was originally developed using 
fraced vertical wells beginning in the 1970s. We recently announced we 
have extended this concept to another reservoir, the Hogshooter 
formation, where two hydraulically fractured wells have provided 
initial flow rates in excess of 2,000 barrels of oil and 3 million 
cubic feet (MMcf) of gas per day. Hydraulic fracturing is revitalizing 
production in the North American Oil Patch, and we are convinced it 
will rapidly expand internationally. Apache is actively engaged in 
hydraulic fracturing tests in unconventional reservoirs or resource 
plays in Argentina and we expect to go forward with tests in the 
Western Desert of Egypt. We recognize that our competitors also have 
global ambitions to expand the use of the technology.
    Hydraulic fracturing is a major transformative technology that 
expands and leverages long-proven drilling standards and techniques in 
order to massively increase the energy available to the growing 
population of the planet. The question before you and the industry is 
not whether it should be continued. Developing this expected flood of 
supply will require continued innovation to reduce cost and increase 
efficiency, aligned with efforts to improve environmental protection. 
Sustainable performance requires us to consider how we can reduce the 
footprint of our operations, best provide the water required and 
protect local aquifers with responsible practices, and carefully select 
and use the necessary chemicals. Ultimately we all benefit from doing 
this correctly.

Managing risks and operating in a safe and responsible manner

    Apache takes great care to protect drinking water and manage risks 
associated with drilling and production everywhere it operates. It 
surprises many that some places have little or no effective regulation 
governing the standards of common water supply wells. We are not aware, 
however, of any jurisdiction around the globe where drilling practices 
and well-design standards do not explicitly address protection of 
potable aquifers. Wells are drilled, fresh water is isolated behind 
steel and cement barriers, and the barriers are tested before hydraulic 
fracturing operations begin. Performance testing includes pressure 
tests of each cemented section and full wellbore pressure tests before 
hydraulic fracturing competitions begin. It is increasingly common for 
months to pass between the time drilling operations cease and a well is 
completed using hydraulic fracturing. Detailed continuous pressure 
monitoring is standard with hydraulic fracturing operations, and 
sometimes we employ micro-seismic monitoring techniques to help define 
the shape and the lateral and vertical extent of the fractures and 
injected fluids.
    Apache operates in states and provinces where we are permitted to 
re-inject 100 percent of flow-back and produced water into deep 
underground reservoirs completely isolated from freshwater aquifers. In 
Oklahoma and Texas, we normally make-up our frac fluids by mixing fresh 
water produced from shallow groundwater sources and surface sources 
that are purchased from land owners. Recently, we have learned a great 
deal from our Canadian operations about using relatively high saline 
water instead of fresh water, contrary to the general practices and 
expectations of the industry. In the Horn River Basin, working with our 
partner EnCana, we have developed a system for extracting water from a 
saline aquifer in the Debolt formation and treating it in a built for 
purpose plant to eliminate H2S. The water is piped to our well pad 
where we add a minimum of chemicals to create an effective frac fluid. 
After fracing we then re-inject the flow-back and produced water into 
the Debolt formation in a closed-loop system. This water source 
provides many operational advantages, and compliments efficiencies 
provided by innovative high-density well pads that allow a minimum 
surface footprint. We intend to continue to innovate to protect a 
pristine environment using a minimum of surface water and disposing of 
none into waterways.
    High-flow-rate brackish or salt water aquifer systems are not 
present everywhere. In the Permian Basin, Apache believes the brackish 
Santa Rosa groundwater system can be adapted for a similar purpose as 
the Debolt in parts of the Horn River Basin. We are currently 
investigating tests of our concept for frac systems in oil reservoirs 
using recycled brackish water as a base fluid. This has many 
environmental advantages, and well as practical reservoir management 
efficiencies, but it is especially good because if we are successful, 
we will minimize our need for fresh water. This is a clear example 
where technology enables our business and we aggressively explore what 
is possible in order to succeed. So do many others, and we all benefit.
    In addition to our general practice of water re-injection, we have 
developed a program that tests the chemical composition of our make-up 
water, whole frac fluid, flow-back and produced water at representative 
wells. We test this water even though it gets re-injected into deep 
reservoirs and would never be used for drinking. Information from these 
tests helps us communicate with our service companies to reduce or 
improve the chemical formulations in our operations.
    In addition we have undertaken many performance-based comparisons 
to aid in our selection of chemical additives. Basically, no one wants 
to pay for chemicals they don't need, and we have found that we can 
often replace non-biodegradable biocides with much less intrusive 
chemicals or even with ultraviolet light in some circumstances. We 
frequently eliminate clay control additives without detrimental 
reactions.
    Beyond our direct operational choices, Apache has made a real 
effort help the industry reach consensus regarding disclosure of the 
composition of hydraulic fracturing fluids; we have committed to post 
the composition of every U.S. frac job operated by Apache on the 
FracFocus hydraulic fracturing chemical registry. The www.fracfocus.org 
website is a joint project of the Ground Water Protection Council and 
the Interstate Oil and Gas Compact Commission.

The EPA Draft Plan

    Apache Corporation would be pleased if the U.S. scientific 
community were to conduct robust scientific investigations that better 
establish the risks of hydraulic fracturing on drinking water 
resources. Based on existing knowledge and practical experience we 
believe these risks are minimal and manageable; we have faith that if a 
problem is identified, industry will be able to innovate and resolve 
it. Society benefits from high-quality research that advances knowledge 
and ultimately makes us more comfortable with the difficult choices we 
face. Alarmist sensationalism, especially when it purports to be 
science, is destructive, and this topic has enjoyed more that it's fair 
share of that already.
    The success of any scientific evaluation can usually be predicted 
by the quality and commitment of the team assembled to do the work, the 
clarity and focus of the investigation to prioritize testing what is 
important, and the availability of the necessary tools and resources to 
get the job done. Good oversight and guidance also helps. Based on 
those criteria it is frankly difficult to expect much of value from 
this study. It aspires to do too much with too little, in too short a 
time frame. It has no direction of priorities based on testing existing 
knowledge. If this committee believes that the topic merits 
investigation, then Apache supports making adequate funds and oversight 
available to achieve a well-defined goal.
    One fundamental problem underlying this study is an unresolved 
conflict: Is it intended to be a study of risks of hydraulic fracturing 
in the Marcellus shale basin or fracturing throughout the United 
States? Issues related to surface water discharge and use of publicly 
operated treatment works (POTW) appear to be limited to the Marcellus, 
yet the study tends to consider these major national issues, deserving 
the highest priority.
    Water resource management, at the scale required for hydraulic 
fracturing, normally is the prerogative of states and local 
governments, and there is substantial variation across geology and 
jurisdiction about the net effect of water demand for any given water 
resource. States are equipped with the skills required to manage water 
resources and there is no need for this study to include the topic. Any 
evaluation of the water resources required for hydraulic fracturing 
needs to be made in the context of other major demands on water.
    Lifecycle analysis of hydraulic fracturing techniques, in terms of 
impact on water and air emissions, may deserve critical investigation, 
but in this study it contributes little to the essential question 
proposed by Congress. Likewise the proposed focus on repetitive 
toxicology studies seems a misplaced priority at this level of funding. 
Existing information should be mined and leveraged and focused studies 
undertaken to test the conclusions.
    The national interest may be well served by changing the tone of 
the study. Instead of casting a wide and shallow net hoping to catch 
something quickly, focus on developing more insightful fishing 
techniques. It would be helpful for EPA to collaborate with industry to 
identify and prioritize the chemical additives of greatest concern 
based on regionally specific information and analysis about the 
ultimate presence of these chemicals in produced waters and the actual 
risks to the public. There are likely to be different answers for 
different formations, and this aspect of study would help all parties 
focus on the development of alternative additives and practices to best 
protect the environment.
    I would like to end on a very personal note. In my journey to 
understand the real issues of hydraulic fracturing, I have met and 
discussed technical material with a great many talented people 
including some exceptional scientists in industry, the EPA, national 
labs, universities and committed environmentalists. I consider it a 
privilege to have served as a technical theme lead for an EPA hydraulic 
fracturing workshop. It is true that there is simmering distrust 
between scientists with different perspectives, but that is probably 
healthy at some level. Government science sometimes seems to encourage 
and expose our worst tendencies, especially when non-scientific issues 
may be the root cause of polarization. Ultimately science is objective. 
Sometimes it takes a while to realize that truth. Hydraulic fracturing 
is far too important to be dismissed for the wrong reasons.

    Chairman Hall. Thank you very much.
    Now we will have Dr. Michael Economides, and I know I 
pronounced it right that time. Recognize you for five minutes, 
sir.

STATEMENT OF DR. MICHAEL ECONOMIDES, PROFESSOR OF CHEMICAL AND 
        BIOMOLECULAR ENGINEERING, UNIVERSITY OF HOUSTON

    Dr. Economides. Thank you, Mr. Chairman. I have some 
prepared remarks, but I am going to forego very much because I 
don't want to review some of the----
    Chairman Hall. Turn on your microphone, Doctor.
    Dr. Economides. Can you hear me now?
    Chairman Hall. Now you can start over, and your time will 
start now.
    Dr. Economides. Okay. Thank you. I said I have some 
prepared remarks. I am going to make my presentation a bit 
shorter because I don't want to repeat the things you have 
heard already.
    I want everybody in this room to realize a truism. No 
frack, no gas. In other words, you cannot produce natural gas 
anywhere in the world without hydraulic fracturing. The 
business has evolved into a $13 billion exercise right now, and 
personally I have worked in about 70 countries thus far on 
hydraulic fracturing, and I can assure you that debates like 
this are not going to find anywhere else except here. That is 
fracturing is the quintessential way to produce natural gas. 
End of the story.
    Now, it has been the reason that natural gas has been 
sustained as a very legitimate energy source in the United 
States. You have heard earlier on that essentially we are 
almost self-sufficient in natural gas, and in particular shale 
gas is arguably the best story in the energy industry in the 
last decade. We have ramped up production from about 0 percent 
from shale gas about only four years ago to 17 percent of our 
natural gas in the United States. There has never been a story 
like this in the entire history of the oil and gas industry.
    And yet there is a study by the EPA that they have 
assembled together and the panelists, who are acknowledged 
experts in their respective fields, but almost none of those 
guys have any experience in fracturing. In fact, people like 
myself, we are almost deliberately excluded from this panel 
because we obtained it just because we have worked in hydraulic 
fracturing. That is why.
    The study plan fails to recognize some very salient points. 
First of all, the entire report focuses on nanodarcy 
permeability. This is shale gas, extra tight reservoirs, and 
yet it is purported to draw conclusions for hydraulic 
fracturing that can apply to just about everywhere else from 
100 millidarcy to 200 millidarcy wells in the Gulf of Mexico to 
everything in between.
    One frack treatment in the Marcellus Shale may actually 
have the EPA draw conclusions that would condemn an entire 
industry, regardless of any technical differences in the 
fracturing process.
    There is even more drawbacks. For instance, the study does 
not distinguish between 40 well construction, that is casing 
problems, cementing problems, and so on, or some entirely 
mythical subsurface communication as suggested in silly 
documentaries like Gasland. In the study plan they are listed 
under well injection, and this is supposed to be the Science 
and Technology Committee, so here you have some scientific 
results. What you see here is the depths of water table, the 
top blue bars, and underneath are fractured heights that have 
been actually measured in a great number of fracturing 
treatments in the Marcellus Shale.
    You can see they are separated by several thousand feet. 
There is no physical way that fractured height migration due to 
hydraulic fracturing can actually reach drinking water 
aquifers.
    And in summary, hydraulic fracturing has been used for six 
decades without significant environmental consequence. The 
approaches have been studied extensively ad nauseam by a number 
of agencies, including the EPA, and the EPA study plan, the one 
that is under question right now, in the review panel, have 
been carefully designed in my view and selected to lead to only 
one conclusion, in favor of EPA control at the crippling cost 
to the production of U.S. natural gas.
    Thank you very much.
    [The prepared statement of Dr. Economides follows:]
Prepared Statement of Dr. Michael Economides, Professor of Chemical and 
            Biomolecular Engineering, University of Houston

One Page Summary

    1. Virtually all wells require hydraulic fracturing to produce 
commercial quantities of gas (or oil).
    2. It has taken industry over 20 years to figure out that 
horizontal wellbores combined with hydraulic fracturing are the key to 
producing commercial quantities of natural gas from shale formations.
    3. Shale and tight gas now accounts for over 2/3 of the daily gas 
produced in the United States, and has led to 87% of our natural gas 
supply being produced domestically. It is important to realize that 
this gas production wouldn't be possible without hydraulic fracturing.
    4. Despite EPA having conducted several historical reviews of 
hydraulic fracturing, and clearing the process as recently as 2004, 
cap-and-trade proponents in Congress directed a new study in 2010. 
However, this time the internet tools of facebook, privately funded 
documentaries such as Gasland, and the national media have fueled a 
frenzy of anti-fracturing sentiment previously unknown.
    5. So the EPA initiated a study of hydraulic fracturing in 2010, 
ostensibly to study the potential effects of hydraulic fracture on 
drinking water.
    6. I will show with a few examples, this process has been anything 
but sound. The panel excludes outright some of the most highly regarded 
individuals in the technical area of hydraulic fracturing; presumably 
being an expert on the subject immediately condemns one as an industry 
shrill.
    7. Despite having thousands of hydraulically fractured wells to 
consider, EPA ``stakeholder'' meetings identified several handfuls of 
wells for their potential contamination to drinking water. Of these, 
only four will receive forensic examination within the context of a 
hydraulic fracturing water life cycle. The risk is that one bad well 
will condemn an entire fracturing process with this study approach.
    8. There are many, many deficiencies and concerns with respect to 
EPA's hydraulic fracturing study. The examples given today illustrate 
why the EPA's Hydraulic Fracturing Study is a Peep Show. On the outside 
the world is seeing one thing, from within the view is quite different. 
From within it is clear that the intent is to gain regulatory authority 
over hydraulic fracturing. And the consumer will bear that cost.
    9. My contention is that the hydraulic fracturing process is safe, 
already well regulated by the various States, and the hysterical outcry 
over this process is completely unjustified. Ultimately, the frenzy of 
arguments over hydraulic fracturing distill to this single fact: Either 
the United States wishes to utilize its natural gas resources, or it 
doesn't. For development of shale or tight gas goes hand-in-hand with 
hydraulic fracturing. Saying ``no' to hydraulic fracturing really means 
you are saying ``no'' to natural gas production in the United States.

    The Beverly Hillbillies entertained many generations, each program 
starting with Jed Clampett shooting at the hills with crude oil 
bubbling out of the ground. But the widely known image of Jed teaches 
us two things that are simply not true. First, recovering hydrocarbons 
isn't easy, particularly today, and secondly, the oil industry is far 
more concerned for the environment than this.
    It took many years for industry to realize that, by pumping 
hydraulic pressure into a subsurface hydrocarbon filled rock, one could 
create a crack that would make it much easier for oil, or gas, to flow 
out of the rock. Today virtually all wells require this process to 
produce commercial quantities of gas (or oil). And, as shown here, it 
has taken industry over 20 years to figure out that horizontal 
wellbores combined with hydraulic fracturing are the key to producing 
commercial quantities of natural gas from shale formations.
    This realization, combined with advancements in the ability to pump 
multiple fracture treatments in tight rock and shale formation has led 
to a huge boom in gas production. As shown here, shale and tight gas 
now accounts for over 2/3 of the daily gas produced in the United 
States, and has led to 87% of our natural gas supply being produced 
domestically. It is important to realize that this gas production 
wouldn't be possible without hydraulic fracturing.
    Despite EPA having conducted several historical reviews of 
hydraulic fracturing, and clearing the process as recently as 2004, 
cap-and-trade proponents in Congress directed a new study in 2010. 
However, this time the internet tools of facebook, privately funded 
documentaries such as Gasland, and the national media have fueled a 
frenzy of anti-fracturing sentiment previously unknown.
    So the EPA initiated a study of hydraulic fracturing in 2010, 
ostensibly to study the potential effects of hydraulic fracture on 
drinking water. Their study was issued through their own Office of 
Research, their hand-picked Science advisory council, and ultimately 
through the Hydraulic Fracturing Review Study Panel--a group of 
academics also selected by the EPA. The study is currently awaiting 
feedback from the Study Panel.
    Now, the mandate to EPA was to employ a transparent, peer review 
process in this study of hydraulic fracturing. However, as I will show 
with a few examples, this process has been anything but that. For sure 
many of the 22-member Hydraulic Fracturing Study Panel are experts in 
their own area of groundwater, public health, etc., but almost all have 
no experience in hydraulic fracturing and no understanding of current 
industry practices. The panel excludes outright some of the most highly 
regarded individuals in the technical area of hydraulic fracturing; 
presumably being an expert on the subject immediately condemns one as 
an industry shrill.
    And the lack of industry representation on the Panel is telling.
    At the Stakeholder meetings held around the country (meetings the 
Study Panel themselves could not attend) and subsequent to those 
meetings, the public was encouraged to provide information about their 
water wells--cases that might form the bedrock of a forensic review to 
determine if fracturing had caused contamination.
    Despite having thousands of hydraulically fractured wells to 
consider, EPA ``stakeholder'' meetings identified several handfuls of 
wells for their potential contamination to drinking water. Of these, 
only four will receive forensic examination within the context of a 
hydraulic fracturing water life cycle, including water source and 
availability, chemical mixing, well injection, flowback and disposal.
    Key drivers in selecting the four retrospective cases are focused 
much more on data availability and likeliness of identifying problems, 
rather than applicability in representing the normal range of 
fracturing outcomes. From these limited cases EPA expects to draw 
massive conclusions, stemming from a hurried, single year of 
`research'.
    There is simply no way four retrospective case studies can be 
considered a representative, or fair sampling of any process, 
regardless of how carefully those cases are selected. Our risk as a 
nation is that one bad well will condemn an entire fracturing process 
with this study approach.
    And the expectation of research results in one year demonstrates 
even more clearly the lack of credibility. I have been a professor for 
many years and I rarely see funded projects that can even get started 
in a year's time. With the EPA's approach we must already know the 
answers.
    Texas, Oklahoma, Kansas, Colorado and Wyoming each have over 60 
years of extensive experience with the hydraulic fracturing process and 
these States have well developed regulatory processes in place. 
Treatments must be noticed to the State before they are performed, and 
each State regulatory agency elects to witness treatments. There are 
defined casing points, cementing and testing procedures, and treatment 
monitoring. An overwhelming majority of hydraulic fracturing treatments 
are witnessed by regulatory personnel.
    In addition, STRONGER [State Review of Oil and Natural Gas 
Environmental Regulations, a non-profit, multi-stakeholder 
organization], is playing a clear role in unification of hydraulic 
fracturing oversight a the State level.
    Yet, amazingly, the EPA study specifically excludes the State 
agencies experiences from the Study plan. There can be no question that 
this omission is a deliberate attempt to direct the conclusions of the 
fracturing study.
    But ask yourself this question: Would it be more effective to have 
experienced field engineers and regulators witnessing each treatment, 
or an EPA clerk shuffling a stack of permits?
    Last week there was a blowout from a tight gas well in the 
Marcellus Shale. Wisely, the leadership in Pennsylvania calmly noted 
that when we repeat a process thousands of times occasionally there is 
a rare problem. An unexpected equipment failure allowed a release of 
frac fluids at the surface. However, this was quickly rectified. My 
point in raising this is the frenzy of negative press, both before and 
after this event, is focused on creating the fractures, rather than 
wellbore or equipment reliability. Wellbore construction and hydraulic 
fracturing are completely different and after reading the Study Plan it 
isn't clear that the committee even recognizes that.
    So let me show you a picture of fracture treatments mapped by 
Pinnacle in the Marcellus Shale. Each stage of fracture treatment is 
plotted with the red line representing the mid depth where the 
fractures originate. The shallowest point and deepest points are 
plotted. At the top, the blue is a plot of the deepest groundwater. As 
you can see, the fracture treatments are well confined heights, at 
least a mile below the deepest groundwater. The chance of propagating a 
fracture upward into groundwater is nil. You have a better chance of 
winning the lottery.
    Interestingly, we also see another aspect. As the depth of fracture 
becomes shallower, fracture height decreases, reflecting the fact that 
the overburden is becoming the smallest subsurface stress. With 
continued decreases in depth, the fracture will become horizontal, also 
preventing the fracture from propagating into groundwater.
    But since all of this is happening in the subsurface, where it 
cannot be seen, it's tough to overcome that frenzy of fear.
    There are many, many deficiencies and concerns with respect to 
EPA's hydraulic fracturing study. The examples given today illustrate 
why the EPA's Hydraulic Fracturing Study is a Peep Show. On the outside 
the world is seeing one thing, from within the view is quite different. 
From within it is clear that the intent is to gain regulatory authority 
over hydraulic fracturing. And the consumer will bear that cost.
    My contention is that the hydraulic fracturing process is safe, 
already well regulated by the various States, and the hysterical outcry 
over this process is completely unjustified
    Ultimately, the frenzy of arguments over hydraulic fracturing 
distill to this single fact: Either the United States wishes to utilize 
its natural gas resources, or it doesn't. For development of shale or 
tight gas goes hand-in-hand with hydraulic fracturing. Saying ``no' to 
hydraulic fracturing really means you are saying ``no'' to natural gas 
production in the United States.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is no ending to the energy wars that have become culture wars 
and they have infested even ostensibly technocratic agencies of the 
government that ordinarily should be held above ideology. Not so in the 
imagery-loaded EPA under the Obama Administration.
    The agency's latest foray is the establishment of a 22-member 
Scientific Advisory Board (SAB) Panel, referred to as ``Panel for 
Review of Hydraulic Fracturing Study Plan for Assessment of the 
Potential Impacts of Hydraulic Fracturing on Drinking Water 
Resources.'' Now one would think that this is a noble undertaking but a 
look at the roster of the panelists, investigative approach, 
exclusivity and ramrod urgency would put this notion to immediate rest.
    Certainly many of the review panelists are experts in their 
respective fields of ground water hydrology, toxicology, forestry, and 
public health, etc., but almost all have little to no experience in the 
well fracturing process and no understanding of current industry 
practices. The panel excludes outright any of the arguably most famous 
names on the subject: Holditch (author of 300 papers, author/editor of 
SPE Monograph on the subject), Meyer, Barree, Cleary, Smith (the 
creators of the four industry standard design softwares that could 
actually model fracture dimensions and fracture height) and myself, the 
author of 200 papers and five books on the subject. Presumably 
publications on the subject would be against the candidacy of these 
individuals as panelists, an outrageous presupposition that their 
technical prowess would render them to be industry shills.
    The almost surely intentional absence of industry participation, 
except for briefly orchestrated public testimony, is to say the least, 
curious. Coupling the absence of industry experts with the study plan 
itself provides even greater insights.
    Despite having thousands of wells to consider, EPA has held 
``stakeholder'' meetings in which several handfuls of wells have been 
identified for their potential contamination to drinking water. Of 
these, four will receive forensic examination within the context of a 
hydraulic fracturing water life cycle, including water source and 
availability, chemical mixing, well injection, flowback and disposal.
    Key drivers in selecting the four retrospective cases are focused 
much more on data availability and likeliness of identifying problems, 
rather than applicability in representing the normal range of 
fracturing outcomes. From these limited cases EPA expects to draw 
massive conclusions, stemming from a hurried, single year of 
`research'. Given that the research has not yet been awarded, one 
wonders if the answers are already foregone conclusions.
    Other aspects of the study are equally worrisome; the entire report 
focuses on nanodarcy, such as shale, rock completely ignoring the fact 
that most wells are fracture stimulated upon completion, including 
those in high permeability environments. Presumably one villain frac 
treatment in shale condemns an entire industry practice regardless of 
any technical differences in the fracturing process.
    Most panel members simply could not distinguish (or probably would 
not even care) whether any observed contamination could be the result 
of faulty well construction (a rare but real possibility) or some 
entirely mythical ``subsurface communication'' as suggested in silly 
documentaries like Gasland. Wellbore construction and the fracturing 
processes are not at all the same things, yet lack any separate 
commentary under the header ``well injection' in the flawed study plan. 
Only newly minted Ivy PhD's in public policy (likely those who wrote 
this plan), or those pre-disposed against the production of any natural 
gas, would fail to make this distinction.
    Another concern is the wholesale disregard for current State 
regulatory practices. The efficacy of existing regulations are not even 
considered in the EPA draft study plan, discounting the efforts that 
organizations such as STRONGER [State Review of Oil and Natural Gas 
Environmental Regulations, a non-profit, multi-stakeholder 
organization], have clearly played a unification and enforcement role 
at the State level. Their work is not considered as part of the 
proposed EPA Hydraulic Fracturing Study.
    Even the outcomes of EPA modelers are misled. The study plan makes 
no mention of the hydraulic fracturing models developed by industry 
experts such as those noted herein, nor is there any mention of 
modeling with the use of microseismic post fracture morphology 
(fracturing height length) verifications from hundreds of treatments. 
Rather, esteemed modelers of the EPA will ``assume'' a fracture within 
the context of their subsurface hydrologic flow models, perhaps without 
any geological context. This assumed fracture may bear no resemblance 
whatsoever to the actual fractures resulting from a pumped treatment.
    And the list goes on and on.
    Let's fast forward a year and imagine the results, assuming that 
EPA limits itself to study the four or so cases (out of hundreds of 
thousands) where suspicions may have arisen of water contamination 
either from natural gas production (unrelated to the fracturing itself, 
even if the well was fractured) or to the even rarer possibility of 
contamination because of fracturing fluid additives. Assuming that 3 
out of 4 of these cases find some connection (the two Gasland examples 
were debunked) then one can see the headline: ``EPA SAB finds that 75% 
of water contamination incidents were in fact caused by hydraulic 
fracturing,'' clearly a hatchet job, a truism that conveniently ignores 
the incredible rarity of the three case out of hundreds of thousands 
wells that are hydraulically fractured and, perhaps exactly, satisfying 
the latent motives of the creators of the EPA SAB on hydraulic 
fracturing.
    A finding that contamination can happen through an accidental 
defect in well construction, even if it has happened in one case in 
100,000, is something that simply cannot be determined from limited 
retrospective case studies, and any single official ``finding'' would 
have only one effect: alarm unnecessarily the public and reinforce the 
opinions of those that already have opinions on either side of the 
issue.
    There is a ``peep show'' quality to the whole affair, with EPA 
actions occurring within the public eye but only `glimpses' of the real 
picture within. With the introduction of the phrase ``area of 
evaluation'' in the study plan, it becomes clear that the'' show 
within'' is to impose area of review studies around any hydraulically 
fractured well in the United States. Such regulatory authority could 
shift the ``frac, no frac'' decision from State authorities to the EPA, 
resulting in gas well drilling moratoriums similar to the drilling 
largess now experienced in the Gulf of Mexico.
    To somebody that understands (and believes in) the importance of 
natural gas to the country's welfare it is clear that only those 
predisposed against any hydraulic fracturing could be pleased with this 
study. The EPA panel has served their role in sanctifying this EPA 
hydraulic study plan, positioning researchers and other so-called 
experts to legitimize a clearly illegitimate and ideologically loaded 
attack on ``fracking'', done by people that are predisposed against any 
natural gas production.
    Rarely have intentions been more transparent.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Hall. Thank you, sir, and I thank all of you for 
your testimony.
    I remind all of our Members the Committee rules limit our 
questions to five minutes, and the chair at this point will 
open the round of questions, and I recognize myself for five 
minutes.
    I will start with Mrs. Jones, and it is hard to get a yes 
or no answer, witnesses, but try to give me a yes or no on 
these because I am going to try to get through--I want to ask 
the last gentleman a question, and I am not sure how long it is 
going to take him to answer it for me. I want to save as much 
time as I can there. But I listened very closely to what you 
said. It made a lot of sense to me.
    Mrs. Jones, Madam Chairman, given that Texas produces more 
oil and gas than any other state in the U.S. and that is not 
just bragging, that is a hard cold fact. You know, Dizzy Dean 
said it ain't bragging if you can do it.
    The Railroad Commission is probably the most experienced 
state regulator or as experienced a state regulator when it 
comes to issues like hydraulic fracturing. So my question is 
have any incidents regarding hydraulic fracturing arisen since 
your tenure on the commission that you felt the state was 
unable to respond to?
    Mrs. Jones. No.
    Chairman Hall. Can you think of any situation in which you 
felt that the state regulatory mechanisms were inadequate to 
properly oversee the use of this technology?
    Mrs. Jones. No.
    Chairman Hall. By golly I did get a yes or no.
    There was an incident in Texas the past year that was 
widely reported involving Range Resources in which the regional 
office of the EPA shut down operations of the company in order 
to investigate a claim of contamination of a drinking water 
well. What was the Railroad Commission's role in this 
investigation?
    Mrs. Jones. The water well owner filed a complaint to the 
Railroad Commission on August 6 of 2010. Apparently the EPA was 
notified on August 17. We had ongoing investigation for several 
months. It takes awhile when you are investigating a potential 
contamination, and then I guess it was October 21, several 
months later, we gave the EPA a recommendation. They had also 
come in and were taking a parallel investigation and gave them 
some recommendations of what to sample at that Range production 
well, which was--the claim was made there was natural gas in a 
water well.
    We had worked very, very diligently. We concluded our 
investigation in spite of the early pronouncements by the EPA. 
We brought Range in, gave them the due process that our process 
allows. The EPA, much like today, also did not show up at those 
meetings at the Railroad Commissions Hearing Examiners, but we 
found, in fact, through our DNA testing and the isotopes they 
test and compare that, in fact, the natural gas in the water 
well did not come from Range Resources, and to this day we are 
still trying to determine the source, but there is a low-level 
naturally-occurring gas field in which many of these water 
wells for years have seen natural gas occurring in their water 
wells.
    So it is a phenomenon that is not--or whether it is not 
unique. It is very ordinary over there where those water wells 
are, and that is what we found, and in fact, after a very 
thorough investigation and an ongoing thorough investigation 
will determine where the natural gas is coming from.
    But I would suggest that the EPA failed in their processes 
to determine where that natural gas was properly.
    Chairman Hall. Do you have any idea why the EPA stepped in 
to shut down these operations?
    Mrs. Jones. I have no idea, sir.
    Chairman Hall. Did the EPA in your opinion overstep their 
authority in doing so?
    Mrs. Jones. Yes. I think they did.
    Chairman Hall. How did the incident eventually turn out?
    Mrs. Jones. We found through deliberate scientific 
processes that the natural gas was not coming from the Range 
Resources wells as the EPA had alleged, and in fact, I sleep 
very well at night every single night. I have complete 
confidence in the testing process of the Railroad Commission of 
Texas. We are the gold standard, and we look forward to helping 
the EPA if they would like to consult us, and in fact, have 
made suggestions earlier on in the investigation.
    Chairman Hall. I thank you for that.
    Mrs. Jones. Thank you.
    Chairman Hall. And thank you for your testimony.
    Dr. Economides, are you aware of the Duke study on May the 
9th, a study on methane contamination of drinking water? Are 
you familiar with the study?
    Dr. Economides. Yes, I am, sir.
    Chairman Hall. Have you read that before?
    Dr. Economides. Yes.
    Chairman Hall. I call your attention to the report itself. 
Do you have it?
    Dr. Economides. Not here in front of me. No.
    Chairman Hall. Actually, they say our results show evidence 
for methane contamination of shallow drinking water systems in 
at least three areas of the region and suggest the important 
environmental risks accompanying shale gas exploration 
worldwide.
    You know, you see that, that is in there. That is where 
they say they found those things.
    Dr. Economides. Yes.
    Chairman Hall. Then if you go on over to page 4 quickly----
    Dr. Economides. Yes, sir.
    Chairman Hall. On page four, line, down about ten lines, 
read me what they say there beginning with table two.
    Dr. Economides. ``Based on our data we found no evidence 
for contamination of the shallow wells near active drilling 
sites from deep brines and/or fracturing fluids.'' Is that what 
you mean?
    Chairman Hall. Yes.
    Dr. Economides. Yes, sir.
    Chairman Hall. And does it go on down there to say in sum, 
the----
    Dr. Economides. In sum, yes.
    Chairman Hall. --geochemical and isotopic features for 
water we measured?
    Dr. Economides. Yes. ``In sum, the geochemical and isotopic 
features for water we measured in the shallow wells from both 
active and non-active areas are consistent with historical data 
and inconsistent with contamination from mixing Marcellus Shale 
formation water or saline fracturing fluids.''
    Chairman Hall. My time is over. Just give me a quick, about 
a 1-minute opinion on the Duke study and what their first 
contention was and then they answered their own by saying there 
was nothing found.
    Dr. Economides. Well, you know, if this was not such a 
serious issue, this would have been almost a comedy routine 
because their first statement is that they just discovered 
there is natural gas over there. You realize natural gas 
methane in water has traditionally been an exploration tool for 
the oil industry. We find it, we call them to come and drill 
for gas. That is what they have found out.
    In fact, had they had a baseline for their measurements, 
most likely the methane in drinking water would have gone down 
because production reduces the reservoir pressure, which is the 
driving force for this gas, and therefore, it would have a 
negative impact. They would have concluded that drilling 
reduces manifestation of natural gas. It happened many times 
before. It is not evidence of it here for their baseline.
    Finally, their conclusion there is no fracturing speaks in 
itself, and yet their conclusion which defies any kind of 
technical in my view----
    Chairman Hall. Okay. I could go on and listen to you all 
morning, but my time is up.
    Dr. Economides. Thank you.
    Chairman Hall. And I owe them some time back.
    I now recognize Ms. Johnson for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman. It is clear 
that a variety of perspectives on this panel, that we need more 
information about hydraulic fracturing and other technologies, 
and that is one of the reasons I do not understand why there is 
resistance to getting more information, more research, and 
better understanding as to what actually is going on across the 
country.
    For example, the chemical composition of fracturing fluid 
should be made available to the public. It is a simplistic 
issue. We are pumping chemicals into our environment, and these 
chemicals might have an impact on public health.
    Why should this information be hidden from the public? 
Well, I know that the regulation to disclose the information 
are outside the jurisdiction of this Committee. The EPA study 
is not.
    Therefore, I have to say that the EPA study is an 
opportunity to gain more knowledge about the hydraulic 
fracturing, and it should not be wasted by narrowing the scope 
so much that we keep ourselves ignorant to this technology's 
impact. And although I would have liked to have seen a broader 
study with a scope that covered the impacts of hydraulic 
fracturing on air quality, wildlife, or habitat and other 
impacts, I understand that EPA does not have the funding or the 
time to implement such a comprehensive study since the deadline 
is upon them.
    That being said, the public expects us to spend its dollars 
wisely, so my question to this panel is what research is needed 
to understand the impacts of the suite of technologies used 
along the hydraulic fracturing to release unconventional 
natural gas from these previously-untouched geological 
structures such as the Marcellus Shale.
    And any member of the panel or all.
    Chairman Hall. Are you asking that of the panel?
    Ms. Johnson. Yes.
    Chairman Hall. Who wants to make a suggestion? Mrs. Ames.
    Ms. Jones. I will----
    Chairman Hall. Mrs. Jones.
    Mrs. Jones. --suggest what studies that you were 
requesting, what studies should we do. There have been a lot of 
studies done. There are ongoing studies almost everywhere 
coming out of every city. UT is now doing a study on 
fracturing. There have been--is that what you were talking 
about?
    Ms. Johnson. The research that is needed to understand the 
impact.
    Mrs. Jones. Well, we do a lot of studies. The companies, it 
is incumbent upon these companies to not want to go drill a 
well where it is not going to be economic to the extent that 
they try and minimize dry holes, and dry holes, in spite of all 
this new technology and 3-D seismic things that they can look 
at to determine, in fact, they still do drill dry holes. But I 
would say that the research on what is down there is done even 
by the companies who want to go and drill there.
    But the research about the effects of hydraulic fracturing 
have been--there has been so much research done and now with 
seismic, I think we just saw the slide, which I think is 
fascinating, about we are seeing firsthand the seismic of 
exactly where those frack, the fractures are, and they are 
very--they are thousands of feet below the Marcellus water 
table. So there is a lot of information out there for people 
who would like to stay up all night and read it to feel 
comfortable that this is a safe technology.
    So to the extent that universities want to do more 
research, I--that is fine. I am also a steward of taxpayer 
dollars, and I think it is important that research, less 
research is funded by government where research has already 
been done before, and we minimize duplicative research, but I 
think information is available out there for people who want to 
know. I know there are more studies and more research being 
done, and we always want to be vigilant at all times on the 
effects of things that are going on in industry and commerce.
    But I have got to tell you hydraulic fracturing has been 
fairly covered up in research that I know of, and I am still, 
in spite of all the research, I feel very confident----
    Ms. Johnson. Thank you. Let me get a few remarks from Dr. 
Summers.
    Mrs. Jones. Thank you.
    Dr. Summers. Thank you. Obviously in Maryland we have 
limited experience so far, and Marcellus Shale is just within 
the last couple of years been--begun to be developed. There 
have been a number of issues that have occurred due to in some 
cases improper well casing or failure of well casing. There 
have been spills, there have been explosions and fires and 
releases.
    In Maryland, obviously we don't have a lot of experience 
with this. We, as I said, are very anxious to see the results 
of the EPA study. Their Science Advisory Board states that they 
believe EPA's research approach as presented is appropriate. I 
think the linkage between a lot of these things we have been 
talking about and drinking water is very important, and 
citizens would like to know that this is a safe practice.
    So we would like to see a gathering of appropriate 
information specific to the Marcellus Shale as I have outlined 
in my remarks.
    Ms. Johnson. My time is expired. Thank you.
    Chairman Hall. The gentleman from California, Mr. 
Rohrabacher, is recognized for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing, Mr. Chairman. It is really 
important to the wellbeing of the citizens of this country that 
we discuss this issue and do so in a very honest and scientific 
way. Our people are suffering right now. My people in 
California are suffering and throughout the country. We are in 
the middle of an economic crisis that is affecting the standard 
of living, the wellbeing of our people.
    One of the reasons perhaps, the most important reason we 
are suffering now and in the middle of a budget crisis here, as 
well as family budget crises across America is--there have been 
no new oil refineries in 30 years. There has been no 
hydroelectric dams in 30 years. There has been no nuclear power 
plants in 30 years. We, in fact, have seen any new offshore and 
oil development deposits just controlled and regulated perhaps 
to the point that they were unable to provide the oil and gas 
that has been so important for our economy. Even in solar 
energy we found that the Bureau of Land Management has been 
refusing to grant permits for people who want to build solar 
energy plants out in the middle of the desert.
    So what we have had is an anti-energy policy in this 
country, and Americans are suffering because of it. One of the 
shining lights of hope is that we can now have a new source of 
natural gas and oil because of a new methodology of bringing it 
out of the earth and making it available to the people.
    I am afraid--I was a young reporter, and I will tell you I 
remember seeing the environmental movement come forward about 
all sorts of things, and when I tried to check out what they 
were talking about, it wasn't true. I mean, they would make 
statements that just weren't true.
    And so we better make sure we get to the truth of the 
matter in this issue or our people are going to continue to 
suffer.
    Let me go straight to an important issue. Dr. Summers, you 
have used the word drinking water probably about four or five 
times since you have been here this morning. Can you give us an 
example of where fracturing has polluted the drinking water, 
give us one or two examples of where that has happened.
    Dr. Summers. Well, there have been spills in Pennsylvania 
that have gone into the rivers or the water supply. Monitoring 
has not indicated so far that there has been contamination of 
drinking water supplies from any of these incidents in 
Pennsylvania that I am aware of----
    Mr. Rohrabacher. Okay. So----
    Dr. Summers. --but it is a very significant water supply 
for millions of people in the Susquehanna and the Potomac 
Basin.
    Mr. Rohrabacher. And has that been----
    Dr. Summers. And we want to make sure that----
    Mr. Rohrabacher. --polluted? Has there been an incident 
where that drinking water has been----
    Dr. Summers. There have been spills into that water supply, 
that river. What I am saying is it has not been documented to 
actually have gotten into a drinking water intake so far.
    Mr. Rohrabacher. Okay. So you have used the word drinking 
water now again four times, but there is no example of where 
the drinking water of the American people has been compromised 
because of this. Is that right?
    Dr. Summers. I am not familiar with things all over the 
country. I can just say within the Susquehanna Basin where we 
have had most of our experience with drilling, I am not aware 
of any drinking water contamination.
    Mr. Rohrabacher. Well, let me just note that you are 
someone with a Ph.D. in environmental sciences, and you are 
someone who holds authority. If there was a case around the 
country, you probably would know about it, wouldn't you?
    Dr. Summers. We are actively gathering that information 
now. As I indicated this hydraulic fracturing is relatively new 
to our region.
    Mr. Rohrabacher. Well, it may be new to your region, but I 
understand from Mrs. Jones that it is not new to Texas or the 
rest of the panelists. It doesn't seem to be new to them.
    Do any of you have an example where drinking water was 
contaminated by this new process, by fracking? No. Why have we 
heard the word drinking water being used over and over again, 
and Mr. Summers, are you using this as a reason--you went 
through all of these things that people are going to have to go 
through in order to develop this new energy source for the 
American people. I mean, from what you outlined in your plan, 
we are talking about roadblock after roadblock after roadblock 
just to make sure, and you are basing that on a situation where 
you never had even one example of the pollution of water, of 
drinking water.
    I mean, this--you want to know why we haven't had any 
hydroelectric dams, why we haven't had any nuclear power 
plants? It is that type of attitude that is destroying the 
economic wellbeing of our people.
    Thank you very much, Mr. Chair.
    Chairman Hall. Thank you. You could suggest that EPA came 
in 1,000 feet of it being truthful, so that is one example he 
could have used.
    I recognize the gentleman from Maryland, Mr. Sarbanes, for 
five minutes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate it. I want to thank the panel.
    I have been trying to step back and assess where the fault 
lines in this conversation are, and I think part of what is 
going on is you have one group that has got long experience 
with hydraulic fracturing in one set of circumstances that vows 
up and down that it is very safe. You have another group that 
is new to it and is having to analyze the potential risks 
associated with it under a different set of circumstances. 
Those can be geologic, geographic, in terms of the density of 
population, and other kinds of things, how you dispose of the 
fracking fluid. These are all factors that are different in one 
area from another area.
    So we could make a deal. We could make a deal that you 
won't brush with broad strokes the desire on the part of people 
in the states affected by the Marcellus Shale to understand 
more about the implications for there based on experience in 
other places, and we will make a deal that we won't 
automatically try to indict the whole industry for things that 
have happened other places based on our concerns about what is 
going on in the area of the Marcellus Shale, which is the 
perspective I am bringing to this hearing because I represent a 
state in the Chesapeake Bay watershed, and I share some of the 
concerns that have been relayed to you by Dr. Summers about the 
potential risks as this Marcellus Shale is explored.
    Now, you have New York State, I believe Delaware and 
Maryland either have formal or sort of unofficial moratorium in 
place. West Virginia and Pennsylvania have moved ahead. In some 
instances I think there has been a kind of head-long rush by 
the industry to lay stakes in those areas. A lot of permits 
have been issued, and there are things that are happening, and 
I want to, I mean, Congressman Rohrabacher referred, Dr. 
Summers, to your perspective as an attitude that is 
problematic.
    I want to thank you for bringing a perspective that says we 
got to make sure this is done safely in an area where the 
technology is relatively new and in an area where there have 
already been some incidents that could cause real concern.
    So I would encourage the industry as we head into this 
discussion, I think it only would strengthen the position of 
the industry, and valid points have been made on behalf of the 
industry here today, to be absolutely transparent.
    The ranking Member has raised a couple of times the issue 
of the chemical additives and being completely transparent 
about that. I think if industry steps up and goes sort of 
beyond the call of duty in demonstrating that it is willing to 
be open and candid about what is involved in these processes, 
that puts you in a good position going forward in this 
discussion, because we all understand the promise of this and 
the potential benefits that it can yield.
    So let us do it right on the front end, and doing it right 
in places like Maryland and New York and Pennsylvania where 
this new discovery has raised great hope may involve some 
things that haven't been part of the mix in other parts of the 
country. That is all I am saying. In many respects it is sort 
of apples and oranges.
    Dr. Summers, I am running out of time, of course, because I 
took the first four minutes just to say something, but let me 
ask you this question, and it goes, I think, to the importance 
of having some baseline perspective that the Federal Government 
can bring, and then obviously states can add layers of 
additional oversight and requirements if they feel that that is 
important.
    But when I think of the Chesapeake Bay watershed, it knows 
no state boundaries. We are talking about six states and the 
District of Columbia that affect the health of the Chesapeake 
Bay, the tributaries that flow into it.
    And you just speak very briefly to why it is important to 
get a perspective that can cut across state lines, even as the 
states bring their own particular, you know, views to the 
table? Thank you.
    Dr. Summers. Thank you. Not only do we share the quantity 
of water and I sit on our Susquehanna River Basin Commission, 
which regulates withdraws from the river, and we have been 
authorizing withdrawals from Marcellus Shale gas fracking in 
the basin, so we share the quantity of water, and that same 
water that is taken out there is critical for drinking water 
supplies and for the Chesapeake Bay, which receives 50 percent 
of its fresh water from the Susquehanna River.
    Similarly, the Potomac River is the water supply for 
Washington, D.C., and many communities in Maryland, and we need 
to make sure that whatever we do is fully protective of that, 
so not only the quantity of water but obviously the quality of 
water, and as I indicated there have been some spills, and the 
kinds of things that we say that we want to put in place before 
we move forward with hydraulic fracturing are exactly the kinds 
of protections and best management practices that it sounds 
like the other states in the west have been doing for years.
    So I think we need to gather that information. I appreciate 
Congressman Sarbanes' remarks to that regard. Thank you.
    Chairman Hall. The gentleman yields back.
    Now recognize Dr. Harris, the gentleman from Maryland, for 
five minutes, maybe six minutes.
    Dr. Harris. Thank you very much, Mr. Chairman, and thank 
you very much for holding this hearing because it is full of 
surprises. For instance, I am actually surprised to learn that 
there is actually no instance of drinking water having been 
contaminated, no known instance, because if you read the lay 
press and the environmental press, you would think it happened 
everywhere.
    So, Mrs. Jones, a question for you. So let me get it 
straight. In Texas this has been going on for years, I mean, 
the hydraulic fracturing, the--and you know, my analogy is to 
medical care. I mean, you know, if you have a medical procedure 
that has been going on for years and years and years, and you 
are going to find either a new location or a new application 
for it. It doesn't mean that you have to forget your experience 
over all those years.
    So this has been going on for years in the State of Texas I 
take it.
    Mrs. Jones. Absolutely. Decades, Congressman.
    Dr. Harris. Okay, and my daughter actually goes to college 
in Dallas, and my understanding is Dallas sits in one of the 
areas of this shale formation, and when I flew there, over 
there, Dallas uses reservoirs, don't they? For water. For 
drinking water.
    Mrs. Jones. Yes. I believe they do, but more Fort Worth, 
but, yes, in the Dallas, Fort Worth area.
    Dr. Harris. Yeah. The Dallas, Fort Worth area.
    Mrs. Jones. Absolutely. Yes.
    Dr. Harris. So your concern would be exactly the same as 
any concern anywhere in the country with regards to the use of 
hydraulic fracturing in proximity to drinking water sources.
    Mrs. Jones. Absolutely. It doesn't hold any water, if you 
would pardon----
    Dr. Harris. Sure. No. I kind of get that. So, Dr. Summers, 
I am just puzzled, and you know, in the context of, you know, 
an executive branch versus legislative branch struggle, it just 
went on in the State of Maryland, because my understanding is 
the State of Maryland attempted to pass the House, lower House 
pass date a two-year study moratorium on hydraulic fracturing 
which the Senate did not agree to.
    Did the Department support that two-year moratorium?
    Dr. Summers. Actually, sir, it was a two-phase study. Wells 
would be authorized after the first year. As I described in my 
testimony, we referred to them as exploratory----
    Dr. Harris. Very limited numbers but did the Department 
support the moratorium?
    Dr. Summers. Yes.
    Dr. Harris. So you had kind of the same--even in Maryland 
you had the same struggle between the executive branch and the 
legislative branch.
    Now, Dr. Summers, I have got to ask you because, you know, 
and I was concerned when I first read about what was going on 
in Pennsylvania, but, you know, you bring up the flow of the 
Potomac, you bring up the Potomac and other rivers. Let's put 
it in perspective. It is up to three million gallons in one 
well. What is the flow rate of the Potomac River in a given 
day?
    Dr. Summers. I don't know, and----
    Dr. Harris. Could you get back to me on that because I 
suspect----
    Dr. Summers. It is under----
    Dr. Harris. Right, but even if, you know, my gosh, ten 
percent of the hydraulic fracturing fluid would flow right into 
the river, you would be measuring parts per billion, maybe 
parts per million of some of these things, and what is the 
largest spills that have occurred of raw sewage coming out of 
Baltimore into the bay? Because when I was on the Committee I 
recall spills of a quarter million gallons in one day. Is that 
right?
    Dr. Summers. A quarter million sounds a little high but 
certainly millions of gallons have--sewage have been----
    Dr. Harris. Right, and do we allow the sewage system to 
still exist in Baltimore City? Because this is a direct 
analogy. I mean, and I will tell you as a physician, I would 
almost rather, much rather drink a slight amount of drilling 
fluid, hydraulic drilling fluids, than I would--of this that 
was thrown into the bay.
    What has the Department done about the hundreds of 
thousands of gallons of raw sewage that flow into the bay out 
of the Baltimore City system? This Department that wants to put 
our economic vitality of the country at stake by limiting 
access to energy because that, you know, and, again, and I 
represent a part of the state like Western Maryland but it is 
economically disadvantaged. The Eastern part of the state that 
I represent has high unemployment or economic disadvantage, and 
what you are doing is by this policy you are actually not only 
hurting that economically-disadvantaged part of the state, I 
think, and I agree with the Congressman from California, 
actually harming our economy and the country.
    So if you could just tell me what the Department has done 
for that--those sewage spills, which are known spills, have 
absolutely contaminated drinking water sources in the state. 
What do you do?
    Dr. Summers. We have issued judicial consent decrees in 
conjunction with the Department of Justice and EPA. Baltimore 
City, specifically right now is spending over $1 billion to 
make corrections and upgrades to its system. Systems throughout 
the watershed all the way up the Susquehanna and the Potomac 
have very similar problems. It is a national issue, and we are 
taking very aggressive action to deal with that, and I am not 
suggesting that we can't do Marcellus Shale gas development in 
Maryland. I am just suggesting that we need some more facts, 
and I think based on what I have heard today there is a lot of 
good information that ought to be able to help us move forward 
with this. It needs to be pulled together, though.
    Dr. Harris. Thank you very much, and I don't have anymore 
time unless that 6-minute limit was there. I yield back.
    Chairman Hall. The chair now recognizes the gentleman from 
North Carolina, Mr. Miller, for six minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Mrs. Jones, in your testimony you said that recently a 
French delegation had come to Texas to meet with your staff to 
hear all about fracking procedures, and they left very 
convinced, your testimony is, these foreign officials are 
already convinced of the benefits. They went back to France 
apparently saying we can't wait to get back there so we can do 
more fracking.
    But there was an article in Bloomberg this morning, this 
morning, today, France should ban shale explorations on risk, 
minister says. And the minister is a minister of the 
environment. I will not attempt to pronounce the name because I 
would prove myself to be a bumpkin, which everyone knows 
anyway.
    But it says, `` I am against hydraulic fracking, we have 
seen the results in the U.S., they are risk for the water 
tables, and these risks we don't want to take.'' She said it 
was an error to have issued some exploratory permits, they 
should never have been granted--an environmental evaluation 
should have been done before giving permits and not after. She 
said it is a technology we haven't totally mastered. There is 
only one technology that can be used today to produce shale 
gas, and that is hydraulic fracturing, and we don't want it, 
and it violated the precaution prevention requirements of their 
environmental laws.
    Do you have any idea what happened after that delegation 
got back to France?
    Mrs. Jones. Excuse me, Congressman. Actually, they were 
there yesterday, and I was here, so I haven't had the time to 
talk and find out how the meeting went, but I suspect that 
they--I can't put words in their mouth, but as soon as I have 
the report back I will call you and let you know what their 
impression was. I can't imagine that they were over trying to 
find out our protocols unless they had some interest in 
pursuing the same for their country.
    Certainly I think France could benefit mightily from the 
production of their energy resources, and that brings me to 
something I think that is very interesting, and I would like to 
share with this Committee.
    Mr. Miller. Well, actually, it is----
    Mrs. Jones. We have had several delegations----
    Mr. Miller. Particularly on this point of the French 
delegation, but I would otherwise like to move on because I 
don't have----
    Mrs. Jones. Okay. Well----
    Mr. Miller. --that much time.
    Mrs. Jones. --anyway, we have a lot of delegations coming 
and going.
    Mr. Miller. All right. Thank you.
    Mrs. Jones. Thank you.
    Mr. Miller. Dr. Economides.
    Dr. Economides. Yes, sir.
    Mr. Miller. In your testimony or the shortened version, the 
one page summary, you said that pretty much anyone associated 
with the industry who were the only ones who really had 
expertise in the area, was immediately condemned as being an 
industry shill from having been in the industry.
    You mentioned a Duke study, and you were very critical of 
that study, and in general I would--generally I embrace anyone 
who criticizes Duke, but in this one case do you have any--do 
you fault the qualifications of those scientists at Duke who 
performed that study? Were they unqualified to do the study?
    And second, do you know of any economic interests they may 
have had that would have affected, might have affected their 
judgment?
    Dr. Economides. I do not know the people, I do not know 
their motives, but I do have some very serious reservations 
about their conclusions. If they were my students, I would give 
them an F.
    Mr. Miller. Okay. Well, you did, again, that you--and I 
agree with you. I don't think it is fair to say anyone who is 
associated with industry is an industry shill, but do you not 
think it is that the American people and Congress have a right 
to know if anyone offering expertise has a financial interest 
in the subject matter about which they are offering their 
expertise?
    Dr. Economides. No question about that.
    Mr. Miller. Okay. Well, in your biographical sketch, your 
statement of economic interest for the Committee was 
unrevealing as they all are, but you say that you are--you have 
a faculty position at the University of Houston. Is that 
correct? And you are managing partner of Dr. Michael J. 
Economides Consultants, Inc.
    What percentage of your income comes from your faculty 
position and what comes from your consultancy?
    Dr. Economides. I get paid only $1 a year from the 
university. I give my salary back to the university.
    Mr. Miller. Okay, and how much do you make from your 
consulting?
    Dr. Economides. You mean personally?
    Mr. Miller. Yes.
    Dr. Economides. About a million dollars a year.
    Mr. Miller. Okay, and you say that your clients include 
national oil companies. What are those national oil companies?
    Dr. Economides. I am the senior advisor to Sinopec and CNOC 
to Chinese companies. I am the senior advisor to ENI, 
international oil company. I am--I work for two Australian oil 
companies on retainer. I work in Angola, Nigeria, Ghana, and 
Kazakhstan.
    Mr. Miller. And what is the nature of the consulting that 
you provide them?
    Dr. Economides. I am a technical person. I am an engineer. 
I am the person that has written the textbooks on hydraulic 
fracturing.
    Mr. Miller. Okay. So you are providing engineering 
expertise to companies doing fracking?
    Dr. Economides. Fracturing.
    Mr. Miller. Fracturing wells?
    Dr. Economides. Yes. I have personally done more than 2,000 
fracturing jobs through the world. I am one of the first 
persons to start the fracturing on the wells in West Texas, so 
I have worked in 70 countries as I testified.
    Mr. Miller. Okay. My light is red in error, but I will 
yield back the last 21 seconds of my time.
    Chairman Hall. The gentleman yields back.
    The chair now recognizes the gentleman from Texas, Mr. 
Neugebauer.
    Mr. Neugebauer. Thanks to Chairman Hall, and thank you for 
having this important hearing.
    Mrs. Jones, I think you wanted to enlighten the Committee 
on something that you started, and I would yield you some time 
to do that.
    Mrs. Jones. Thank you, Congressman, so much.
    We have missions, if you will, trade missions come over 
from all over the world to the Railroad Commission offices to 
see how we implement regulatory oversight of oil and gas 
operations, and in fact, I would like to extend the opportunity 
for those from Maryland, Dr. Summers, we may have some ideas 
that you might be able to apply on the ground in Maryland, 
because certainly it is true that we have had a lot of 
experience in doing this.
    But this natural gas, this new renaissance, if you will, 
and energy is not just for America. It is for the entire globe, 
Congressman Neugebauer, and it is very important, I believe, 
that other countries, in fact, can benefit from the energy 
security that their own natural gas resources under their 
ground might give them as well.
    So I would go so far as to say that natural gas is indeed a 
great development for America but also for the entire world as 
these people want to employ the great minds that we have here 
sitting at this table, in fact, for advice and to consult on 
how to safely and responsibly get their natural gas out.
    I would suggest also that there is not one size fits all as 
you all have seen. Certainly Maryland and the Marcellus has 
different challenges, and there are some challenges that they 
will have to meet that we don't have here in Texas, and I am 
very cognizant of that, and I think the argument can be made 
that, in fact, yes, it is true, one size does not fit all, and 
that is why it is incumbent upon the states to regulate their 
own patch, if you will, and Maryland will get put to speed, 
they will get the experience and the know how, you ought to be 
seeking the information from us, from your sister producing 
states now that you are going to become one. Welcome aboard, 
but you should be seeking our advice and other states in how 
you accommodate the groundwater or rather dispose of the 
flowback and how best practices are used.
    And so that is how states can work together. The Interstate 
Oil and Gas Compact Commission is there for us to work 
together. You might establish your own compact on your oil and 
gas drilling operations in the Chesapeake Basins.
    So I welcome the states, I welcome new kids on the block. I 
think it is exciting for America, and we serve to serve at the 
Railroad Commission, and I am not saying that we don't need, 
they don't need oversight. I am just repeating, and you 
certainly know full well from your home district, which is very 
important what we do to you all, that we must let the states 
regulate and oversee this process because only we know what is 
best for our citizens.
    Thank you.
    Mr. Neugebauer. Dr. Michael.
    Dr. Economides. Yes.
    Mr. Neugebauer. I wasn't going to try that last name 
because you probably won't try my last name.
    Dr. Economides. It is all Greek to me. Don't worry.
    Mr. Neugebauer. I hear you. I hear you. Well, I knew you 
weren't from East Texas, so I think that one of the most 
important things that you started off with, and you threw your 
presentation up there, but you said no frack, no gas.
    Dr. Economides. Right.
    Mr. Neugebauer. You know, and I think maybe it would be 
helpful for people just a little bit of time here left to talk 
about the geology and why that, the statement that you made is 
a true statement.
    Dr. Economides. Okay. Most gas wells in the world are in 
what we call very low permeability formations. There is no 
difference between oil and gas. Gas has been older and broke 
down. Long hydrocarbons have become short, methane. And so the 
same reason that made it gas made also the rock very tight. So 
you cannot have economic production with what we call ready 
flow. It is very inefficient.
    Fracturing alters the way the fluid enters the well. We 
clear the reservoir. That is a hydraulic fracture. So if you do 
not fracture, you cannot produce gas.
    There is another problem with higher level complexity 
called turbulence effect. The higher the reservoir 
permeability, the gas jumps itself. It is almost like a lot of 
people trying to run out of a stadium that want to kill each 
other. That is the same thing that happens, and it commits 
suicide.
    So in other words we want to frack again to alleviate 
turbulence in high permeability reservoirs. So air forces the 
double negative. You cannot afford not to frack any gas well in 
the world and expect to make any money.
    Mr. Neugebauer. Thank you, and just one last question. You 
know, I think the chart that you put up there showing where the 
groundwater is in relationship----
    Mr. Economides. Right.
    Dr. Neugebauer. --to where most gas wells--I think another 
thing that most people don't realize is the depth of gas wells, 
but I am going to go back to Mrs. Jones just for a quick one.
    What do you think the average depth of a gas well in Texas 
is?
    Mrs. Jones. We have some that are over a mile deep, so it 
is geologically impossible for those fracks to get anywhere 
close to the water table in Texas.
    Mr. Neugebauer. And just for the folks----
    Mrs. Jones. About 10,000 feet deep. The Barnett Shale and 
the Eagle Ford Shale that is in South Texas that is producing 
oil, too, I want to reiterate that there is also an increase in 
oil production due to hydraulic fracturing as well.
    Mr. Neugebauer. I thank the Chairman for my six minutes.
    Chairman Hall. The gentleman from Michigan, Mr. Clark, is 
recognized for five minutes.
    Mr. Clarke. Thank you, Mr. Chair. Just, to any of the 
panelists, I come from Detroit. I represent metro Detroit. We 
are the home of the auto industry which is a very fuel-
intensive industry which has innovated greatly in the last few 
years to power automobiles from energy sources, different 
energy sources, including natural gas.
    Now, there are concerns that hydraulic fracturing, and I'm 
looking at the whole process including, you know, well 
construction issues, could release contaminants into the air 
and the water. How do you believe that we can innovate in this 
area to reduce the likelihood of those contaminants getting 
into the air and water? How can we apply that same type of 
innovation to hydraulic fracturing so we can make this a more 
clean and green process?
    Dr. Cooper. I think the industry is actively engaging quite 
a bit to figure out many different innovative ways to clean up 
the water that has to be disposed on the surface. Now, I want 
to reiterate that in a lot of the United States, there is no 
reason to dispose of water on the surface. But in areas where 
it is necessary, or maybe there is some beneficial reason to 
put the water on the surface--you know, a lot of this so-called 
frack water, produced water, isn't that far from a drinking 
water standard, and it can be cleaned up. So I would say that 
there are literally hundreds of entrepreneurs and a lot of very 
big companies that are working on a lot of different techniques 
to clean up water, and there are existing techniques that are 
very simple that have been used for decades. So a lot of action 
is happening there.
    I think in the air, pretty much the same story. It is a 
little harder to collect air, but it is definitely not so hard 
to figure out ways to reduce some of the major pollutants that 
might be going into the air.
    Mr. Fitch. If I could add, I know a lot of the service 
companies that conduct the hydraulic fracturing operations are 
working on greener additives. They are already making a lot of 
progress that way, and I think that is another area that could 
bear fruit.
    Mr. Clarke. Thank you. With the time that I have remaining, 
I would like to pose another question, and that comes from my 
review of the EPA's draft plan to study the potential impact of 
hydraulic fracturing on drinking water resources, and this is 
the issue that was raised on page 49. It is not a technical, it 
is regarding environmental justice, and what I mean by that is 
how can we help minimize the environmental justice impact of 
hydraulic fracturing, meaning this, reduce the likelihood that 
poorer people or certain communities that have certain ethnic 
or racial populations are disproportionately impacted by the 
contaminants that they could be exposed to as a result of 
hydraulic fracturing? Let me illustrate the point clearly. In 
the area that I represent, we have got an incinerator, 
refinery, waste water treatment plant, and even though I 
represent Detroit in the suburbs, all of those facilities are 
located in Detroit in poor, African American areas. Those are 
my people that are being impacted by those operations. I just 
want to make sure that that doesn't happen with hydraulic 
fracturing.
    Mr. Fitch. I would be glad to respond to that as a fellow 
Michigander. The real issue here is that natural gas is where 
nature puts it. You can't move a well. You can move a well a 
certain, a little bit, but you know, not miles. You have to tap 
those reservoirs where they occur in nature. So I will say 
though that most--there is kind of a bias toward developing in 
more rural areas because it is lot easier to obtain land, it is 
a lot easier to obtain drilling sites. So there is kind of a 
natural mechanism there that would tend to move that kind of 
development out of the cites, out of the more built-up areas.
    Mr. Clarke. Let me just for the brief time mention what my 
concern is. Typically because the drilling agreements are 
between the well operators and landowners, I am concerned that 
neighbors and tenants may not really have a voice in this 
process.
    Mr. Fitch. That is a part of the scheme of development of 
oil and natural gas. The people that own or control the mineral 
rights have a right to benefit from their development. I am not 
sure beyond that what the answer would be.
    Mr. Clarke. Thank you. I yield back my limited time.
    Chairman Hall. The gentleman yields back his time. The 
Chair now recognizes the gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, I know 
you have already welcomed Elizabeth Ames Jones, our Texas 
Railroad Commissioner, to the Committee hearing today, but I 
would like to do so as well.
     Over the years, I have been her constituent, and she has 
been my constituent, so I am pleased to have her expertise 
available for Members right now.
    Mrs. Jones, I have a couple of questions for you. You 
mentioned in your written testimony, and I will quote you, 
``Our two main concerns about the EPA study are that it 
proposes to delve into areas beyond the reach of federal law 
and that it also proposes to study areas beyond the practice of 
hydraulic fracturing.''
    Mrs. Jones. Yes.
    Mr. Smith. Could you go into more details about why you 
have those concerns?
    Mrs. Jones. Yes, and thank you so much, Congressman. I will 
report back home how great it is to see you, to your family.
    It is called scope creep or mission creep, and the intent 
was first to study the effects on water. They are now 
supposedly going to be looking at more, in fact, upstream, well 
pad site, how water is procured by operators, so not just the 
hydraulic fracturing and any affect it might have anything, but 
in fact, if you will, the contract, the private contract 
between willing buyers and sellers on how to put a well 
together and how to drill a well. I think this is scope creep 
and it is not within the purview of the Federal Government or 
the EPA to, in fact, go that far, be that broad, if you will, 
and I have grave concerns about that.
    Mr. Smith. Has the EPA asked you for your opinion or your 
input in any way considering the expertise you bring and 
considering the role of Texas in the production of oil and gas?
    Mrs. Jones. We have made comments. We have provided 
comments to this draft study for the EPA. We submitted, if you 
will, comments to that, and that would be the extent. We don't 
get called and asked for our expertise often.
    Mr. Smith. I assume that they have not addressed your 
concerns, is that correct as well? ----
    Mrs. Jones. No.
    Mr. Smith. Mrs. Jones, I want to ask you another question, 
and this is actually a question we might ask the witness in the 
second panel, but I would like to get your opinion as well.
    You may or may not be aware of this, but the 2011 
definition by the EPA of hydraulic fracturing is far broader 
than the 2004 definition of hydraulic fracturing that they used 
back then. We can find no basis whatsoever for this broadening 
of their definition, no basis in fact, no basis in any kind of 
a reputable source. I would ask you to speculate a little bit 
here, but why do you think the EPA would suddenly come up with 
such a broad definition of hydraulic fracturing that is broader 
than they have ever used before?
    Mrs. Jones. Thank you. I can only, or if it would not be 
too bold for me to assume, that they would like to expand their 
footprint when even since then, in 2004, the footprint of 
drilling operations gets smaller and smaller every year. 
Technology is used the way it is meant for. It allows the 
industry to go in with a smaller footprint and be more 
efficient and in fact efficient in water use that they need to 
frack a well, and we at the Railroad Commission look at pilot 
projects of water reuse and hope and encourage them to do that. 
The market affects that, and it is moving very quickly. 
Technology is moving quickly. They are getting smaller, their 
footprint is smaller, we encourage it. The EPA seems to want a 
larger footprint.
    Mr. Smith. That is my explanation as well. Thank you, Mrs. 
Jones. Thank you, Mr. Chairman.
    Chairman Hall. The gentleman from New Mexico, Mr. Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman, and I 
appreciate all the witnesses' time today as well.
    Mr. Chairman, based on the testimony that I heard today and 
that was filed, I would just like to ask the witnesses, and I 
appreciate your efficiency, Mr. Chairman, when you were able to 
get a yes or no answer, and I only strive to be able to live up 
to those expectations, Mr. Chairman. So I will do my best to be 
like you, Ralph Hall, and see what we can do there, Mr. 
Chairman.
    But with that being said, Mrs. Jones, I appreciate you 
being here as well. Do you believe there are best practices 
that exist within hydraulic fracturing today across the 
country, but especially in Texas?
    Mrs. Jones. I do.
    Mr. Lujan. Dr. Summers, do you believe there to be best 
practices?
    Dr. Summers. We do not have them in place for the Marcellus 
I believe, and as I have said, I think we need to look at other 
areas.
    Mr. Lujan. Mr. Fitch?
    Mr. Fitch. Yes, we do.
    Mr. Lujan. Dr. Cooper?
    Dr. Cooper. Yes, I believe so.
    Mr. Lujan. Dr. Economides, is that correct, sir?
    Dr. Economides. Yes, of course. I mean, we do 80,000 
fracturing jobs in the United States per year right now.
    Mr. Lujan. With that being said, Mr. Chairman, do any of 
the witnesses believe that those best practices should be 
adopted? Commissioner Jones?
    Mrs. Jones. I think that one size does not fit all because 
the different areas of the country have different--even their 
road make-up, their population, their disposal of frack water. 
So I would like to help Maryland have a railroad commission of 
Maryland and just be able to regulate their industry so that 
they can reap the benefits like we have here in Texas.
    But what I am saying is that they have to look at the facts 
of what is really happening because if they don't, they will be 
distracted, and there may be something that really does need 
attention. And so I think it is incumbent on public servants to 
look at the facts so that they are actually addressing a 
problem if it does exist and not basically just chasing 
rainbows.
    Mr. Lujan. I appreciate that. Dr. Cooper, when you have 
teams that are training to do fracking jobs in different parts 
of the country, different parts of the world in our local 
areas, they train to do a fracking job, and they have standards 
that they operate under. Is that fair to say?
    Dr. Cooper. Yes.
    Mr. Lujan. And so if we are talking about creating 
certainty for the industry, certainty across the country and 
also certainty with the workforce and the teams that I have 
seen move forward with this, does it make sense that we have 
standards so that way when they are drilling in Texas and they 
are fracking in different parts of the country, that they are 
able to know how to go in, do that most efficiently and make 
sure that they are protecting that groundwater as well?
    Dr. Cooper. I think we have very high standards, especially 
in New Mexico.
    Mr. Lujan. So does it make sense that there should be some 
standards so that when those teams are fracking in Texas or 
fracking in New Mexico that they should live up to those same 
standards, even if they are minimum?
    Dr. Cooper. I think they already exist.
    Mr. Lujan. So if there are already minimum standards, is 
there objection by any of the witnesses that we should adopt 
minimum standards that should be followed, at least a floor, 
across the country? Any objection?
    Dr. Cooper. I think we would prefer if the State of New 
Mexico regulated the State of New Mexico and the State of Texas 
regulates the State of Texas and on and on.
    Mr. Fitch. I would just like to add I think each state is 
best equipped to deal with the issues that are unique to their 
state. There are differences in terrain, differences in climate 
obviously, differences in the geologic formations where the gas 
occurs, and I think the states are best equipped to tailor 
their regulations to those specific instances.
    Mr. Lujan. Real quick there. In New Mexico, there are no 
direct fracking laws, but there is underground injection 
control law that prohibits drilling out of zone or into 
drinking water. Is that something that makes sense that should 
be adopted nationally?
    Mrs. Jones. I am perfectly comfortable with our Railroad 
Commission standards. I don't need to adopt New Mexican 
standards for Texas.
    Mr. Lujan. That is fair. I appreciate that, Commissioner. 
And Commissioner, the water that was talked about by the 
Chairman a bit ago in Texas where the EPA went in, did that 
meet safe drinking water standards when the EPA stepped in 
there?
    Mrs. Jones. Which water?
    Mr. Lujan. The water that you answered that there was no 
contamination----
    Mrs. Jones. Oh, the Range Resources water. In fact, that 
water well owner----
    Mr. Lujan. Well, Mr. Chairman, if I may, Commissioner 
Jones, did that water meet safe drinking water standards?
    Mrs. Jones. It had gas in it before we even came into the 
picture. So he had already cut the pipe from his house and was 
not drinking from it. But several people do use it to water 
their lawn.
    Mr. Lujan. Commissioner, would you drink that water?
    Mrs. Jones. In fact, one of the homes did have a vent, and 
they were venting out the natural gas and using it.
    Mr. Lujan. That is not my question.
    Mrs. Jones. If I was at their house and they served it to 
me? Yes, I would drink it.
    Mr. Lujan. Well, I have been around some areas that meet 
some safe drinking water standards that I wouldn't drink and I 
wouldn't want kids or nephews or nieces exposed to. The one 
thing I hope, Mr. Chairman, that we can agree on is that as we 
look as what needs to be done in this area, understanding the 
needs of what needs to be done to be able to take advantage of 
natural gas across the country, is understand that I don't 
think there is any fault in trying to adopt some minimum 
standards at the very least. In New Mexico, several groups have 
gone forward and adopted some closed-loop standards which I 
would look forward to hearing from some of the witnesses as 
well, Mr. Chairman, but I certainly hope that we can find some 
common ground on this and at least adopt some agreement to 
begin the conversation about adopting minimum standards as 
opposed to saying, you know, what is good for us is not good 
for anyone else when we are looking at protecting our water as 
opposed to accommodating our water resources. Thank you, Mr. 
Chairman.
    Chairman Hall. Thank you. The Chair recognizes the 
gentlelady from Florida, Mrs. Wilson, for five minutes.
    Ms. Wilson. Thank you, Mr. Chair, and Ranking Member 
Johnson for holding this hearing.
    This is a question for all of the panelists. I am from 
Florida, and we had fallout from the BP tragedy, Deepwater 
Horizon tragedy. And that particular tragedy illustrated 
tremendous forces and inhospitable conditions in which modern-
day deepwater drilling takes place as well as increased risk 
that comes with these activities. Equipment and operators must 
be up to the task with no room for error. In that case, they 
were not.
    We learned that relatively simple things such as greater 
automation and more monitoring to catch irregularities could 
prevent accidents. Just last month a blowout at a gas well in 
Pennsylvania demonstrated that these risks are not confined to 
the deepwater. In the business of hydraulic fracturing, what 
steps is industry taking to reduce and manage these risks; how 
are wells monitored, and are all wells monitored this way; and 
how do safety-related lessons learned in the off-shore industry 
transfer to the on-shore, unconventional sector and vice-versa?
    Mrs. Jones. Thank you, Congresswoman. I would like to say 
that unlike the Federal Government oversight of the off-shore, 
the Railroad Commission's oversight of the Texas oil and gas 
operations has not generated such a traumatic event. And I 
would be willing also to work with BOEMRE and any other federal 
agency, formerly the Minerals Management Service, to apply the 
maximum standards that we use at the Railroad Commission to 
ensure the responsible operations.
    One of the things you mentioned, specifically, hydraulic 
fracturing. We have spacing rules that operators come in when 
they want to get a permit to drill a well, distance rules. 
Communities are putting in some of their own distance rules, 
but mainly our oversight is of the down hole and the disposal 
of any water that comes back. In our State, we have strict well 
casing rules to make sure that water cannot migrate out of the 
well. Cementing, they run cement logs. We have pages of rules 
and regulations to ensure responsible down-hole drilling 
operations of the industry, and we also want to make sure that 
people benefit who own the minerals. And now with urban-
suburban drilling, there are a lot more people who are reaping 
the financial benefits because they own the minerals. But it is 
true, if they don't own the minerals, sometimes they are 
inconvenienced by a well that might go in near to their 
neighborhood. But the severance tax that they pay off the top 
from that natural gas goes into state coffers and funds 
schools, permanent school fund to some extent, but a rainy-day 
fund primarily. And 33 school districts are funded by the taxes 
of oil and natural gas production right off the top at the well 
head, for them in taxes and for the State as well.
    So we have a protocol in place that is ensuring that we 
maximize our resources, use them to the best of our ability and 
one of our mission statements is the protection of the 
environment as well. And I can tell you, I remain vigilant 
every single day. In fact, I would prefer that Texans remain 
vigilant in Texas, and perhaps if the Federal Government had 
been as vigilant as we are, the BP accident or disaster would 
not have taken place.
    Chairman Hall. Yes? You yield back?
    Ms. Wilson. Want to respond? It was just thrown out there.
    Chairman Hall. Oh.
    Mr. Fitch. I could say a few words to that, I guess. I am 
not sure exactly the details behind that Pennsylvania blowout, 
but I think I can safely say it was not a fracturing issue, per 
se. It was a well control issue. You can have that with any 
kind of well, whether it is fractured or not. To echo Texas, 
the states do have safeguards. We require casing programs, 
blowout preventer programs to counteract those kinds of things. 
However, nothing is ever going to be totally risk free.
    Dr. Economides. Let me, if I might, add a couple of 
comments here. First of all, fracking and drilling are not the 
same thing. People bunch them together. We drill wells, then we 
frack them. They are not connected as processes.
    There is no such thing as risk free. If you are familiar 
with the rule of nines, in other words, nine, nine, nine, nine, 
there is always one probability out there for something 
horrible to happen.
    In this respect, the oil and gas industry is one of the 
safest industries in the world, in spite of sensational 
accidents. You don't stop flying because an airplane crashes, 
and the same thing, we don't stop drilling for this very vital 
commodity, oil and gas, just because one errant well had an 
accident.
    Chairman Hall. Does the gentlelady yield back?
    Ms. Wilson. Mr. Chair, I don't want to assume or give you 
the impression that we should stop because of one accident. 
However, my question was, what safeguards do you have in place 
to prevent accidents.
    Dr. Economides. Well, there are plenty of them. We are 
computer monitored in everything we do. We take great lengths 
to do measurements before and after any action we do. We take 
into account integrity of the well. We do everything in our 
power to prevent spills. We do everything in our power to 
prevent zonal communication with adjoining geological 
structures, let alone some things that are thousands of feet 
away.
    So in other words, the industry has no economic interest to 
be careless. The industry, on the contrary, environmental 
sensibilities notwithstanding, has a financial interest to do 
things right, and they do it right.
    Chairman Hall. The gentlelady's time has expired.
    Ms. Wilson. Thank you, Mr. Chair.
    Chairman Hall. Thank you. Before we recognize the gentleman 
from Michigan, Mr. Benishek, I want to recognize our astronauts 
on the back stage there. I would like for you all to stand up 
and let us honor you from STS 133, you just landed when, 
yesterday or the day before?
    Voice. We got back Saturday morning.
    Chairman Hall. Well, that is about how up to date I am. But 
we appreciate you very, very much. And you are the Columbuses 
and Magellans of space. We are proud of you. Thank you. And 
don't any of you come back and run against any of us in our 
district because you would get elected.
    Okay. The gentleman from Michigan, Mr. Benishek, is 
recognized.
    Mr. Benishek. Thank you, Mr. Chairman. Mr. Fitch is here 
from Michigan, and I think I will address this question to you. 
There have been numerous comments filed with the EPA including 
the Administration's Department of Energy. They have pointed 
out that the EPA draft study does not objectively characterize 
the risk of this drinking water fracking in part because they 
selectively focused on cases that have had negative outcomes 
reported, although not necessarily confirmed. Do you agree with 
the concern that there is no quantitative analysis of the risk 
that may skew the results?
    Mr. Fitch. I do agree with that. I think any activity you 
look at out there you can find potential problems or actual 
problems, and by not putting it in context, I think it at least 
certainly lends itself to being misused by people who are 
opposed to energy development, and that would be our concern. I 
think it needs to be put in perspective.
    Mr. Benishek. Thank you. Does anyone else on the panel have 
any other comments on sort of that line of thinking?
    Dr. Cooper. I think we are asked to quantify risk all the 
time, and I think it is a big glaring hole that EPA doesn't 
seem to think that they need to quantify risk.
    Mr. Benishek. Thank you very much, gentlemen. I yield back 
the remainder of my time.
    Chairman Hall. The gentleman yields back. Dr. Broun, do you 
have questions? The gentlelady from California, Ms. Woolsey, is 
recognized for five minutes.
    Ms. Woolsey. Congresswoman Woolsey does not have a 
question. Thank you.
    Chairman Hall. Congresswoman Woolsey is recognized for six 
minutes. It doesn't take her long to use up her six minutes.
    All right. I thank the witnesses for your very valuable 
testimony, and I thank the Members for their questions. We are 
going to now move to the second panel, and if Dr. Anastas takes 
his seat at the table--somebody call Dr. Anastas and tell him 
he is on.
    Dr. Broun. Mr. Chairman?
    Chairman Hall. The Chair recognizes--
    Dr. Broun. Before this panel leaves, I would like to ask a 
quick question, if I may.
    Chairman Hall. All right. You may.
    Dr. Broun. I apologize for throwing the wrench in the works 
here while we are waiting for the next panel to come.
    I wanted to follow up on what Mr. Lujan was saying. I 
believe in the Constitution as our Founding Fathers meant for 
it to be, and Mr. Lujan is going down a track, talking about we 
needed to see up some federal minimum standards. And frankly, I 
think the states personally can set whatever standards are 
necessary to make improvements or protect the environment 
within their own states. Do any of the five of you see any 
necessity to having a federal standard or can you, within your 
own state, within your own purview, set up standards that are 
necessary to protect your own state's drinking waters and make 
sure that your citizens continue to be safe? Very quickly.
    Dr. Summers. I believe we do need to have minimum standards 
and specifically in my testimony I mentioned the fact that we 
have interstate waters, and we need to make sure that all the 
states are doing at least minimal level of protection.
    Dr. Broun. Can we do that through interstate cooperation 
instead of having some federal nexus here?
    Dr. Summers. In fact we have the Susquehanna River Basin 
Commission which I mentioned that has representatives from all 
the states that share that watershed, and I believe that that 
works extremely well. But we don't have that across the entire 
set of watersheds that impact Maryland. So in Maryland, I think 
that would work with the Environmental Protection Agency, 
Region III and the Chesapeake Bay Restoration has been a good 
example of how that federal work with the states can be very 
effective and productive.
    Dr. Broun. Anybody else, very quickly? Mrs. Jones? Go 
ahead.
    Mrs. Jones. I would say no, that we can, the State of 
Texas, can certainly and has already developed minimum and they 
are quite stringent minimum standards. And thank you, 
Congressman, because I don't see anywhere in the Constitution 
where the authority to do this was delegated to the Federal 
Government. And I think that the states can regulate their own 
energy patch just fine--we have also worked with the EPA, and I 
think that Maryland, I look forward to helping to craft a 
compact where they can regulate their energy resources, too. We 
can share knowledge and certainly are just a phone call away.
    Dr. Broun. Anybody else want to comment?
    Mr. Fitch. I would say from my perspective, each state is 
fully capable and has the necessary authority to properly 
regulate oil and gas, all aspects, including hydraulic 
fracturing. We do cooperate among the states. The Interstate 
Oil and Gas Compact Commission is one very good vehicle for 
that, and we would welcome Maryland's stronger involvement in 
IOGCC, and we would be glad to help share some of our expertise 
in that area.
    I mentioned I am a member of the board of Stronger, 
Incorporated. We review states on a voluntary basis for their 
regulatory programs against a set of guidelines, and as I said, 
we just completed this year review of four states' hydraulic 
fracturing programs to, you know, give some assurance that they 
meet minimum standards.
    Dr. Broun. Anybody else want to comment? I thank you all 
for the quick answers, and thank you for coming back on the 
panel. But I want to say this. Our Federal Government has 
gotten too large. We are spending too much money. We are 
interfering with state business too much. We need to go back to 
the original intent of the Constitution which means very 
limited government. The Constitution only authorizes the 
Federal Government to be involved in national defense, national 
security and foreign affairs predominantly. There are a few 
other things constitutionally that we have authority to do, and 
it is not in our purview to interfere with what the states are 
doing. There is a state DEP in every state of this country that 
is engaged in trying to protect the citizens of that state, and 
I applaud what you all are doing, and I encourage you to 
continue to do so and thank you for your testimony. Thank you, 
Mr. Chairman. I yield back.
    Mr. Rohrabacher. Would the gentleman yield?
    Dr. Broun. Certainly to you. I will always yield.
    Mr. Rohrabacher. Well, while we were going through the 
hearing here, I went out and had to get a hamburger. Now, what 
I need to know is if we keep obstructing the development of 
energy, and especially this new opportunity we have through 
fracking, do you think the price of these hamburgers are going 
to go up for ordinary people? Is that what it is all about? I 
think it is. If we are going to be sucking wealth out of our 
country and having to send it overseas, eventually we are going 
to have to spend more money for what we get here.
    So Mr. Chairman, I really took to heart what our colleague 
from Michigan was talking about when he said he was talking 
about the poor people who live in his area and how they are 
severely impacted by various uses of energy. Let me just note. 
We have more and more poor people and fewer and fewer 
hamburgers for us to eat if we don't develop our own energy 
resources. There is a direct relationship. Yes, no fracking, no 
gas. No gas, no prosperity. No prosperity, no jobs, no good 
life for the American people.
    So thank you all for your testimony. Thank you, Mr. 
Chairman for leading this effort.
    Chairman Hall. Are you going to eat all that hamburger and 
not even offer us a bite?
    Mr. Rohrabacher. These are my carbs. It has something to do 
with sunshine and gas----
    Dr. Broun. All right. I will reclaim my time, Mr. Chairman, 
and I yield it back.
    Chairman Hall. I once again thank the panel and the Members 
for their questions, and we have our second panel now. Dr. 
Anastas, please take your seat at the table.
    You folks are welcome to stay, and the seats are set aside 
for you back there.
    Before getting settled, I would like to recognize a couple 
of people that I am honored to have in presence here. Mr. 
Howard Zelkiv, Rock Wall and Dallas Area Chamber of Commerce 
and Association of Realtors and have Mrs. Pat Bell who is a 
leader in the field of education in Paris, Texas, in that area. 
Glad to have both of you there. Thank you.
    Dr. Anastas, are you ready to roll?
    Mr. Anastas. Yes.
    Chairman Hall. All right. A reminder to you that your 
testimony is limited to five minutes after which Members will 
have five minutes each to ask questions. I now recognize our 
first and only witness for this panel, Dr. Paul Anastas, 
Assistant Administrator for the EPA, Office of Research and 
Development and science advisor to EPA, for five minutes, sir.

STATEMENT OF DR. PAUL ANASTAS, ASSISTANT ADMINISTRATOR, OFFICE 
  OF RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Dr. Anastas. Good morning, Chairman Hall, and Members of 
the Committee. My name is Paul Anastas, and I am the Assistant 
Administrator for the Office of Research and Development of the 
U.S. Environmental Protection Agency.
    I want to say on a personal level how happy I am to be here 
before this Committee. I have appeared before this Committee on 
numerous occasions, and I believe you know, Mr. Chairman, that 
they have always been useful and productive. And so I 
appreciate the opportunity to be here today.
    Let me begin by saying that natural gas is an abundant 
source of domestic energy. However, as everyone can agree, we 
must ensure that its extraction is done in a way that does not 
contaminate the Nation's drinking water supplies.
    Last year, in response to Congress and citizens across the 
country, EPA began designing a scientifically rigorous study on 
potential linkages between natural gas extraction through 
hydraulic fracturing and drinking water contamination. 
Consistent with advice provided by the Science Advisory Board 
at the U.S. EPA, in June of 2010 the scope of EPA's proposed 
research plan spans the full life cycle of water used in 
hydraulic fracturing activities from its acquisition to 
chemical mixing, fracturing and post-fracturing and its 
ultimate treatment and disposal. This full life-cycle approach 
is necessary to identifying and understanding all of the 
factors that may impact the water quality of drinking water 
supplies across the United States.
    As we move ahead with the scientific process, we will 
adhere to two basic principles. First, our work will be driven 
by sound science. EPA has never and will never presuppose the 
outcome of any research effort. As this study progresses, we 
will rely only on sound scientific data and results to draw 
conclusions. Additionally, the draft study plan includes EPA's 
rigorous quality assurance requirements and upholds the highest 
standard of scientific integrity, a principle that is central 
to all of this agency's scientific work.
    [The EPA Draft Plan can be accessed at EPA/600/D-11/001/
February2011/www.eps.gov/research.]
    Let me also be very clear. The new pertinent science from 
any and all scientific sources will be considered by EPA if it 
is independent and peer-reviewed.
    Second, it is my firm belief that when citizens voice their 
concerns through their elected officials, it is the duty of 
public servants to address them in an open and transparent way. 
To this end, EPA is directly engaging stakeholders and 
technical experts throughout the course of the design of this 
study and the implementation of this study. For example, we 
have held a series of webinars for state, federal and tribal 
stakeholders which have drawn representatives from 21 states as 
well as the Association of State Drinking Water Administrators, 
the Association of State and Interstate Water Pollution Control 
Administrators, the Groundwater Protection Council and the 
Interstate Oil and Gas Compact Commission.
    We also held webinars with representatives from industry 
and non-governmental organizations to discuss public engagement 
process, the research study scope, data sharing and other 
issues of interest. In total, 64 individuals from NGOs and 176 
individuals from natural gas production and service companies 
and industry association have participated in these webinars.
    In the summer of 2010, EPA also held four public 
information sessions in Ft. Worth, Texas; Denver, Colorado; 
Canonsburg, Pennsylvania; and Binghamton, New York. More than 
3,500 individuals attended these sessions, provided more than 
700 verbal comments and over 5,000 electronic and written 
comments. In addition, between February and March of 2011, EPA 
held a series of technical workshops with experts from industry 
and academia to discuss chemical and analytical methods, well 
construction and operations, fate and transport, and water 
resources management. More than 160 experts participated in 
these workshops, and all of these associated, meeting agendas, 
presentations, and proceedings can be found on the EPA web 
site.
    As the fracturing study progresses and results become 
available, we will continue to provide updates and invite 
stakeholder input on technical issues of concern. Their 
feedback is always welcome.
    Mr. Chairman, this study is, first and foremost, about 
obtaining the knowledge to protect the American people and 
their environment. We are pursuing this work with the best 
available science and the highest level of transparency. As is 
our duty, we will conduct and present this study to the 
American people in the same, unbiased scientifically rigorous 
manner which we carry out all of our work.
    I look forward to keeping this Committee updated on all of 
our progress, and thank you for the opportunity to appear 
before you today.
    [The prepared statement of Dr. Anastas follows:]
Prepared Statement of Dr. Paul Anastas, Assistant Administrator, Office 
   of Research and Development, U.S. Environmental Protection Agency
    Good morning Chairman Hall, Ranking Member Johnson, and other 
members of the Committee. My name is Paul Anastas. I am the Assistant 
Administrator for Research and Development (ORD). It is a pleasure to 
be here with you this morning to discuss the EPA Office of Research and 
Development's Research Plan to Study the Potential Impacts of Hydraulic 
Fracturing on Drinking Water Resources.
    In its FY2010 Appropriations Committee Conference Report, Congress 
directed EPA to study the relationship between hydraulic fracturing and 
drinking water. In response to this request, and interest by 
stakeholders, EPA is undertaking a study to understand the potential 
impacts of hydraulic fracturing on drinking water resources. As 
Congress requested, the study will use the best available science and 
independent sources of information. We will undertake the study using a 
transparent, peer-reviewed process and will consult with stakeholders 
throughout the study. Produced responsibly, natural gas has the 
potential to reduce green house gas emissions, stabilize energy prices, 
and provide greater certainty about the future energy reserves.
    The study is designed to examine the conditions that may be 
associated with the potential contamination of drinking water 
resources, and to identify the factors that may lead to human exposure 
and risks. The scope of the proposed research includes the full 
lifespan of water in hydraulic fracturing, from acquisition of the 
water, through the mixing of chemicals and actual fracturing, to the 
post-fracturing stage, including the management of flowback and 
produced water and its ultimate treatment and disposal, an approach 
EPA's Science Advisory Board (SAB) agreed was appropriate in their June 
2010 review.
    EPA recognizes that there are important potential research areas 
related to hydraulic fracturing other than those involving drinking 
water resources, including effects on air quality, aquatic and 
terrestrial ecosystem impacts, seismic risks, occupational risks, and 
public safety concerns.
    The SAB reviewed the draft plan on March 7-8, 2011. Consistent with 
the operating procedures of the SAB, an opportunity was provided for 
the public, including affected stakeholders, to provide comments for 
the SAB to take into account during their review. The Agency will 
consider all of the public comments, revise the study plan in response 
to the SAB's report and begin full implementation of the plan. A first 
report of research results is expected by the end of 2012. Certain 
portions of the work will be longer-term projects that are not likely 
to be finished at that time. An additional report of study findings 
will be published in 2014 after these longer-term projects are 
completed.
    We are now in the final stages of evaluating and selecting 
candidate field locations for retrospective and prospective case 
studies. Retrospective case studies provide an opportunity to 
investigate instances where concerns about drinking water have been 
reported, and to determine whether and to what extent any impacts may 
be associated with hydraulic fracturing. Prospective case studies will 
allow us to observe modern hydraulic fracturing practices and gather 
data uniquely available during this process, such as samples of 
flowback and produced water.
    In addition to case studies, our research will include analysis of 
data from many sources, including industry and the states, along with 
laboratory studies and modeling to assess a range of conditions under 
which hydraulic fracturing takes place.

Stakeholder Input

    Stakeholder input has played, and will continue to play, an 
important role in the hydraulic fracturing study. We have implemented a 
strategy that engages stakeholders and technical experts in dialogue 
and provides opportunities for input on the study scope and case study 
locations. We have held webinars with stakeholders, including 
representatives from 21 states as well as the Association of State 
Drinking Water Administrators, the Association of State and Interstate 
Water Pollution Control Administrators, the Ground Water Protection 
Council, and the Interstate Oil and Gas Compact Commission. In 
addition, we have held webinars with representatives from industry and 
from non-governmental organizations (NGOs) to discuss the public 
engagement process, the scope of the study, coordination of data 
sharing, and other key issues. Overall, webinar participants have 
included 176 individuals from various natural gas production and 
service companies and industry associations, as well as 64 individuals 
from NGOs.
    EPA held public information meetings between July and September, 
2010, in Fort Worth, Texas; Denver, Colorado; Canonsburg, Pennsylvania; 
and Binghamton, New York. At these meetings, EPA presented information 
on the Agency's reasons for studying hydraulic fracturing, an overview 
of what the study might include, and how stakeholders could be 
involved. Opportunities to present oral and written comments were 
provided. Total attendance for all of the information public meetings 
exceeded 3,500, and more than 700 oral comments were heard. EPA also 
provided stakeholders with opportunities to submit electronic or 
written comments on the hydraulic fracturing study and received over 
5,000 comments.
    In February and March 2011, EPA held a series of four technical 
workshops with experts from industry, academia and others to discuss 
chemical and analytical methods, well construction and operations, fate 
and transport, and water resource management. More than 160 experts 
from industry and academia participated in these workshops. The 
information shared during these workshops will be very useful to EPA in 
the conduct of the study. In the interest of transparency, the agendas, 
presentations, and proceedings will be posted on EPA's web site.
    As the research progresses and results become available, we will 
engage stakeholders by providing updates and receiving input on 
technical issues of concern.

Coordination with Other Federal Agencies

    EPA has been actively consulting with several key federal agencies 
regarding research related to hydraulic fracturing. We have met with 
representatives from the Department of Energy (DOE), including DOE's 
National Energy Technology Laboratory; the US Geological Survey; the US 
Army Corps of Engineers; and other agencies to identify opportunities 
for collaboration and leveraging of resources. Federal agencies have 
also commented on the draft study plan through an interagency review 
process.

Scientific Integrity

    As noted in EPA's draft study plan, all EPA-funded research 
projects, whether conducted by EPA scientists or extramural 
cooperators, will comply with the most rigorous level of the Agency's 
Quality Assurance (QA) requirements. This will include, for example, 
technical system audits, audits of data quality, and data quality 
assessments; performance evaluations of measurement systems; and QA 
review of products. The scientific integrity of our research will be 
further ensured through the peer review of our research results.

Conclusion

    In conclusion, I want to assure the members of this committee and 
others that this study will be conducted through a transparent, peer-
reviewed process in consultation with other Federal agencies as well as 
appropriate State and interstate regulatory agencies.
    I look forward to working with the Committee to address current and 
emerging environmental problems that will help our Agency protect the 
environment and human health. Thank you for the opportunity to appear 
before you today.

    Chairman Hall. I thank you, sir, and I remind Members 
again, Committee rules limit questioning to five minutes. At 
this point I will open a round of questions by recognizing 
myself for five minutes.
    Dr. Anastas, you know that I don't agree with you about 90 
percent of the time, don't you? You understand that? And you 
are willing to come and testify here, and I thank you for that.
    Dr. Anastas. I certainly am. Thank you, Chairman.
    Chairman Hall. I find it interesting that the Department of 
Energy has filed comments with EPA that were clearly critical 
of the draft plan. You are aware of that, aren't you?
    Dr. Anastas. I am.
    Chairman Hall. Specifically DoE said EPA's scope will not 
objectively characterize risk ``given that the retrospective 
case study methodology will selectively focus on cases for 
which there have been negative outcomes. There is concern that 
the study may not adequately represent the overall risk 
presented by hydraulic fracturing'' the comment says.
    So Doctor, I guess I ask you, what is your response to 
these comments from DoE?
    Dr. Anastas. I think it is important to recognize what this 
study is intended to do. This study is intended to understand 
the factors that potentially could result in impact to drinking 
water from hydraulic fracturing operations. When we are saying 
that we want to understand the factors, that is, trying to 
understand the factors that are the basis of whether or not a 
risk exists. This study is not intended to be a risk 
assessment. This study is not intended to assume that there is 
a risk. This study is intended to understand whether or not the 
factors are present that would result in a potential impact to 
drinking water.
    Perhaps I could explain even further.
    Chairman Hall. All right.
    Dr. Anastas. In order for there to be a risk----
    Chairman Hall. You have not made me understand it yet but 
go ahead.
    Dr. Anastas. In order for there to be a risk, there needs 
to be the elements of both hazard and exposure. Those are the 
factors that we are seeking to understand. Are there hazards 
that could impact the drinking water and is there exposure? The 
results of those two elements are what would cause a risk, and 
we are not presupposing the outcome of this study in order to 
do a risk determination.
    Chairman Hall. Do you agree or disagree with the DoE 
comments? I can't tell.
    Mr. Anastas. Let me be clear. The DoE comments are saying 
that this study does not conduct a risk assessment. I am saying 
that this study is not a risk assessment.
    Chairman Hall. You disagree with them?
    Dr. Anastas. Yes.
    Chairman Hall. Okay. That is what I wanted to hear you say. 
Your EPA research office is responsible, are they not, for 
carrying out this study, your office?
    Dr. Anastas. That is correct.
    Chairman Hall. And it seems strange that all of the online 
materials and information related to this study are located on 
EPA's Office of Water website. Why is that? They are 
responsible for water-related regulations.
    Mr. Anastas. We want to make the information available and 
easy to find. We can certainly have a mirror website say where 
people could go to either, but I think the most important thing 
is to make sure that the information is available to the 
American people.
    Chairman Hall. Who carries out the study? I would expect 
this study to be carried out by scientists whose job it is to 
focus on research, which are a research.
    Dr. Anastas. That is correct. The study will be carried 
out----
    Chairman Hall. Not by people whose job it is to regulate, 
and I don't really consider you regulators.
    Dr. Anastas. That is correct. This study will be carried 
out by scientists.
    Chairman Hall. With that in mind, please describe the 
division of labor between your office and the Office of Water. 
I would like to know who makes these decisions.
    Dr. Anastas. These decisions and this study is being 
carried out by the Office of Research and Development.
    Chairman Hall. Approximately how many staff within each 
office will be dedicated to that effort?
    Dr. Anastas. I will have to get back to you on the exact 
number of staff because that is not a number that I have at my 
fingertips, sir.
    Chairman Hall. All right, sir. In question, two, of the 
invitation letter which I have here, I ask you if you would 
allow for public comment on the revised study plan so after the 
Science Advisory Board provides comments and recommendations, 
EPA is going to revise the study plan. At that time, will you 
allow for public comment at that point, the revised plan?
    Dr. Anastas. We are certainly going to have continued 
engagement on the plan and will be responsive to the public 
comments that were accepted by the Science Advisory Board.
    Chairman Hall. You will have engagement. That is not what I 
asked you. Will you allow for public comment?
    Dr. Anastas. We will accept public comment in the meetings 
that we have with stakeholders and the dialog and the updates 
that we provide to stakeholders, certainly.
    Chairman Hall. Okay. That is a yes.
    Dr. Anastas. Public comment in the framework of a 
Scientific Advisory Board meeting is a very formal mechanism. 
What I am saying is that we certainly will accept comment in 
the interactions that we have on the updates and the ongoing 
updates, informing the American public of the progress.
    Chairman Hall. Would that be formal public comment in the 
Federal Register?
    Dr. Anastas. No, there will not be a Federal Register. 
Those will be direct interactions.
    Chairman Hall. I am told my time is up. The Chair 
recognizes Mr. Wu, Ranking Member Mr. Wu, from Oregon.
    Mr. Wu. Yes, sir.
    Chairman Hall. I zigged pretty good, didn't I? I almost 
said you were from Washington. You are recognized for five 
minutes.
    Mr. Wu. You did fantastic, sir. Thank you very much. 
Appreciate it.
    Chairman Hall. I am doing better.
    Mr. Wu. Well, this Administration recognizes the need to 
obtain energy from all sources, including natural gas, and it 
has established the Secretary of Energy Advisory Board to also 
establish a Subcommittee to examine more closely the set of 
hydraulic fracturing issues.
    First of all, is EPA supportive of this initiative and 
secondly, how does EPA intend to put together its work and 
recommendations with the work of that body?
    Dr. Anastas. This study plan is being carried out by the 
Environmental Protection Agency, but we recognize that other 
agencies have important roles to play, important interests, and 
certainly the Advisory Board put together by DoE to inform best 
practices is something that we do support. And we always seek 
to work very closely with our other agency partners across the 
Federal Government.
    Mr. Wu. Dr. Anastas, can you describe to me the process 
that you have gone through and also the extent to which you 
have sought stakeholder input from all sources?
    Dr. Anastas. Yes, one of the things that was a hallmark of 
putting together this study plan was in order to engage 
technical experts from industry, from academia, certainly in 
coordination with other governmental, other federal agencies. 
We also wanted to make sure that we allowed for input from the 
public. That is why these workshops that were held around the 
country where we had thousands of people come in in order to 
provide input and provide their perspectives on the study 
design, that is why we went to the Science Advisory Board in 
order to seek their input, both on the initial structure of the 
study as well as the current review that is currently taking 
place on this study. So we went through a very rigorous process 
in order to seek out input from all quarters.
    Mr. Wu. Okay. Very good. One final, more focused, narrowing 
to one area, an investigation of the Commerce Committee found 
that potentially millions of gallons of diesel fuel are used in 
fracking wells. Does EPA know how much diesel is currently 
being used, where it is being used and where it goes? And do 
you think that those doing the fracking are doing what they 
need to properly take care of this downstream from the actual 
useful use of diesel?
    Dr. Anastas. Thank you for asking that question. It is a 
very important question of regulatory concern. I know that this 
is one that the EPA is actively engaged in. As you know, I am 
in the Office of Research and Development, so I will be happy 
to get more information on that regulatory question back to 
you, Congressman.
    Mr. Wu. Thank you very much, Dr. Anastas. Mr. Chairman, I 
have no further questions at this point.
    Chairman Hall. The gentleman yields back. The Chair 
recognizes the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I am 
done with my cheeseburger, so I am ready. What we are talking 
about here is not just a scientific study by the EPA. What most 
of us are worried about is a centralization of power being 
justified by unelected and unattached decision-makers in the 
EPA and throughout the bureaucracy.
    Again, in your testimony as in the testimony of one of the 
witnesses before, you mentioned the word drinking water 
numerous times.
    Dr. Anastas. Correct.
    Mr. Rohrabacher. Numerous times.
    Dr. Anastas. Correct.
    Mr. Rohrabacher. The other witness was unable to give us an 
example of one. Maybe you have several examples of where the 
drinking water has been compromised due to fracking.
    Dr. Anastas. The way that we are able to answer questions 
like that is by asking the tough question scientifically in 
making these determinations.
    The reason that we carry out these studies is to be able to 
give you a reliable and certain answer. In the absence of these 
studies, in the absence of these measurements and monitoring, 
the confidence that anyone has in giving you an answer to that 
question is compromised. And so we ask the scientific questions 
in order to give solid answers, rather than----
    Mr. Rohrabacher. You just rush forward without any examples 
and you think that we have unlimited resources and we are just 
going to go out there until every question is answered? Doesn't 
there have to be some reason behind it, some malady, some group 
of deaths or something? Aren't there enough things to study in 
the United States where we can pinpoint that there is a threat 
because there have been incidents where people have been hurt 
without having to go to things that you can't even give us one 
example of where there has been harm cased by human beings in 
their drinking water due to fracking?
    Dr. Anastas. I appreciate the question, but when the 
American people, through their elected representatives in 
Congress, direct the U.S. EPA to address concerns and to 
undertake a scientific study and direct us to investigate if 
there is any link between hydraulic fracturing operations and 
drinking water, we take that charge very seriously.
    Mr. Rohrabacher. The American people didn't mandate this. 
You have got a bunch of bureaucrats and left-wingers from 
universities who make their living trying to scare the American 
people into thinking there are problems. At least you would 
have some kind of evidence, something that has happened that 
would indicate there is a major threat. How much is that study 
going to cost?
    Dr. Anastas. When the American people and when the Congress 
directs us to undertake a study----
    Chairman Hall. Just answer his question. How much does it 
cost?
    Dr. Anastas. In fiscal year 2010, we had $1.9 million 
budgeted and fiscal year 2011, it was $4.3 million, in the 
President's budget request.
    Mr. Rohrabacher. Okay. And how long will it take and how 
much is it expected to cost?
    Dr. Anastas. The initial results of the study are expected 
by the end of 2012.
    Mr. Rohrabacher. Okay, and how much is the end result going 
to cost?
    Dr. Anastas. The end result at the end of the entirety of 
the study will be approximately $12 million.
    Mr. Rohrabacher. Okay. So you have focused in, you have 
committed time of your scientists and $12 million of money 
without having one example that indicates that we are at risk.
    Dr. Anastas. The Environmental Protection Agency has 
followed the direction of Congress to investigate----
    Mr. Rohrabacher. Well, the answer is yes, okay? Fine. Thank 
you. If you can't give us an example of where fracturing is 
actually in some way compromised the drinking water, can you 
give us an example of where the states that are regulating this 
have failed in their responsibility to their people and thus 
this centralizing of power in the Federal Government and yes, 
non-elected officials in Washington would be justified?
    Dr. Anastas. The study that we are undertaking is not a 
regulatory study. This is not a----
    Mr. Rohrabacher. Okay, so you don't have any examples where 
the regulation of--yeah, it is not a study, but you as an 
individual, you are a decision-maker. You are talking to the 
decision-makers here. You should certainly know the history of 
what is going on around the country and/or give us some 
examples of where there is a threat in order to justify 
committing a large amount of your personnel and $12 million 
over a five-year period. And there are just no examples of 
failure at the state level and no examples of even where there 
has been a compromise of the drinking water.
    Mr. Chairman, there is something motivating this going 
forward in this area. What is motivating this? Aren't there 
other areas that you have to choose from that, you know, people 
are actually out there being threatened by chemicals? There are 
a lot of chemical problems in urban America that you can focus 
on. And by the way, they are very easy to prove. I mean, it is 
very easy to prove that chemicals are a problem to our health 
in Southern California, what we breathe in, okay? There is 
instance of that. But yet you have committed yourself to 
spending the money on something that we don't have any examples 
of where it has actually affected anyone's health.
    Dr. Anastas. The Environmental Protection Agency is taking 
on, as you are well aware, a wide-range of issues to protect 
human health and the environment, including some of the air-
quality issues. What this study, at the direction of Congress, 
has undertaken is to determine if there are factors that could 
cause potential harm to humans or the environment.
    Mr. Rohrabacher. Yes, if there are----
    Dr. Anastas. Specifically, our drinking water.
    Mr. Rohrabacher. And there are probably thousands of other 
things that we could say, what is there potential harm in, 
mountain climbing? Is there a potential harm in manufacturing 
baby clothing? But yet you have chosen----
    Chairman Hall. Surfing.
    Mr. Rohrabacher. One last note and that is our country is 
being strangled. The reason why our people are living worse off 
now than they were ten years ago, and people can't get good 
jobs, is we are sending wealth out of our country, a trillion 
dollars a year. Industry is being strangled. Our way of life is 
being strangled because we are not being permitted the energy 
we need to have prosperity in this country, and the frivolous 
nature of just giving scientists, go out and see if you can 
find something that will permit us to stop energy production, 
because that is what this is all about, and I am happy to see 
that Congressman Hall is having this hearing so we can express 
that. Thank you.
    Chairman Hall. The gentleman's time has expired. The Chair 
recognizes Mrs. Woolsey of California for five minutes.
    Ms. Woolsey. Pronounced Wool-sey, Mr. Chairman. Thank you, 
Doctor, for being here. You are doing great. I think you are 
aware and you knew before you even got here that good science 
isn't always the basis of our decisions on the Science 
Committee. I think that is weird, but it is true.
    So you know, motivation, okay? The motivation for this 
study is a bunch of citizens, scientists concerned about a 
process that we don't know enough about in this country. So 
maybe could you outline a little bit about what those concerns 
were from your perspective that led the Congress to direct this 
study, and why the 2004 report of little or no threat to water 
supplies really wasn't enough.
    Dr. Anastas. Okay. The 2004 report really did focus on coal 
bed methane extraction. It was significantly different in terms 
of the type of operations, the depths of the operations, the 
nature of the drilling. And it was, rather than a field and 
laboratory study, far more of a survey of the existing 
knowledge, not as in depth as certainly what is being planned 
with this focus study.
    The nature of the concerns and the questions that are 
raised both by people to the Congress and what they expressed 
as well as in the workshops and meetings that the EPA conducted 
over the months were questions whether or not there was 
contamination of drinking water due to fracturing operations, 
that contamination could take the form of methane in the 
drinking water, could take the form of hydraulic fracturing 
fluids in the water and those concerns are what have been 
raised, and I think that is why we asked the questions in order 
to answer those and assure the American public of the safety of 
their drinking water while we pursue the extraction of domestic 
energy resources.
    Ms. Woolsey. Well, you probably already have your opinions, 
but the science of the study is what is going to drive the 
results in your report. It is not your opinion as a scientist 
or the Committee's opinion?
    Dr. Anastas. Absolutely, and I think that is an important 
point to emphasize. It would be antithetical to a scientific 
approach to presuppose, predetermine or in any way bias the 
outcome of this study. In order to assure the American public 
that the results of this study is credible, we need to ensure 
that this maintains scientific integrity throughout all of the 
conduct, the design and the conduct of this study.
    Ms. Woolsey. So the American public, the American public, 
you know, I mean, not the people sitting up here that still 
don't have enough information to make these decisions without 
good base study behind it, but the American public, they aren't 
worried about this yet, but they will certainly be worried 
about it if they start having traces of poisons and problems in 
their drinking water. And is not this study to prevent 
something from happening, then the American public will stand 
up and roar and what is the matter with you idiots on the 
Science Committee? You don't protect us. So isn't that what EPA 
is about?
    Dr. Anastas. I believe that certainly there is every 
opportunity for this study to clarify and give knowledge and 
insight about the operations so that the American people can be 
confident that their drinking water is pure and uncontaminated, 
and I think that it is studies like this that give the American 
people that confidence.
    Ms. Woolsey. Well, I thank you very much. I yield back.
    Chairman Hall. Thank you. The gentlelady yields back. The 
gentleman from Maryland, Dr. Harris is recognized for five 
minutes.
    Mr. Harris. Thank you very much. Thank you, Dr. Anastas, 
for coming to testify. I have got a question. I guess the 
background is that back in the fiscal year 2010 budget I guess 
there was some kind of language suggesting the EPA study, but 
it left the scope of the study or I guess the need for an in-
depth study totally up to the EPA. Is that right, given the 
language? I don't have the exact language in front of me.
    Dr. Anastas. The report language did talk about the 
connection between hydraulic fracturing operation and----
    Mr. Harris. And drinking water. Correct. So the EPA could 
have come back and just said, you know, we have investigated 
and there has been no case ever of known contamination of 
drinking water from hydraulic fracturing which has gone on for 
years and years and years. I mean, that is one possible outcome 
of the EPA evaluation. They could have done a retrospective 
review of all the reported cases and said actually, it has 
never been proven that any drinking water has been contaminated 
by it. Is that----
    Dr. Anastas. I believe to have that kind of unilateral 
determination without tapping into the type of expertise we did 
without review by the Science Advisory Board may have been 
highly questioned.
    Mr. Harris. Well, the Science Board could have done it that 
way. And the reason is because, you know, in medicine, and I 
have done medical research, I mean there is this thing called 
the index case. It is usually what brings something to people's 
attention. In the absence of an index case, it is a shotgun 
approach for anything, and I will give you an example. I mean, 
you know, I could say, you know, there is a group of people, 
you know, very concerned about aspirin. I mean, my gosh, and 
maybe I should write a letter to the EPA or maybe we should 
stick in some budget language, the FDA ought to study aspirin. 
And I would come back and say, let me tell you something. It 
has been around for a long time, and sure, there are possible 
potential--in fact, aspirin is a bad example because there are 
kind of bad things that can happen with aspirin, but you know, 
the lack of an index case is very puzzling to me. And it begs 
the question, was the question framed in such a way that you 
have to go after potential impacts or was the question framed 
in such a way you could say, you know what we are going to do? 
We are going to look for an index case, and in the absence of 
an index case, we are going to say that we really should defer 
the expenditure of $12 million, money we don't have, money we 
have to borrow from the Chinese to fund this study.
    So was that one possible outcome? I mean, the Science 
Advisory Board could have said, you know, we are going to 
search for an index case, but in the absence of an index case, 
what are we looking for?
    Dr. Anastas. It is an excellent question, Congressman. I 
have to say that the reason that we ask the hardest questions 
and seek this knowledge is to give the American people 
confidence in the----
    Mr. Harris. Okay. I hate to stop you there, but I only have 
two more minutes. Wouldn't the American people have confidence 
if the EPA came out and said, you know what? We have looked 
into every reported potential case, and there is no case of 
drinking water contamination because that is striking to me, 
that one result of this hearing is that we have confirmed and 
you are kind of confirming and you know, the head of the 
Maryland Department of Environment who, in fact, you know, went 
to the Maryland legislature to attempt to also promote a study 
has confirmed no one knows of a case of documented drinking 
water contamination. Is that an accurate summary? And wouldn't 
the American people better be served by saying, you know what? 
There is no known danger right now, but as soon as something 
comes to our attention that could be a known danger, a known 
risk where contamination has occurred, we are right on it? I 
mean, this is kind of the way we look for it. You know, when we 
have new drugs, we look for side effects and then we study why 
those side effects could occur and minimize them. And we don't 
just say, well, you know, we are not going to approve any new 
drug because there could be potentially some side effects, even 
though none has ever been reported. I mean, that is a very 
clear way we handle medical research with regards to new 
substances, and I will proffer this isn't a new substance. I 
mean, fracturing has been around a while. It is a long, lengthy 
question. But I guess to finalize, has there been a case as far 
as you know and wouldn't the American people be served better 
by in fact turning down the what I will refer to as hysteria? 
And believe me, I have seen it in the medical field plenty of 
times, hysteria that you know, knowledgeable, qualified people, 
their best approach might be to say instead of writing 
something about all the potential impacts, saying--you know, 
because I looked here. I looked through the study, and I don't 
see it emphasized that no case has ever been determined to have 
occurred. Am I missing it or is it in here somewhere?
    Dr. Anastas. What I believe you may be missing, 
Congressman, is that when we see studies such as the one that 
even recently came out of Duke University, that appearing in 
the proceedings in the National Academy of Sciences, we need to 
take those studies seriously. When we see such reputable groups 
such as the University of Texas announcing today their 
comprehensive review of hydraulic fracturing, the leader of 
that group, Dr. Ray Orbach, who is tremendously respected, was 
a tremendously respected Undersecretary of Energy in the Bush 
Administration, to think that we could unilaterally declare 
that there is no problem here and we are going to move on with 
these kinds of lingering concerns, I think the American people 
expect us to ask the tough questions and answer those tough 
questions in a process that preserves scientific integrity.
    Mr. Harris. I am going to yield back, Mr. Chairman. I would 
just say, you know, once to emphasize again, there is no index 
case here. Thank you.
    Chairman Hall. Would you, before you yield back, yield to 
me to ask one question of the gentleman?
    Mr. Harris. I certainly would, Mr. Chairman. Always.
    Chairman Hall. You mentioned the Duke study. I presume you 
have read the Duke study?
    Mr. Anastas. Yes, I have.
    Chairman Hall. And you use that to substantiate some of the 
things that you have said, do you not?
    Dr. Anastas. I use that study to show that there are 
concerns.
    Chairman Hall. Well, did you really read the study?
    Dr. Anastas. I read every word of that study.
    Chairman Hall. Did you read where they said our results 
show evidence for methane contamination for shallow drinking 
water systems in at least three areas of the region and suggest 
important environmental risk accompanying shale gas exploration 
worldwide?
    Dr. Anastas. Yes, I have.
    Chairman Hall. Did you stop there?
    Dr. Anastas. No, I did not, sir.
    Chairman Hall. Did you read on page 4 where they said based 
on our data, we found no evidence for contamination of the 
shallow wells near active drilling sites from deep brines and/
or fracturing fluids? Did you read that on page 4? Do you have 
page 4?
    Dr. Anastas. I have read every word of the study, and I 
have read that they----
    Chairman Hall. Well, they are saying that what they said is 
just absolutely not so, and now are you going to use that like 
you have done before when you bolstered your testimony with 
false science? Is that what you are sitting here doing?
    Dr. Anastas. This is far from false science. What they have 
concluded and what you have just read shows that what they have 
determined is contamination of drinking water by methane and 
that they found no evidence of fracturing fluid contamination. 
This study that we are proposing and pursing is looking at both 
of those questions.
    Chairman Hall. Let me read further to, just a little on 
down on page 4. ``In sum, the geochemical and isotopic features 
for water we measured in the shallow wells from both active and 
non-active areas are consistent with historical data and 
inconsistent with contamination from mixed Marcellus shale 
formation water or saline fracturing fluid.'' How are you going 
to get around that?
    Dr. Anastas. I am not going to get around it. I agree with 
their findings. What they are saying is they have seen no 
contamination from fracturing fluids. What they are saying is 
that they have determined that the methane that is being seen 
is not biogenic in nature but rather thermogenic in nature.
    Chairman Hall. I recognize the gentleman from Michigan, Dr. 
Benishek, for five minutes.
    Mr. Benishek. Thank you, Doctor, for being here. Let me 
just quote from the language, I believe from the appropriation 
for your study, that they urge the agency to carry out a study 
on the relationship between hydraulic fracturing and drinking 
water using a credible approach that relies on the best 
available science.
    So as I understand it from this language that the Congress 
asked you to carry out a study on the relationship between 
fracking and drinking water. And I don't see how a study, which 
specifically says that it is not going to address the risk, 
complies with this order to study the relationship.
    Dr. Anastas. Let me be clear. I apologize if I didn't make 
it clear previously. In order to do a risk assessment, we need 
to understand those relationships, whether or not there is a 
hazard to people from contamination to the drinking water and 
whether or not there is exposure and----
    Mr. Benishek. No, any time there is contamination of 
drinking water, there is a risk. But the relationship between 
fracking and drinking water to me implies defining the risk, 
and apparently you disagree.
    Dr. Anastas. What I am saying is you can't do a risk 
assessment, you can't do a risk analysis, a quantitative risk 
analysis, without understanding the elements of hazard and 
exposure. We have to first understand the elements of the 
hazard and the exposure in order to do that kind of risk 
analysis.
    Mr. Benishek. I guess I just disagree with you because it 
seems to me that, you know, with thousands upon thousands of 
wells and that is the whole purpose of the study, is to 
determine if there is a significant risk. I just don't get it.
    The other question I have is relying on best available 
science. So how many people on the Science Advisory Board have 
direct experience doing hydraulic fracturing?
    Dr. Anastas. You mean the panel that has been put together 
specifically on this?
    Mr. Benishek. Right.
    Dr. Anastas. I would have to get the exact numbers, but we 
certainly do have people who are experts in all of the 
disciplines related to hydraulic fracturing.
    Mr. Benishek. Does anybody have any direct fracking 
experience on this Science Advisory Board?
    Dr. Anastas. The short answer is yes, and I will be happy 
to get those biographies to you, sir.
    Mr. Benishek. All right. Thank you. I yield back my time.
    Chairman Hall. The gentleman yields back. The Chair 
recognizes Dr. Broun.
    Dr. Broun. Thank you, Mr. Chairman. Before I begin asking 
this panel my questions, I want to express my extreme 
displeasure at what appears to be a pattern of a lack of 
respect and a complete disregard of the House of 
Representatives Committee process and our Constitutional 
authority to oversee the executive branch of government. 
Regardless of which party is in control of the White House or 
Congress, we as Members of Congress must be vigilant in our 
oversight responsibilities.
    Today's hearing includes two panels which is not the 
preferred practice of our Committee but was necessitated by the 
unprecedented recalcitrant behavior of the EPA in response to 
the Committee's invitation to testify at this hearing. It is 
also important to note that EPA has testified before this 
Committee on a single panel with other witnesses before. Beyond 
the convenience to Members and witnesses, especially to those 
of us who serve on multiple Committees, a single panel provides 
an opportunity for an open discussion and free flow of ideas 
that this Committee has always encouraged.
    However, it is not the inconvenience of having multiple 
panels that alarms me the most. I am alarmed at the level of 
arrogance, arrogance that this Administration continues to 
demonstrate by presuming that they can actually dictate how a 
House Committee may conduct its hearing and business. Today's 
latest example is not the first instance of the Administration 
going back on its stated goal in a cooperative fashion with the 
112th Congress. Investigations and Oversight Subcommittee, 
which I am Chairman, experienced this same behavior with our 
first hearing when the TSA actually thought they could dictate 
what issues and topics fall under this Committee's jurisdiction 
and refused to testify. I see the same thing from the EPA, and 
I am extremely disappointed in the behavior of this 
Administration.
    Mr. Chairman, I appreciate the Committee's indulgence in 
letting me air my frustration and hope this situation can be 
rectified and the Committee can continue its important duties.
    Dr. Anastas. May I address your comment?
    Dr. Broun. No, Doctor, I don't have but just a few minutes, 
and I have got a question or two I want to ask you. Did you 
write your testimony?
    Dr. Anastas. I did.
    Dr. Broun. Doctor, I am a physician. I am a scientist, 
applied scientist, not a research scientist. I know very well 
as a policy-maker that science cannot dictate policy. Policy 
can be based on good science. Saying it another way, science 
describes, it cannot prescribe.
    In your testimony you made a statement that I think is 
blatantly false. You stated that the EPA utilizes good science, 
peer review science and takes into consideration opposing 
views. I don't think that is factual, and the endangerment 
finding is a good example because I believe in my heart that 
EPA had a policy that they wanted to put in place that this 
Administration wanted to follow and that they utilized one set 
of scientific data to try to justify the policy dictated. And I 
see the same thing with this frack policy that you guys are 
trying to promote and trying to stop fracking. I believe this 
Administration wants to stop oil and gas development in this 
country, and I think they are utilizing EPA and what you are 
doing in that process.
    Now EPA published a study Ms. Woolsey asked you about in 
2004, Evaluation of Impacts to Underground Sources of Drinking 
Water by Hydraulic Fracturing of Coal Bed Methane Reservoirs. 
Do you all stand by the conclusions that you all issued in the 
report that it poses little or no threat to drinking water?
    Dr. Anastas. Coal bed methane reservoirs are not the 
subject of this study. So if you are asking whether or not that 
study is relevant to the study that we are undertaking, the 
answer would be no, only partially relevant because those are 
at much different strata of the geologic formations and 
different processes being used.
    Dr. Broun. Well, given President Obama's executive order 
memoranda, highlighting the importance of interagency 
coordination regarding regulatory activity, please explain how 
the EPA is syncing its study with those with the Department of 
Energy and the Department of Interior? In general, how is EPA 
implementing the executive order with reference to potential 
fracking regulation?
    Dr. Anastas. This study is not a regulatory study. This 
study is a scientific study that we worked closely with our 
partners at other agencies in informing the nature of this 
study, but this study is not a study that is based on 
regulations. This is not a regulatory action.
    Dr. Broun. Well, we have no index study, as Dr. Harris was 
just talking about. You are just going out and doing a study. 
It seems to me that you are trying to stop the fracking 
process, and I am extremely disappointed with EPA. I am 
extremely disappointed with this Administration. And I think it 
just needs to change. Mr. Chairman, I yield back.
    Chairman Hall. The gentleman yields back. Dr. Anastas, I 
thank you for your testimony, and I thank the Members for their 
questions.
    At this time, Dr. Anastas, you are welcome to stay seated 
at the table if you want to or you can take a seat there or you 
can leave or do whatever you want to, but I am going to ask our 
first panel of witnesses to join us again by retaking their 
seats at the table for a chance to summarize our comments.
    Mr. Rohrabacher. Mr. Chairman, as our new panel is being 
seated, if I could just mention that I would like to thank Dr. 
Anastas for coming forward today. This was a rough hearing, and 
we were rough on you but we are trying to get to the truth, and 
I appreciate the fact that in some of the questions, you know, 
on almost all the questions, you were being straightforward 
with us. And at times we had to cut you off because we have 
limited time that we can ask, and I just wanted to express my 
appreciation to your forthrightness today in answering these 
questions.
    Dr. Anastas. Thank you, sir.
    Chairman Hall. We are not done, Dr. Anastas, he has to 
leave. He is perfectly welcome to stay. We are going to ask for 
a comment from each of these people, just a 1-minute comment 
from you or 2-minute comment.
    On the testimony you have heard, Dr. Anastas had a chance 
to listen to your testimony, and you had a chance to listen to 
his. So I think instead of having another round of questions, 
that wouldn't be fair to the Democrats that are not here. This 
will go for the record now. This will be in the record, and 
Democrat and Republicans can read those records.
    So I will start out when you get your things together 
there, whatever you are getting ready to do. What is going on 
at the table there? Is it something I am not supposed to see or 
I couldn't stand to see? Now, you got Mrs. Jones blocked off. 
All right. I thank you. That is the good staff we have, and I 
appreciate them.
    You have heard the testimony of the EPA witness. Do you 
have comments on it?
    Mrs. Jones. I do, Chairman, and I would like to say that in 
fact I probably am the only person in this room who actually 
attended one of the meetings across the country that the EPA 
held in Ft. Worth, Texas, last year, and I want to tell you it 
was the least scientific-based meeting I have ever attended. I 
didn't have time to speak to it, and people were lined up. The 
conversation really did not even address hydraulic fracturing. 
It was a large crowd of anti-drilling activists who in fact 
were trying to use every applied application technology in the 
drilling industry as an excuse or to suspect it, disparage it. 
I have never been in such an activist crowd that is so opposed 
to drilling.
    And there is a group in Texas who doesn't understand how 
strong the oil and gas exploration and production and severance 
taxes of it make this State. They are a very vocal minority I 
might add, and that study, if it is to be based upon the 
information gathered at the hearing that I was at will be 
extremely flawed when it is finally done.
    I would suggest to you that there are more studies here 
than we can shake a stick at. In fact, it sounds to me like the 
EPA has a $12 million solution to a problem that doesn't even 
exist. I don't understand why my word, and my word is my bond, 
and if I can save the taxpayers some dollars, I am here to do 
that. And I am telling you, there has never been an indication 
of groundwater contamination from hydraulic fracturing that I 
know of in the State of Texas and nationally. And if that is 
not good enough for somebody who is employed up here in 
Washington, I don't know how we are ever going to get to the 
truth if people will not start listening to people like me who 
are out there in the field, in the trenches, elected by the 
people to do the people's business. And it burns me up what I 
am hearing about this scientific-based study when I was at a 
hearing, a town hall meeting that was anything but scientific 
based.
    Chairman Hall. I thank you, and I might say this hearing is 
not for the Congress particularly. It is probably for 
generations, this generation that is being hurt by lack of 
energy and the Administration's offense against energy and 
against energy states and against other states that didn't vote 
for him. I think something that Congress has an interest in and 
I am interested in it. I am interested in my children and my 
children's children because other than prayer, energy is 
probably the most important word in the dictionary for those 
youngsters that are 15 years old and up.
    We will go on. You commented. Thank you for your comment. 
We recognize Dr. Summers for his comment. Hold it as near to a 
couple of minutes as you can.
    Dr. Summers. Thank you, Chairman Hall. Well, I have heard a 
lot of information today regarding the safety of these 
practices from my colleagues. As I said in my testimony, we 
have seen problems in the Marcellus shale in Pennsylvania. I 
have learned that Mrs. Jones and her experience in Texas, which 
is very extensive, indicated that one size doesn't fit all. I 
want to make sure that we get the right size here in Maryland. 
We have a very important group of watersheds that millions of 
people depend upon for many purposes, and I think it is 
absolutely critical that we get the best information on all the 
various issues that I raised in my testimony. And we obviously 
have the opportunity to gather that information, specifically 
with respect to the EPA study. As I said, one of the big 
concerns or issue that has been raised is the potential for 
impacts on drinking water. I have been to public meetings in 
Maryland where a lot of folks have raised a lot of concerns 
about the drinking water impacts, probably very similar to what 
was just described, and I want to make sure we have the best 
scientific answers possible. And I believe that the EPA's study 
is another piece of information that we need to pull that 
information together.
    Chairman Hall. And I believe you want all the information 
you can get, and I think you would be one that would frown on 
the EPA and on the testimony we just heard from the EPA when it 
was said clearly that he supports the Duke study and he thinks 
that upholds some of his testimony. When we just read to him 
there where it said we found no evidence for contamination of 
the shallow wells near active drilling sites from deep brines. 
That is just about as clear as you can make it.
    Mr. Fitch?
    Mr. Fitch. Yes, thank you, Mr. Chairman. First of all, we 
have to acknowledge there is a Congressional directive there 
for the EPA to conduct a study. However, the language in that 
directive is quite general. It allows for quite a bit of 
flexibility, and we would just reiterate that we believe the 
design of the study is overly broad. There has been a lot of 
totally unscientific information brought to bear on this, and 
that does not warrant a scientific investigation of some of 
those things, some of those allegations. We believe that the 
study should focus on one area where there have been some 
legitimate concerns, and that is the management of wastewater, 
management of flow back water. Also I think this study should 
engage on the issue of identification of the degree of risk and 
not just whether there is some risk or not, because otherwise, 
you lose perspective. And we see a great potential there for a 
study to be misused if it doesn't address the degree of risk.
    Chairman Hall. Thank you, sir. Dr. Cooper?
    Dr. Cooper. Thank you. I think as a scientific study, what 
we have mostly seen in all of the EPA activity to discuss this 
publicly is it seems to be more political than scientific. And 
that disturbs me a lot. I am not opposed to a study that we are 
trying to address a question that we are trying to solve. I am 
not sure that we have got that question on the table, and I am 
really sorry that EPA today did not really engage with the rest 
of us in a discussion about what might be done, what we really 
need to think about, if anything. Thank you.
    Chairman Hall. Dr. Economides. Did I pronounce it right 
then?
    Dr. Economides. You are improving.
    Chairman Hall. All right.
    Dr. Economides. It is great. Just two quick points. I, too, 
have this vision that a more balanced EPA would have actually 
blasted this Duke paper today. They will actually take it upon 
themselves to critique it and tear it for what it is. This is 
shabby science, Mr. Chairman, including the conclusions, by the 
way. After they reached what you read, the conclusion is 
letting us just outlaw hydraulic fracturing, essentially, after 
they said they found no evidence of contamination.
    Regarding the Scientific Advisory Board, I took it upon 
myself to Google every Member on that Committee about three 
weeks ago. There are three people that I would think have some 
experience in hydraulic fracturing, and one is a lady professor 
at the University of Missouri, D'Aleo. She and I wrote a book, 
by the way, a few years ago. But she doesn't have direct 
experience in hydraulic fracturing. There is a researcher from 
Texas A&M who is a chemist. I don't think he has ever been on a 
well site for hydraulic fracturing, and there is a 
geophysicist, everybody else, they are experts in their field, 
but I don't think any one of them has ever been on a well site 
for hydraulic fracturing. So it really mystifies me how a 
Scientific Advisory Board consisting of people like this, they 
are, Congressman, on a wild goose chase, by the way, in my 
view. That is all there is. It is a shortcut approach, and the 
only obvious conclusion would be if they find something 
negative, then they will condemn the entire industry. And that 
is the danger.
    Chairman Hall. All right. Gentlemen, and lady, we thank you 
for your time, and I thank every one of you. I think this 
hearing ought to clear up the hard, cold facts that the hearing 
was set for, if the liberal press will print it properly.
    With that, I will remain. I thank all the witnesses on both 
panels for their valuable testimony, for Members for their 
questions. And Members of the Committee may have an additional 
question for any one of you, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from Members, and the witnesses are 
excused. And this hearing is, thank goodness, adjourned.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mrs. Elizabeth Ames Jones, Commissioner, Texas Railroad 
        Commission

Questions submitted by Chairman Ralph Hall

Q1. How would you compare the thoroughness of Texas regulations to 
those of other States? How does your State's participation in the 
STRONGER process (State Review of Oil and Natural Gas Environmental 
Regulations) create better regulations? Are you aware of any States 
that have emulated Texas' regulatory framework?
    A1. Texas Regulations. Texas is typical of the oil and gas 
producing states in taking a proactive approach to address large-scale 
hydraulic fracturing as well as other issues associated with deep shale 
gas development. The laws and rules in Texas effectively protect water 
and other natural resources as well as public health and safety from 
potential adverse effects of hydraulic fracturing. The Ground Water 
Protection Council's State Oil and Gas Regulations Designed to Protect 
Water Resources is a comprehensive state-by-state evaluation of state 
oil and gas regulations. It concludes that state oil and gas 
regulations are in general adequately designed to directly protect 
water resources.
    Texas, like most states with mature production, has a long history 
of successful regulation of well drilling, completion, and production. 
The practice of hydraulic fracturing has been developed over 60 years. 
The Railroad Commission developed and oversees a comprehensive 
regulatory framework encompassing all oil and gas activities. Under 
this framework, the actual practice of hydraulic fracturing has never 
been identified as a contributor to groundwater contamination. The 
Texas regulatory framework emphasizes well construction with multiple 
layers of protection for groundwater and thousands of inspections each 
year to ensure compliance with regulations.
    The Railroad Commission has authority to regulate pollution of any 
type from oil and gas exploration and production activity whether it is 
hydrocarbon, produced water or hydraulic fracturing fluid 
contamination. The Commission has regulations regarding construction 
requirements for wells to ensure that each well is protective of 
natural resources, including groundwater. Railroad Commission 
regulations specifically prohibit contamination of water resources. 
There have been no contamination incidents resulting from hydraulic 
fracturing in Texas.
    State Review Process. A STRONGER review provides Significant 
benefits to states by demonstrating the effectiveness of a state 
regulatory program to the public and to the state legislatures that 
fund the programs. The STRONGER state review process demonstrates in a 
clear and public process that state programs are sound and effective. 
The review process also identifies areas that could be improved.
    The STRONGER guidelines are updated as necessary to address new 
issues. STRONGER expanded its reviews in 2010 to address hydraulic 
fracturing regulations in response to public concerns. The Commission 
chaired the workgroup that developed the STRONGER guidelines for 
hydraulic fracturing. This expansion resulted from increased interest 
in the practice of hydraulic fracturing and from interest by the state 
regulators to provide reviews of their fracturing regulations.
    This month, the Commission initiated the process of rulemaking to 
require disclosure of chemicals used in hydraulic fracturing.
    The Commission frequently reviews its regulatory programs to 
determine effectiveness, particularly in light of new technological or 
geological developments. The STRONGER guidelines are helpful during 
these internal reviews.
    Texas was initially reviewed in 1993. There was a follow-up review 
in 2002. Several program improvements were noted in the follow-up 
report.
    Following the initial review, the Railroad Commission began to 
consider the compliance history of the operator when making permit 
decisions. The Oil Field Cleanup Fund Advisory Committee was 
established to provide advice to the Commission. A bonding program was 
established to ensure closure of reclamation plants and commercial 
disposal facilities and rules were updated to ensure proper plugging of 
wells. The data management system was expanded and upgraded. A Field 
Inspection Manual was developed, as was a Memorandum of Understanding 
between the Commission and the Texas Commission on Environmental 
Quality to coordinate exploration and production waste management 
activities.
    Since the 2002 follow-up review, the Commission made additional 
improvements, and has begun other improvements, to the Commission's 
regulatory program. For example, the Commission is working with the 
Department of State Health Services to develop a memorandum of 
understanding relating to radiation issues.
Q2. Summarize Texas Railroad Commission (TRC) oversight authorities and 
activities related to hydraulic fracturing, as well as TRC coordination 
efforts with other State-level oversight bodies.
    A2. The Railroad Commission's regulatory framework for oil and gas 
activities, including the practice of hydraulic fracturing, effectively 
protect surface and ground water. The, Texas framework emphasizes well 
construction with multiple layers of protection for groundwater, and 
inspectors conduct thousands of inspections to ensure compliance with 
the Commission's regulations.
    The Commission does not permit a well on which hydraulic fracturing 
will be performed without certification that identifies the depth to 
which groundwater must be protected by cement and steel casing. 
Geologists and hydrologists evaluate the area well logs around any 
proposed well to determine the required depth of the surface casing to 
protect fresh water formations. An operator proposing to drill a well 
must submit that determination before the Commission will consider 
issuing a drilling permit.
    In every new well, Commission regulations require that heavy steel 
surface casing extend below the base of the deepest fresh water 
formation and that the surface casing be cemented in place throughout 
the annulus between the drill hole and the surface casing. As an 
additional safeguard, Commission rules require that the surface casing 
be pressure tested for leakage before re-commencing drilling.
    Coordination with Other State-Level OverSight Bodies. The 
Commission actively works with other states through participation in 
the Interstate Oil and Gas Compact Commission, the national Groundwater 
Protection Council (GWPC), and STRONGER, Inco activities.
    One example of such participation is the new hydraulic fracturing 
chemical disclosure website FracFocus.org. Responding to the concerns 
about the nature of chemicals used in fracturing, the Ground Water 
Protection Council (GWPC) and the Interstate Oil and Gas Compact 
Commission (lOGCC) initiated a national registry to display the 
chemicals used in individual fracturing jobs, building off of well 
completion reports. GWPC and IOGCC worked closely with producers, 
service companies, and state regulatory bodies to develop a format that 
will allow for the submission of well data. The Commission has been 
heavily involved in this effort. Many of the active shale gas producers 
already have begun to populate the website with well data. Numerous 
regional and national oil and gas industry associations have endorsed 
the project.
    While initially directed at reviewing state drilling fluids and 
produced water management regulations, STRONGER expanded its reviews in 
2010 to address hydraulic fracturing regulations in response to public 
concerns. The Commission chaired the workgroup that developed the 
STRONGER guidelines for hydraulic fracturing. Since adding fracturing 
to the review process, STRONGER has conducted reviews in Pennsylvania, 
Ohio, Louisiana and Oklahoma. A STRONGER review provides significant 
benefits to states by demonstrating the effectiveness of a state 
regulatory program to the public and to the state legislatures that 
fund the programs. By bringing experts from other state programs, it 
can identify issues that need to be improved. The STRONGER state review 
process demonstrates in a clear and public process that state programs 
are sound and effective.
    Texas also works with individual states on issues of shared 
interest. In 2004, the Railroad Commission and the Louisiana Department 
of Natural Resources entered into a Memorandum of Understanding (MOU) 
agreeing to provide written notice to each other when certain oil and 
gas activities will occur near each side of the state line. By working 
together as good neighbors and notifying one another of proposed 
projects or subsurface injection operations within at least a one-mile 
distance from the common border, the potential for problems affecting 
the land and water supplies can be diminished.

Q3. How are complaints of water contamination usually handled? How 
extensive is the investigatory process? Is this process mandated by 
law, or has it evolved over time from experience? In your testimony, 
you spoke about how the Railroad Commission conducted a thorough 
research and legal investigation of the incident involving Range 
Resources. However, EPA still stepped in and halted operations. Did 
EPA's interference come after your investigation?
    A3. A critical function of the Railroad Commission's Field 
Operations section is to address complaints. These complaints are 
received from both industry and the public. The Commission's process 
for handling complaints of groundwater contamination has evolved over 
time from experience.
    Commission staff must contact the complaining party to schedule a 
joint inspection within 24 hours of receipt of complaint. Response is 
immediate in cases where there is imminent danger of pollution or 
threat to the public. Field personnel gather information in order to:

        a. Confirm that a contamination problem exists

        b. Determine whether or not the cause is under the Commission's 
        jurisdiction.

        c. Determine possible sources of contamination

        d. Determine possible ways to eliminate the source of 
        contamination and initiate clean up if the problem is found to 
        be the result of activities under the Commission's 
        jurisdiction.

        e. Determine the manner of completion, age, fluid level, pump-
        off time, etc. of the water well, the problem with the water 
        (salty taste, odor, oil film, etc), when the problem was first 
        noticed, whether the water gets better or worse after pumping 
        the well for a while (could be an indication of aquifer 
        contamination versus wellbore contamination), whether the well 
        has a filtering system or water softener, whether the 
        complainant has a septic system.

    Field personnel then collect samples from the affected water well 
immediately and again after the pump has been allowed to run for 
approximately 10 minutes. Samples are taken as near as possible to the 
wellbore and before the water passes through any filters, water 
heaters, softeners, settling tanks, or other vessels. Staff collects 
samples from other water wells in the area for comparison and notes the 
depth, completion and any other pertinent characteristics of these 
water wells. Bacteriological samples are taken and forwarded to local 
health department. Staff then collects samples of produced water from 
oil and or gas wells within )I. mile of the subject water well.
    Staff also inspects the surrounding area approximately 1/4-mile 
from subject water well. Staff notes the location, status and current 
condition of oil and or gas wells within the area and inspects disposal 
or injection wells for operable observation valves and annular 
pressures that may indicate a mechanical integrity problem, oil and gas 
storage and treatment facilities, pits (current and abandoned), 
flowlines, evidence of past leaks or spills, creeks or streams and any 
other situation that may have contributed to the problem. Complainant 
receives copies of all correspondence related to the complaint.
    If water contamination is verified, the case is forwarded to the 
Commission's Site Remediation division to address remediation. The case 
also may be forwarded to the Commission's Office of General Counsel for 
enforcement action if the source of the contamination is found to be a 
result of violations of Commission rules, permits, or orders.
    Range Resources Complaint. In 2010, the Commission received a 
complaint involving natural gas in a 200-foot deep domestic water well 
in Parker County located near two natural gas wells operated by Range 
Resources. Throughout its investigation, Commission staff has shared 
data cooperatively with EPA staff. After a hearing, the Commission 
issued a final order finding that, based on the evidence, the Range 
Resources wells did not contribute and are not contributing to 
contamination of domestic water wells.
    Range Resources cooperated with the Commission as part of the 
investigation. On December 3, 2010, Range Resources agreed to take 
additional actions including performing further testing. of its wells, 
performing soil gas surveys, monitoring gas concentrations, and 
offering a water supply to the residence. However, on December 7, 2010, 
EPA asserted its authority under Section 1431 (a) of the Safe Drinking 
Water Act (``SDWA ''), 42 U.S.C. Sec. 300i(a) and issued an emergency 
endangerment order against Range Resource, related to the occurrence of 
natural gas in the domestic water well in Parker County. EPA Region 6's 
letter declared an imminent and substantial endangerment to a public 
drinking water aquifer has occurred (or may occur) through methane 
contamination which is directly related to oil and gas production 
facilities under your operation.
    EPA acted prematurely. Before EPA issued its order, Commission 
staff advised EPA that a specific source of contamination was unknown 
and still under investigation. Commission staff also advised EPA that 
the Commission had secured voluntary cooperation from the operator, 
including measures to assure safety in the affected household. All 
parties agreed natural gas was present in the Lipsky and Hayley water 
wells; however, the Commission advised EPA that evidence suggested that 
the gas was present in the aquifer prior to Range's activities.
    EPA acted incorrectly. It is fair to question whether or not the 
presence of the gas in the water wells was an imminent and substantial 
danger to human health because one water well owner had disconnected 
his water well from the residence. Air monitoring of the residence 
never indicated a threat of explosion. The other water well owner never 
filed a complaint with the Commission.
    Reportedly, he was aware of natural gas and was managing it with an 
open holding tank that vented any gas before the water was used.
    In addition, State and local authorities had been actively 
investigating the matter since August, and had not determined whether 
or not there was a connection between the Range activities and the gas 
in the water wells. State authorities had secured commitments from 
Range to expand the investigation. The Commission's investigation is 
actively ongoing, and, at that time, Commission staff had made no 
conclusions about possible sources of natural gas and hydrocarbons 
found in the water well. Additionally, no pathways from a deep 
hydrocarbon source to the water well had been identified. The 
Commission advised EPA of the commitment from Range to expand the 
investigation before EPA issued the emergency order.
    EPA relied on incorrect science. Based on the evidence presented at 
hearing, Commission examiners concluded, and the Railroad Commission 
agreed, that gas in the water wells is from the Strawn Formation, which 
is in direct communication with the Cretaceous aquifer in which the 
water wells are completed. There was no evidence to indicate that 
either natural gas production well was the source of the gas in the 
water wells. The appropriate geochemical parameters for fingerprinting 
to distinguish Strawn gas of Pennsylvania age from Barnett Shale gas of 
Mississippian age, are nitrogen and carbon dioxide, not carbon. Gas 
from Pennsylvanian age rock, including Strawn, has higher nitrogen 
concentration and lower carbon dioxide concentration than Barnett Shale 
gas. Gas found in the water wells does not match the nitrogen isotopic 
fingerprint of Barnett Shale gas. Bradenhead gas samples from both 
production wells did not match Barnett Shale gas, confirming that gas 
is not migrating up the wellbores and that the Barnett Shale producing 
interval in the wells is properly isolated. Three dimensional seismic 
data indicates no evidence of faulting in the area of the water wells 
and microseismic data available for more than 320 fracture stimulations 
in Parker County indicated a maximum fracture height of approximately 
400 feet, meaning that almost one mile of rock exists between the 
highest fracture and the shallow groundwater aquifer.
    The Commission continues to investigate the presence of gas in 
water wells in the area to determine source and conduits and what, if 
any, actions the Commission should take. If an investigation indicates 
oil field activities are responsible, the Commission would require 
assessment and cleanup, and evaluate what fines or penalties may be 
assessed as necessary.

Q4. How useful is the current scope and breadth of the EPA study to 
State regulators and risk managers? What would be needed in order to 
make the study more worthwhile?
    A4. The states, including Texas, have adequate programs and 
authority for regulating hydraulic fracturing and a very good 
understanding of the technology and its potential for impacts. However, 
we recognize that there has been substantial public concern and much 
controversy over the use of hydraulic fracturing. While we support the 
study plan in principle, we hope that the study will be an objective 
assessment that takes in account current state regulatory programs and 
regional differences.
    We appreciate EPA's pledge to work with the states, state 
organizations, and other stakeholders in conducting the study. In 
particular, the study should adhere to the directive of Congress that 
the study use the best available science; rely on independent sources 
of information; be a transparent, peer-reviewed process; and 
incorporate consultation with stakeholders.
    We do have some concern with the scope and timing of the study. 
EPA's original scoping document proposed to study the ``Full Life 
Cycle' of an oil and gas well. In other words, the scope included all 
areas of oil and gas exploration and production activity, such as site 
selection and development, as well as production, storage and 
transportation, which are unrelated to hydraulic fracturing. EPA's 
Science Advisory Board rightfully concluded that initial, short-term 
research be directed to study sources and pathways of potential impacts 
of hydraulic fracturing on water resources, especially potential 
drinking water sources considering the Congressional request and a 
desire by EPA to complete initial research products by the end of 
calendar year 2012. We believe that the scope of the Draft Study, 
however, remains broader than Congress may have intended.
    EPA proposes to delve into areas beyond the reach of federal law. 
EPA did limit the Draft Study to drinking water resources by replacing 
the ``lifecycle'' approach with the concept of ``water lifecycle.'' 
However, the Draft Study includes a study of how water withdrawals 
might impact water availability in the source area, and the water 
quality of source waterbodies. Water availability and water withdrawal 
has historically been the prerogative of the states and, we believe, is 
beyond the reach of federal law.
    EPA proposes to study areas beyond the specific practice of 
hydraulic fracturing. In addition to proposing to study water 
withdrawals, EPA proposes to study the potential impacts of spills, 
containment, treatment, and disposal of wastewaters resulting from 
hydraulic fracturing, as well as produced water from wells that have 
been fractured. Contrary to what some believe, there are existing 
controls on oil and gas activities in federal law and regulations, 
including the Safe Drinking Water Act, Clean Water Act, Clean Air Act, 
Resource Conservation and Recovery Act, not to mention state laws and 
regulations actively being enforced by state regulators.
    EPA should refocus and narrow the scope of the study to that 
directed by Congress -to practices directly associated with actual 
hydraulic fracturing and drinking water resources. Expansion of the 
study to other areas will only dilute EPA's ability to focus on the 
actual practice of hydraulic fracturing.
    In addition, we have encouraged EPA to include in any working 
groups professional geoscientists and engineers with field experience 
and to actively seek participation from experts from the state 
regulatory agencies and base the study on sound science, valid data, 
and accurate information from credible sources.

Q5. In the last few years, some companies have significantly increased 
wastewater recycling to move toward 100 percent recycling with zero 
discharge. What is the role of recycling and reuse of hydraulic 
fracturing fluids?
    A5. Wastewater in the northeast Marcellus Shale area has been 
discharged under the Clean Water Act to publicly owned treatment works 
(POTWs), thence to surface water because the geology is such that deep 
well underground injection was not an option. Evidently, the POTWs were 
not prepared to accept the volumes of wastewater generated in 
association with shale gas and recycling is becoming the norm. In 
Texas, wastewater from gas shale is generally injected into permitted 
deep disposal wells. However, water availability may drive the push 
towards more recycling in Texas.
    Texas is understandably concerned about water resources, 
particularly with the extraordinary drought conditions Texas currently 
faces. The Railroad Commission encourages use or reuse of oil and gas 
wastes for beneficial purposes and adopted recycling regulations in 
2006 to ensure that the storage, handling, treatment, and recycling of 
oil and gas wastes and recyclable product do not threaten or impair the 
environment or public health and safety.
    The Commission has issued one mobile recycling permit in the Bamett 
Shale area, which authorizes treatment of hydraulic fracturing flowback 
water using on-site distillation units. The process allows reuse of 
approximately 80 percent of the returned fluids.
    The Commission also has issued one Stationary Recycling Permit for 
a facility located in Parker County in the Bamett Shale area. This 
stationary facility uses the same technology.
    The Commission has one pending permit application for a pilot 
project in Webb County -in the Eagle Ford Shale area. The applicant 
proposes to test a process for removal of extraneous materials (other 
than salts) from hydraulic fracturing flowback water.

Q6. This past April there was an incident in Pennsylvania where there 
was a blowout of a well that caused fracking fluid to spill.
    a. As part of permitting hydraulic fracturing, what kind of 
response planning are companies required to submit?
    b. What other information do companies have to disclose to 
regulators in the event of a blowout?
    c. How does this differ from the information companies are required 
to provide to regulators in order to obtain the permit in the first 
place?
    A6. The Railroad Commission requires that each permitted well, 
including those that use hydraulic fracturing techniques, install a 
blowout preventer or control head and other connections to keep the 
well under control at all times as soon as surface casing is set.
    In the event of a blowout, companies are required to disclose to 
the Commission a full description of the event, including the volume of 
crude oil or gas lost. The location of the well must be provided to the 
Commission including county, survey, and property data, so that the 
exact location can be readily located on the ground. The company must 
specify what steps have been taken or are in progress to remedy the 
situation.
    A company must comply with Railroad Commission rules, including 
Statewide Rule 13, which requires a blowout preventer and Statewide 
Rule 20, which mandates reporting requirements in the event of a 
blowout or other releases of oil and gas waste. In addition, Commission 
regulations require construction of dikes or fire walls around all 
permanent oil tanks or tank batteries that are deemed by state to be an 
objectionable hazard.

Question submitted by Representative Chip Cravaack

Q1. In your prior experiences with EPA, how would you describe their 
work as a regulatory partner? Do you see any areas where EPA could 
improve their dealings with state agencies? Do you have any suggestions 
for Congress on how we could encourage EPA to be a better partner with 
state government?
    A1. The Texas experience with EPA most recently has been one of 
heavy-handed overreach. The following are just a few examples.
    EPA asserts its authority under certain laws prematurely and. in 
many cases. incorrectly. One example is EPA's assertion of its 
authority under Section 1431 (a) of the Safe Drinking Water Act (``SDWA 
''), 42 U.S.C. Sec. 300i(a), when it issued an emergency endangerment 
order against Range Resource, related to the occurrence of natural gas 
in the domestic water well in Parker County. EPA Region 6's letter 
declared that an ``imminent and substantial endangerment to a public 
drinking water aquifer has occurred (or may occur) through methane 
contamination which is directly related to oil and gas production 
facilities under your operation.'' EPA stated that it issued the order 
because the methane could cause an explosion and that the state had 
failed to act. In fact, the water wells had been disconnected from the 
houses, eliminating the chance that the houses would explode, and the' 
Railroad Commission had been efficiently and effectively investigating 
the incident in concert with EPA since the initial complaint.
    Another example of EPA overreach is EPA's Spill Prevention, 
Control, and Countermeasures (SPCC) regulations. The SPCC rules adopted 
by EPA, which recently became effective, do not allow the oil and gas 
sector to use the SPCC rule's wastewater exemption for produced water, 
although other sectors were allowed to use the exemption. Thus, the 
SPCC regulations cover not only vessels storing oil, but also produced 
water storage tanks that contain de minimis quantities of oil. EPA 
singled out oil and gas water separation facilities for increased level 
of regulation relative to other sectors using similar or nearly 
identical technologies and treatment goals. The rule subjects hundreds 
of thousands of produced water vessels to additional requirements that 
are unnecessary given the incidental amounts of oil they contain and 
the small environmental risks they represent.
    EPA is using ``guidance documents'' to avoid rulemaking. In several 
instances, EPA has adopted or amended guidance documents when 
rulemaking would be more appropriate. The problem with adoption of 
requirements as guidelines rather than rules, is that the guidelines 
are not required to be as fully and formally vetted as rules.
    One instance is EPA's current effort to draft a guidance document 
for permitting of hydraulic fracturing that includes the use of diesel 
fuel. Section 322 of the Energy Policy Act of 2005 amended the Safe 
Drinking Water Act (SDWA) by modifying the definition of ``underground 
injection'' to exclude `` . . .. the underground injection of fluids or 
propping agents (other than diesel fuels) pursuant to hydraulic 
fracturing operations related to oil, gas, or geothermal production 
activities.'' Rather than pursue rulemaking with the attendant formal 
review and comment period, EPA has decided to draft guidance for 
permitting hydraulic fracturing that includes the use of diesel fuel as 
a Class II underground injection activity. The permitting program for 
Class II injection wells was developed under the assumption that 
injection would be continuous over a relatively long period of time, 
and thus, includes requirements that are not appropriate for short-term 
hydraulic fracturing activities.
    In another instance is EPA's expansion of the definition of 
``waters of the United States'' and ``navigable water'' under the Clean 
Water Act. Most recently, EPA and the U.S. Army Corps of Engineers 
released a draft proposed ``Clean Water Protection Guidance'' in April 
of this year that describes their view of the Federal Government's 
authority to regulate wetlands. If adopted, this guidance will 
significantly expand federal Clean Water Act jurisdiction.

Questions submitted by Representative Paul Tonko

Q1. For the record, it is my understanding that the practice of 
hydraulic fracturing includes fracturing technology combined with a 
number of different technologies, some which have been developed in the 
last 20 years, are being used to access shale gas. My question for the 
panel is why do we continue to hear that these technologies have been 
used to access shale gas for 60 years?
    A1. The technology has developed over a 60-year period. The use of 
hydraulic fracturing has changed dramatically since its introduction 60 
years ago, and according to industry it is now used in about 90% of 
operational wells today. Hydraulic fracturing is a process of injecting 
a mixture of water, chemicals and particles underground to create 
fractures through which gas can flow for collection. The difference in 
the activity of 60 years ago and today is that larger volumes of water 
are used in more technologically sound fracturing operations in 
conjunction with horizontal drilling technology. Today's technology has 
developed to a point that operators can determine the size, direction, 
and efficiency of the fractures.

Q2. What is the industry doing to continue this technological evolution 
to cleaner technologies?
    A2. Industry and other stakeholders, including state regulators, 
have been very active in efforts to develop and encourage cleaner 
technologies, as well as technologies that have less impact. Just a few 
examples follow:
    Reduced ``Footprint.'' The ability of an operator to drill numerous 
wells from one well pad has reduced the overall footprint of natural 
gas exploration and extraction in the form of fewer access roads and 
pipeline and production infrastructure. It also has resulted in less 
truck traffic, which further results in reduced emissions, dust, noise, 
erosion, wear and tear on roads, less disturbance to people and 
wildlife, and the potential for vehicular injuries, spills and property 
damage. Industry also has developed low-impact rigs, which adapt to the 
environment with a minimum of disturbance.
    Use of Coiled Tubing Drilling. Coiled tubing drilling is a high-
potential solution for reducing environmental impact while also 
improving drilling efficiency and cost. Drilling with coiled tubing is 
not applicable in all situations.
    Use of Closed-Loop Drilling Mud Management. Many operators, 
particularly in urban/suburban areas, are moving away from lined 
reserve pits and are using closed-loop drilling mud management systems.
    Chemical Substitution. The ``single biggest move'' the industry has 
made to reduce the toxicity of its fluids, according to BJ Services, is 
phasing out diesel fuel, a solvent that contains the potent carcinogen 
benzene. Diesel fuel was once commonly used in hydraulic fracturing. 
Today, many companies have replaced diesel fuel with much less toxic 
mineral oil in most of their fracturing solutions. The shift began in 
2003, after EPA pressed the nation's dominant hydraulic fracturing 
companies to voluntarily eliminate diesel fuel from some of their 
fluids. The Railroad Commission has encouraged this action.
    Green Completions. Also becoming prevalent, particularly in urban/
suburban areas, is a process known as green completion. Green 
completions capture gas produced during well completions and well 
workovers following hydraulic fracturing. Generally, an operator will 
use portable equipment to separate gas from the solids and liquids 
produced during flowback of the well. The gas then can be delivered 
into the sales pipeline. Green completions reduce emissions of methane, 
volatile organic carbons, and hazardous air pollutants during well 
cleanup and can eliminate or significantly reduce the need for flaring.
    Some operators also are reducing their methane emissions by 
replacing retrofit continuous-bleed pneumatic pilot valves on field 
separators and controllers with low-bleed valves. Gas is bled off 
continuously from separators using high bleed pilot valves. Replacing 
or retrofitting high-bleed valves reduced emissions and has resulted in 
the ability to capture and sell gas that previously escaped.
    Recycling. The Railroad Commission encourages use or reuse of oil 
and gas wastes for beneficial purposes and adopted recycling 
regulations in 2006 to ensure that the storage, handling, treatment, 
and recycling of oil and gas wastes and recyclable product do not 
threaten or impair the environment or public health and safety.
    The Commission has issued a mobile recycling permit in the Barnett 
Shale area treats hydraulic fracturing flowback water using on-site 
distillation units. The process allows reuse of approximately 80 
percent of the returned fluids.
    The Commission also has issued a stationary recycling permit for a 
facility located in Parker County in the Barnett Shale area, which also 
uses distillation.
    The Commission has one pending permit application for a pilot 
project in Webb County -in the Eagle Ford Shale area, in which the 
applicant proposes to test a process for removal of extraneous 
materials (other than salts) from hydraulic fracturing flowback water.
    One company that received authority in 2006 from the Commission has 
process over 12.7 million barrels of hydraulic fracturing fluid to 
recover over 9.9 million barrels--or 77%--of reusable distilled water.
    Ongoing Efforts. The Houston Advanced Research Center and Texas A&M 
University, along with industry sponsors and other stakeholders, 
including NGOs, government agencies, and others, operate the operate 
the Environmentally Friendly Drilling Systems Program integrating 
advanced technologies into systems that Significantly reduce the impact 
of petroleum drilling and production in environmentally sensitive 
areas. (See http://www.efdsystems.org/)
                   Answers to Post-Hearing Questions
Responses by Dr. Robert M. Summers, Secretary, Maryland Department of 
        the Environment

Questions submitted by Chairman Ralph Hall

Q1. States regulate many aspects of oil and natural gas activities. How 
robust is this regulation? How often are wells inspected? What are the 
qualifications of the regulators?
    A1. Maryland statutory law assigns the responsibility for 
permitting oil and gas wells to the Maryland Department of the 
Environment. The Department adopted implementing regulations that were 
last revised in 1993. MDE's Minerals, Oil and Gas Division currently 
has four professional employees, of whom three are geologists and one a 
regulatory and compliance engineer, in addition to an administrative 
specialist. There are currently about 10 gas production wells in 
Maryland and a natural gas compressor station associated with about 85 
gas storage wells. The production wells are scheduled for inspection 
once a year. The compressor station is inspected annually and the 
storage wells once every five years.

Q2. Do you believe states are incapable of effectively regulating 
hydraulic fracturing without direction from EPA?
    A2. At this time, Maryland lacks sufficient information to 
effectively regulate hydraulic fracturing. As I said in my testimony, 
guidance from EPA is needed and has been requested by Maryland. The 
availability of recommendations regarding best practices, such as those 
that the Department of Energy has said they will be providing in the 
next 6 months, would be extremely helpful and would allow States like 
Maryland to proceed more quickly to achieve our objective of ensuring 
that any permits issued that would utilize hydraulic fracturing are 
fully protective.

Q3. Have you reviewed Texas' regulations overseeing hydraulic 
fracturing? Have you reviewed the regulations of other oil and gas 
producing States? If so, what type of review have you performed?
    A3. Staff at MDE has reviewed Texas' regulations and the 
regulations, adopted and proposed, of other States and interstate 
agencies such as the Susquehanna River Basin Commission. A variety of 
different requirements have been put in place across the Country and 
many states are currently making improvements to their regulatory 
programs. We need to ensure that Maryland is using the most up-to-date 
protective measures. During the course of the study mandated under 
Governor O'Malley's Executive Order, in conjunction with an Advisory 
Committee, the Department will examine these regulations, and the EPA 
and DOE guidance being developed now, to establish permit requirements 
for best practices that are sufficiently protective.

Q4. How useful is the current scope and breadth of the EPA study to 
State regulators and risk managers? What would be needed in order to 
make the study more worthwhile?
    A4. EPA summarizes the study on their web page as follows: ``the 
overall purpose of the study is to understand the relationship between 
hydraulic fracturing and drinking water resources. The scope of the 
proposed research includes the full lifespan of water in hydraulic 
fracturing, from acquisition of the water, through the mixing of 
chemicals and actual fracturing, to the post-fracturing stage, 
including the management of flowback and produced water and its 
ultimate treatment and disposal.'' The scope and breadth of the EPA 
study plan will assure that State regulators get useful data on the 
toxicity of chemicals used in or released by hydraulic fracturing and 
the potential for impacts to drinking water resources. This is a topic 
that would be of interest to all states, and we look forward to EPA's 
summary. The study would be more worthwhile if it addressed additional 
topics, such as re-fracturing, and impacts to air quality and 
terrestrial and aquatic ecosystems.

Q5. It seems many of the alleged environmental concerns associated with 
fracking-such as wastewater discharge-are not actually associated with 
the hydraulic fracking process and indeed exist at all oil and gas 
production activities regardless of whether fracking occurs. Does EPA 
properly distinguish between these categories in its study plan? How 
can this distinction be improved?
    A5. Hydraulic fracturing wastewater is different in volume and 
characteristics from wastewater generated in conventional oil and gas 
operations because of the additives used in the fracking fluid and the 
potential release from the fracked shale of metals, organics and other 
contaminants. The EPA study plan appropriately focuses on wastes 
associated with hydraulic fracturing.

Question submitted by Representative Chip Cravaak

Q1. Many people are concerned about the waste water that is created as 
part of the fracturing process. Can you please describe the current 
technologies that are available to help recycle these fluids?
    A1. The fracking flowback can contain not only the returning 
fracking fluid with its additives, but also radioactivity, metals, and 
organic chemicals that were in the target formation before fracking. 
Different treatment may be needed for different contaminants. Maryland 
is currently investigating the available treatment methodologies. This 
is one of the key questions that Maryland will be evaluating as part of 
its study over the next year.

Questions submitted by Representative Eddie Bernice Johnson

Q1. Dr. Summers during the hearing Mr. Lujan asked all of the witnesses 
if they would agree that the country needs a minimum standard for 
hydraulic fracturing. You were not given a chance to answer this 
question. Do you believe the country should adopt some kind of minimum 
best practices or standards? If yes, why?
    A1. Yes. Federal minimum best practices for hydraulic fracturing 
would be very helpful to Maryland as it refines its own regulatory 
program. Such practices would also ensure that upstream States are 
requiring appropriate practices to protect Maryland's rivers and 
streams from the potential adverse impacts of hydraulic fracturing that 
occurs in those States. Similarly, federal standards for wastewater 
treatment of fracking flowback would ensure that treatment levels are 
sufficiently protective prior to issuance of discharge permits 
regardless of which state has issued the permit.

Q2. After reviewing much of the EPA study plan, I recognize that there 
is a considerable amount of evaluation that is conducted to determine 
if a site can be safely leased for drilling. Analyses related to the 
use of chemicals, drinking water evaluations, and geological and 
surface evaluations all take considerable time and funds.

        <bullet>  How are States able to conduct these evaluations?

        <bullet>  How much do States depend on the industry for these 
        kinds of evaluations?
    A2. Information about geology and drinking water resources are 
generally available on a regional scale. Maryland has geologists and 
engineers on staff who are able to review and interpret this 
information as part of the permitting process, however, for site-
specific information, Maryland must rely heavily on information 
provided by the applicant for a drilling permit. Maryland law and 
regulations require applicants to perform an Environmental Assessment 
that provides the information needed to evaluate the application. 
Maryland is currently updating these requirements to ensure that 
appropriate evaluations are conducted for all future applicants.
    As for the chemicals, MDE requires the disclosure of all the 
chemicals used on-site. We rely heavily on Material Safety Data Sheets 
and published studies to evaluate the toxicity of the chemicals. The 
fate and transport of these chemicals is seldom known with any degree 
of detail or certainty and Maryland intends to require site-specific 
water quality monitoring of surface and groundwater to ensure that best 
management practices are protective of water quality. In addition, the 
fracking fluid can react with the target formation, producing different 
chemicals in the wastewater that must be evaluated and properly 
treated. Maryland is depending on accurate information from the 
applicants and would benefit greatly from additional federal guidance 
and oversight to assist in the evaluations.

Question submitted by Representative Ben Lujan

Q1. Dr. Summers, in your testimony during the hearing you discuss the 
need for the Federal Government to provide guidance and technical 
support to the States on what steps need to be taken to ensure the 
safety and environmental performance of fracking. Can you elaborate on 
how a federal-state partnership could promote natural gas production 
and ensure the health of our public?
    A1. Because of its national scope, EPA receives information about 
operations in all the States that are experiencing hydraulic fracturing 
of deep deposits. The EPA is in a better position than any individual 
State to collect, analyze, and make available information on best 
practices across the country. To cite one example, the EPA has 
knowledge about best practices for reducing the escape of methane gas 
to the atmosphere during drilling and hydrofracking. Sharing this 
information would allow States to avoid ``reinventing the wheel.'' As 
another example, EPA Region III, which includes several Marcellus Shale 
states, has provided useful guidance on the treatment and disposal of 
fracking wastewater.

Questions submitted by Representative Paul Tonko

Q1. For the record, it is my understanding that the practice of 
hydraulic fracturing includes fracturing technology combined with a 
number of different technologies, some which have been developed in the 
last 20 years, are being used to access shale gas. My question for the 
panel is why do we continue to hear that these technologies have been 
used to access shale gas for 60 years?
    A1. Hydraulic fracturing has been known and used for a significant 
period of time. Applying the technology to deep, horizontally-drilled 
wells is relatively new. It has only been used in the Eastern United 
States for a few years. The industry continues to innovate and add new 
technology and chemicals. We have observed that Pennsylvania has found 
it necessary to continually update its requirements and regulations 
over the past few years to address issues that have arisen due to the 
rapid development of Marcellus Shale gas wells. Many citizens are quite 
concerned about the impacts they have observed and the potential for 
additional cumulative impacts as many more wells and associated 
gathering lines and other infrastructure are developed. Maryland has 
not received the volume of applications that Pennsylvania has, however, 
in reviewing its experience and some of the ongoing problems 
encountered, it is clear to us that the technology is evolving and will 
continue to evolve. States need the assistance and expertise of the 
federal agencies to ensure that we are requiring the best available 
practices so that our citizens' health and safety are protected and we 
are not left with a legacy of environmental contamination and 
degradation of our natural resources.

Q2. What is the industry doing to continue this technological evolution 
to cleaner technologies?
    A2. Many companies are working to develop cleaner, safer practices 
and it was Maryland's hope that those industries would support 
legislation that was introduced in the Maryland legislature this past 
session to help Maryland ensure that the best practices were being 
employed in the development of the Marcellus Shale in our State. 
Unfortunately, the industry in Maryland did not support that 
legislation because they believed that it placed requirements that 
would prevent us from moving forward with production of gas as quickly 
as they would have liked.
    Many different practices and regulatory standards are being 
required in the various States whose programs we have reviewed. It is 
extremely difficult and time consuming for staff from a single State to 
ensure that industry is using the best practices and is taking 
advantage of available technological advances. This is complicated by 
the fact that not all the technological innovations result in cleaner 
operations; some are used to tap previously unreachable or 
unrecoverable gas and may have additional unanticipated environmental 
impacts that must be evaluated. Maryland will take the time needed to 
ensure that any permits we issue are fully protective. With Governor 
O'Malley's Executive Order, we are establishing an advisory committee 
and we are encouraging industry representatives to participate and 
assist us in appropriately addressing the issues so that Maryland's 
permits are reasonable and fully protective.
                   Answers to Post-Hearing Questions
Responses by Mr. Harold Fitch, Michigan State Geologist; Director, 
        Office of Geological Survey, Michigan Department of 
        Environmental Quality; and Board Member, Ground Water 
        Protection Council

Questions submitted by Chairman Ralph Hall

Q1a. FracFocus is a voluntary website that discloses the additives used 
in fracking fluids. Some people have advocated that this disclosure 
should be mandatory.
a Is this necessary, or are the voluntary measures enough?
    A1a. Circumstances vary among states, and the issue should be left 
to each state to address. Michigan has implemented mandatory disclosure 
of Material Safety Data Sheets (MSDSs) for high-volume hydraulic 
fracturing operations in response to public interest. We are posting 
the MSDSs on our website. To address the question in a regional or 
national context, the voluntary disclosure under FracFocus provides 
adequate information to characterize hydraulic fracturing fluids in 
general.

b. How does the information disclosed on this website compare with the 
information companiesprovide to State regulators?
    A1b. The information on the FracFocus website closely parallels 
that for Michigan.

Q2. States regulate many aspects of oil and natural gas activities. How 
robust is this regulation? How often are wells inspected? What are the 
qualifications of the regulators?
    A2. Michigan has a comprehensive and thorough system for regulation 
of all aspects of oil and gas wells and associated pipelines and 
facilities, from initial siting to closure and restoration. Wells are 
inspected once every two to four days during drilling, completion 
(including hydraulic fracturing), and plugging; and several times 
annually during production. While states vary somewhat in this respect, 
I believe Michigan is fairly typical. Michigan inspectors are degreed 
geologists and have significant on-the-job training before qualifying 
for independent field inspection activities.

Q3. How useful is the current scope and breadth of the EPA study to 
State regulators and risk managers? What would be needed in order to 
make the study more worthwhile?
    A3. The EPA plans for the study are quite broad. Michigan does not 
object to a broad study; we believe that the results will confirm what 
the states already know to be the case. However, we are concerned that 
the breadth of the study means the results will not be available in a 
timely manner. We are also concerned that the study does not 
incorporate risk assessment. While the study may point out a few risks 
to the environment, it is important to weigh the degree of risk, not 
just the possibility of a problem (which may be very remote).

Q4. At what depths do we find functional groundwater wells? At what 
depths is hydraulic fracturing taking place? What is the potential 
relationship between these wells and hydraulic fracturing activities 
both on the surface and below ground? How does this vary across local 
geology?
    A4. The depth of water supply wells varies greatly from state to 
state and within each state. In Michigan, it ranges from tens of feet 
to hundreds of feet. Likewise, the depth and characteristics of 
hydraulic fracturing varies greatly-more reasons for state-based 
regulation. In Michigan the vertical separation between the deepest 
fresh groundwater and the zones that are hydraulically fractured ranges 
from 200 feet to thousands of feet. The separation distance is smallest 
at shallow depths. In shallow wells the volume of hydraulic fracturing 
fluid is small and fractures propagate horizontally; as a result, the 
fractures do not extend upward into the fresh water aquifer. In deeper 
wells, the great isolation distance and nature of intervening 
formations prevents propagation of fractures into fresh water zones.

Q5. In the last few years, some companies have significantly increased 
wastewater recycling to move toward 100 percent recycling with zero 
discharge. What is the role of recycling and reuse of hydraulic 
fracturing fluids?
    A5. The states encourage recycling and reuse of hydraulic 
fracturing water. It may not be practical in some cases due to 
unfavorable characteristics of the flow back or produced water.

Q6. Could you differentiate flowback and produced water, and any other 
water used during the hydraulic fracturing process? How does the 
composition of the flowback and produced water vary as a function of 
management practices and local geology?
    A6. In some cases flow back, produced water, and drilling fluids 
can be distinguished by their chemical signatures. In general, water 
recovered from a well may be a mixture of all three. The recovery of 
hydraulic fracturing water tends to be high at first then decline over 
time; it may take an extended period to recover the hydraulic 
fracturing fluid, and some portion will likely remain in the producing 
formation indefinitely. The recovery of flowback water depends on the 
nature of the target formation and the hydraulic fracturing pressures 
and volumes.

Q7. What existing treatment technologies are currently being used to 
treat hydraulic fracturing wastewater?
    A7. There are proprietary equipment and processes for treating 
hydraulic fracturing wastewater on-site. In some states the wastewater 
has been transported to public wastewater treatment plants. In Michigan 
all hydraulic fracturing wastewater must be recycled or disposed of in 
deep disposal wells.

a. How do the form and potential impacts of wastewater treatment and 
disposal vary across the country and across geological formations where 
hydraulic fracturing is practiced?
    A7a. Appropriate treatment and disposal techniques vary depending 
primarily on dissolved salt content. In Michigan the dissolved salt 
content is typically relatively high, so treatment and discharge or 
reuse for other purposes is generally not practical.

b. What states regulate hydraulic fracturing under the Underground 
Injection Control program of the Safe Drinking Water Act?
    A7b. To my knowledge only Alabama regulates hydraulic fracturing 
under the Underground Injection Control program. The Alabama 
regulations were necessitated by a federal court ruling in a lawsuit 
brought by an environmental interest group. The regulations are limited 
and apply only to hydraulic fracturing of shallow coal beds.

Questions submitted by Representative Paul Tonko

Q1. For the record, it is my understanding that the practice of 
hydraulic fracturing includes fracturing technology combined with a 
number of different technologies, some which have been developed in the 
last 20 years, are being used to access shale gas. My question for the 
panel is why do we continue to hear that these technologies have been 
used to access shale gas for 60 years?
    A1. The primary other technology that may be used in conjunction 
with hydraulic fracturing is horizontal drilling, which has been used 
commercially since the 1980s.

Q2. What is the industry doing to continue this technological evolution 
to cleaner technologies?
    A2. The service companies that carry out hydraulic fracturing 
operations are developingnew "greener" chemical additives as well as 
ways to reduce the volume of water needed.

                   Answers to Post-Hearing Questions
Responses by Dr. Cal Cooper, Manager, Worldwide Environmental 
        Technologies, Greenhouse Gas, and Hydraulic Fracturing, Apache 
        Corporation

Questions submitted by Chairman Ralph Hall

Q1. FracFocus is a voluntary website that discloses the additives used 
in fracking fluids. Some people have advocated that this disclosure 
should be mandatory.
        a.Is this necessary, or are the voluntary measures enough?
    A1a. Apache encourages States to require mandatory reporting of the 
additives used in frac fluids to the FracFocus website. In Texas this 
was recently enabled by a legislative bill, but generally State 
Regulators have the power to require disclosure by Rule without new 
legislation. In Louisiana rules have been proposed by LOC that would 
require disclosure like FracFocus to a public website.
    Apache does not see the need for a Federal mandate.

b. How does the information disclosed on this website compare with the 
information companies provide to State regulators?
    A1b. The FracFocus site consolidates essential information; it 
allows for geographical searching of well locations and also provides 
separate technical and statutory explanations that are generally not 
part of state records. FracFocus is designed to be user friendly and 
current. It is substantially more efficient than freedom of information 
records release. Furthermore the website minimizes the costs to state 
government agencies of making this information available to the public. 
The final well reports filed by operators with state regulators contain 
proscribed technical information including copies of well logs. This 
includes mostly standard details not directly related to HF 
completions, but also includes information about the completions 
including pressures and injected volumes. Only a few states require 
disclosure of additive composition. All reported information is 
eventually available to the public but the information is not designed 
to be user friendly or understood by non-specialists. Some States make 
public, and allow commercial entities to reproduce, publish and sell 
well logs and well reports, usually one year after completion.

Q2. In your written, testimony you note that the success of any 
scientific evaluation hinges, in large part, on the clarity and focus 
involved in the prioritization of testing.

a.Could you please articulate the specific flaws in the EPA Draft 
Plan's prioritization?
    A2a. The essential flaw is that EPA categorically avoids any 
meaningful prioritization whatsoever in a scientific sense. Referring 
to the Draft Plan, page 4 under section: 2.3 Research Prioritization 
the text suggests that the (only) priority is to study hydraulic 
fracturing in shale formations based on stakeholder input. That would 
be the public outcry perceived from EPA public hearings, as opposed to 
any scientific reasoning evident in the EPA plan. The white-wash goes 
on to boldly claim that'' EPA used a risk-based prioritization approach 
to identify research that addresses the most significant risks.'' but 
the Draft Plan offers absolutely no information on how this was done, 
or what criteria was included a technical risk matrix. It does not rank 
any particular scientific question more worthy of investigation than 
another. It does not even pretend to focus on any areas considered as 
the greatest risk to water resources. Instead it refers to itself as a 
``comprehensive study.'' The unfocused, unrisked ``comprehensive'' EPA 
plan covers almost every imaginable base will easily cost 100's of 
millions of dollars and take probably a decade or more to complete.
    In his testimony before this committee Mr. Anastas flatly 
contradicts the written words in the EPA Draft Plan and declares that 
`` This study is intended to understand the factors that potentially 
could result in impact to drinking water from HF. the factors that are 
the basis of whether or not a risk exists . . .This study is not 
intended to be a risk assessment.'' He goes on to recognize that ``for 
there to be a risk there needs to be the elements of both hazard and 
exposure.'' Clearly in the study plan the focus in on identifying 
hazards of every imaginable type without any indication that they will 
quantify exposure. Risk analysis (see below) is not contemplated.
    For it to be a scientific study, it must start by asking questions 
like a scientist, test concepts, and start where you expect to get the 
most impact based on analysis. The current approach appears to invent 
problems in order to fund everyone who wants funding. It also gives the 
EPA total flexibility to do whatever it wants with the funding it gets, 
effectively neutering any oversight guidance. Is this what Congress 
intends?

b. What specific areas of existing knowledge have been ignored or 
under-represented?
    A2b. The biggest omission is the whole area of quantitative risk 
analysis (different from relative scientific risk). HF is a moderately 
complex industrial process with considerable variation in its 
application. The process and its applications lend themselves to an 
analysis of the risk of occurrence that other regulatory agencies now 
demand. Without understanding a risk of occurrence or a risk of 
magnitude of a potential problem, the EPA cannot legitimately propose 
or promulgate science based rules for HF.
    Generally there is a complete aversion to addressing concentrations 
of concern for chemicals and any acknowledgement about the impact that 
expected dilution will have on concentration effect. In other words, 
all ``bad chemicals'' and ``feared constituents'' have equal standing. 
There is little or no proposed investigation linking pathways for 
contamination and how these change with time.
    In spite of its broad scope, the study almost fails to address 
subsurface context, which is essential to test many scientific ideas. 
Sometimes one wonders if EPA intends to appreciate Darcy's law and the 
difficulty of circulating fluids across 1000's of m of rock (or not).

c. What impact might this have on the effectiveness of the study as 
whole, and subsequently on its impact on improving the safety and risk 
management of hydraulic fracturing operations?
    A2c. All of the responses in part ``b'' above will result in a 
significantly less effective study and handicap any interpretation that 
hopes to positively improve safety and risk management.

Q3. In your testimony you state that it would be helpful for EPA to 
collaborate with industry to identify and prioritize the chemical 
additives of greatest concern, based on regionally ``specific 
information for different shale gas formations, analysis of their true 
presence in produced waters, and the actual risks to the public.

a. In your opinion, has the EPA made a significant effort to accomplish 
this goal--either in this specific study or in separate endeavors?
     A3a. Following my testimony before this committee, Mr. Anastas 
suggested to me that EPA might like to explore such an opportunity. One 
month later, no one from EPA has suggested any follow-up. I remain 
hopeful that this only reflects other pressing priorities.
    As Mr. Anastas explained to me, EPA lawyers limit his ability to 
communicate, even to a Congressional committee. So before this 
committee, EPA uses legal posturing to inhibit and frame scientific 
discussion. Industry sees this and concludes that EPA seems more 
mindful of positioning for consent decree negotiations than seeking 
scientific truth. I believe that many in industry would welcome an 
honestly brokered joint scientific effort to address the effective 
mitigation of risks associated with HF chemicals.
    In the past week, Mr. Anastas publicly announced that EPA has 
released toxicology studies on some 500 chemicals. So applying the 
concept to HF chemicals would align with current EPA technical 
strengths.
b. Is this collaborative activity necessary to developing alternative 
additives?
    A3b. It is not absolutely necessarily in the sense that industry is 
migrating in that direction on its own, albeit not with the clarity of 
purpose and confidence that a positive engagement from the EPA would 
provide. It scares me a bit that EPA might be afraid to engage because 
they are constrained by technical capacity to definitively impact the 
outcome in a scientific sense. In other words, in a scientific sense we 
may be all charting new ground, and EPA may not have the bench strength 
required to provide guidance.

c. Is collaboration fundamental to developing the best practices to 
protect the environment and the public, while ensuring the success and 
safety of unlocking vital energy resources through hydraulic 
fracturing?
    A3c. Collaboration between industry, state regulators and EPA will 
be the most effective and credible way to develop the best practices 
for environmental protection. In many cases industry can develop and 
validate best practices for operations without any external input, 
however there are unusual distinctions in competencies in the case of 
chemicals and public protection. The industry is not an authority on 
the relative chemical risk to public health and bioaccumulation. EPA, 
with the support of other national institutes should be better equipped 
to provide scientifically sound input if it chooses to engage 
constructively instead of in an adversarial way. EPA needs to remember 
that science is not law and is not tested using legal constructs.

Q4.  It seems many of the alleged environmental concerns associated 
with fracking--such as wastewater discharge--are not actually 
associated with the hydraulic fracking process and indeed exist at all 
oil and gas production, activities regardless of whether fracking 
occurs. Does EPA properly distinguish between these categories in-its 
study plan? How can this distinction be improved?
    A4. Dealing with produced water discharge is an essential part of 
oil and gas production everywhere. All states have regulations 
regarding water standards for discharge, and most oil and gas producing 
states prefer for produced water to be re-injected unless it meets 
specific high quality standards by treatment. So to frame the concerns 
properly, EPA must identify where waste water disposal is an issue, and 
why, and then put the scientific information in context as opposed to 
making sweeping generalizations about exceptional cases.
    EPA in its study proposal tends to emphasize disposal concerns that 
are particular to the Appalachian basin and the Marcellus due to the 
fact that subsurface disposal of water is not currently a viable 
option, especially in Pennsylvania. Straight re-injection is the safest 
technique. When re-injection is not possible, most industry operators 
consider it a best practice to clean-up and re-use produced waters in 
subsequent frac jobs effectively re-injecting it instead of disposing 
it on the surface. In the draft plan, EPA seems to ignore this option 
or exaggerate the risk of frac fluid re-injection without any 
scientific support. Pennsylvania recently asked operators to 
voluntarily recycle frac fluids in subsequent frac jobs.
    EPA would benefit from recognition that fracing in an important 
technique in nearly every hydrocarbon producing basin and that the New 
York Times is not a good source for explanation of industry practice in 
a general sense.

Questions submitted by Representative Chip Cravaack

Q1. Hydraulic fracturing has been in use since the 1950s and according 
your testimony, over 1 million wells in the United States have been 
fracked. However, there have been very few incidents and according to 
Mrs. Jones, there are states' such as Texas that currently effectively 
regulate the practice. How we put the risks of hydraulic fracturing 
into perspective, when there are so many economic and societal 
benefits?
    A1. HF like any significant industrial process is not without risk, 
and it is almost inevitable that some unfortunate accidents will occur. 
Acknowledging and managing risk is the only path forward. This also 
means separating hyperbole and false accusations from the facts.
    I'm writing this on an airplane thinking that there are many risks 
associated with flying, but it seems many people readily accept those 
risks, and statistics show that driving is a greater risk. We as a 
nation need dependable, low cost clean energy delivered to our 
doorsteps and the opportunity to build our economy and create jobs 
cannot be ignored. We must learn to manage risk, and we certainly have 
the intellectual capacity and the organizational ability to manage risk 
effectively if we accept the challenge.

Q2.  Many people are concerned about the waste water that is created as 
part of the fracturing process. Can you please describe the current 
technologies that are available to help recycle these fluids?
    A2. Recycling waste water benefits from both low tech and high tech 
applications. It normally starts with some pretty simple gravitational 
separation process, and sometimes agents are added to precipitate 
suspended solids or neutralize pH. Pressure and temperature changes are 
leveraged to remove dissolved gasses especially natural gas. Some 
companies use advanced filtration or membrane separation techniques, 
and others use what are ``flash'' water distillation techniques. Much 
technical development is focused on high volume, high-energy efficient 
purification techniques at affordable costs.
    As described in responses to Mr. Hall above, re-injection of frac 
fluids and produced water or ``recycling'' partially treated fluids in 
subsequent frac jobs seems like a very viable, low tech solution, where 
it is practical and possible.

Questions submitted by Representative Honorable Paul Tonko

Q1. For the record, it is my understanding that the practice of 
hydraulic fracturing includes fracturing technology combined with a 
number of different technologies, some which have been developed in the 
last 20 years, are being used to access shale gas. My question for the 
panel is why do we continue to hear that these technologies have been 
used to access shale gas for 60 years?
     A1. Industry first developed hydraulic fracturing techniques for 
hydrocarbon reservoirs in the late 1940's and the techniques have been 
constantly improving since then. The first HF applications in shales 
began in the early 1980's and gained momentum in the 1990's, and have 
consistently become both more effective and more economic every year. 
Certainly there has been considerable technological innovation. 
Aviation enthusiasts attribute the first flight to the Wright brothers, 
but modern aviation has come a long way since then. Extending the 
analogy to hydraulic fracturing of shales, the 1990's ended with a DC-
3. Today we are doing jumbo jets and testing the Dreamliner for 
commercialization. Most people are a lot more comfortable with the 
safety record and performance of jumbo jets than the earlier models.

Q2. What is the industry doing to continue this technological evolution 
to cleaner technologies?
    There is a lot of focus on alternative chemicals, clean-up and 
recycling water, and especially looking performance associated with 
using saline brine water instead of fresh water and re-injecting it 
into saline aquifers.
    Some other promising areas include concentration of facilities onto 
single pads with longer offset horizontal wells to reduce surface 
footprint, the substitution of dry chemicals instead of liquid 
chemicals for delivery, and switching engines to use natural gas power 
instead of diesel that will reduce GHG emissions by 25%. The oil and 
gas industry has a long history of innovation and much intellectual 
energy is directed toward improving the process and minimizing the 
environmental impact of hydraulic fracturing.

                   Answers to Post-Hearing Questions
Responses by Dr. Michael Economides, Professor of Chemical and 
        Biomolecular Engineering, University of Houston

Questions submitted by Representative Ralph Hall

Q1. How useful is the current scope and breadth of the EPA study to 
State regulators and risk managers? What would be needed in order to 
make the study more worthwhile?
    A1. I think the EPA study is flawed on its premise in the first 
place. It is a blind attempt to castigate fracturing in a thinly 
disguised anti-natural gas attempt. Certain environmental groups have 
tried to link this widespread oil and gas well completion technique 
with a variety of ills, the most insidious of them all that drinking 
water aquifers might be contaminated. Others include spreading 
radioactivity and, of course, attacking the very rationale for doing it 
in the first place. Shale gas, the target of the recently enormous 
enhancement in industry activity may not be what is cracked out to be.
    Last year more than 35,000 wells were drilled in the United States 
and 120,000 hydraulic fracturing treatments were executed, more than 
three stages per well on average. Not one case of drinking water 
contamination was reported. Case closed one would think. The refrain is 
even more impressionable: Sixty years of fracturing, covering more than 
1.2 million wells and the only ``news story''--in the latest NYT piece 
is one from 1984 in West Virginia? Case closed again, one would 
reasonably think even further.

Q2. In your written testimony you note that EPA expects to draw 
conclusions in its final report from a single year of research. You 
also mention that in most funded projects you rarely see any that can 
even get started in a year's time.
a. In your opinion, what circumstances, influences or objectives lead 
the EPA to use only one year of research to inform their overall 
findings?
b. How does this time frame tangibly impact the value and applicabilty 
of the EPA study? What flaws, misrepresentations, or information gaps 
might be present as a result of such a time frame?
    A2a and b. This is an amusing situation. On the one hand I think 
the whole study is an exercise in futility. If what they will do is 
just study 4 ``suspect wells'' then this may be sufficient time but 
this is precisely the problem that I see from a biased approach. One 
year is a very short period of time for any substantive research and 
evaluation of the literally hundreds to thousands of jobs that one 
should study to reach conclusions that are not biased. In my view in 
such case there will be an almost foregone verdict: The EPA quest is a 
non-issue. Fracturing is clearly safe.

Q3. In your testimony you note that the EPA studyspecifically excludes 
the State agencies' experiences in hydraulic fracturing oversight and 
research from the Study plan.
a. In your opinion what is the implication of this omission, what 
direction does it indicate for the EPA's focus and intended impact of 
the Study plan?
b. What lessons could have been learned or what valuable information 
could have been included with an incorporation of the State agencies' 
experiences into the EPA Study plan?
    A3a and b. The States such as the state of Texas and Pennsylvania 
have had a lengthy and substantive experience for the regulation and 
smooth operation of hydraulic fracturing. EPA oversight would mean only 
an additional layer of bureaucracy without any benefit to the 
environment but certainly a yet another obstacle for the industry, 
based on a totally unproven premise and innuendo.

Q4. The movie Gasland dramatically depicts scenes of alleged water 
contamination caused by hydraulic fracking.The movie was nominated for 
an Oscar, yet much of the substance and detail of the movie appears to 
have been discredited as false and misleading. What are some examples 
of the most common misconceptions or misleading information about 
hydraulic fracturing that are advanced in the media and by anti-energy 
activists?
    A4. (This from my work with Peter Glover, published in my Energy 
Tribune.) Gasland treads the same fear-inducing path of Al Gore's 
Oscar-winning An Inconvenient Truth. It presents a simplistically stark 
contrast between the pristine wilderness (where our intrepid self-
proclaimed hippie film-maker lives) and the dark mutilated moonscape 
(where `evil' Big Gas is slowly poisoning natural water resources). As 
with Gore's power-point `epic'--later ripped apart in the factual 
stakes by a British high court judge--Gasland loses credibility from 
the start, as Debunking Gasland, a rebuttal report from Energy in 
Depth, on behalf of the nation's gas and oil producers, revealed last 
summer.
    This review will follow an outline similar to Debunking Gasland 
which falls into a handful of key areas: mis-statements on the law, 
mis-representation of the rules, mis-characterization of the process 
and ``flat-out making stuff up'', including the recycling of 
discredited claims.
    Within seconds of the film opening we glimpse (just glimpse) a shot 
of George W's `evil' sidekick and former Halliburton CEO and Chairman--
and thus an `energy shill'--Dick Cheney. This movie technique sets us 
up for what's to come, when Fox informs us: ``What I didn't know was 
that in 2005 the energy bill pushed through Congress by Dick Cheney 
exempts the oil and natural gas industries from the Clean Water Act, 
the Clean Air Act, the Safe Drinking Water Act (SDWA), the Superfund 
Law, and about a dozen other environmental and democratic 
regulations.'' Frightening. Or it would be, if the alleged 
``Halliburton Loophole'' (in fact created by a cross-party alliance 
including the vote of one Barack Obama) were actually true. As an 
Energy in Depth factsheet points out, the oil and gas industry is 
regulated under every single one of these laws; in the case of the 
SDWA, being aggressively regulated at state level. But hey, this is 
Hollywood, right? ``Print the legend'' and all that...?
    Gasland goes on to cite the passing of the 2005 energy bill as 
declaring a ``wild west'' open season for domestic gas drilling, not 
least in Fox's home state, Pennsylvania, on the Marcellus Shale. Fox 
fails to mention, however, that hydraulic fracturing has a 60 year 
history after Halliburton pioneered the process in 1949. Nor does he 
mention that the fracking process has been used in over 1.2 million 
treatments in 90 percent of all US gas (and many oil) extraction wells, 
conventional and unconventional, without a single documented instance 
of the process leading to the pollution of a water aquifer. Undaunted 
by facts, Fox goes on to assert that the law ``authorizes oil and gas 
drillers to inject hazardous materials, unchecked, directly into or 
adjacent to underground water supplies.'' As Debunking Gasland states, 
``if such an outrageous thing were actually true, one assumes it 
wouldn't have taken five years and a purveyor of the avant-garde to 
bring it to light''.
    An hour in and Fox states: ``the only reason we know about fracking 
chemicals is because of the work of Theo Colborn...by chasing down 
trucks...'' Naughty, Josh. Even Fox's home state of Pennsylvania 
requires that, ``Drilling companies must disclose the name of all 
chemicals to be stored and used at a drilling site...'' In fact, the 
safety sheets for all chemicals used in fracking are a matter of public 
record, though the actual mix may remain a proprietary issue.
    By now, the movie's hype is in full flow: ``in order to frack ... 
you need some fracking fluid--a mix of over 596 chemicals''. To 
underline the point the figure appears full screen. Now the 
unsuspecting could only conclude that Big Gas is indeed pouring massive 
cocktails of chemicals into the ground. In reality, over 99.5 percent 
of the fracking fluid is water and sand. The rest are largely 
components used around the house, including gums and emulsifiers. As 
the US Department of Energy/Ground Water Protection Council (GWPC) 
report states: ``Although the hydraulic fracturing industry may have a 
number of compounds that can be used in a hydraulic fracturing fluid, 
any single fracturing job would only use a few of the available 
additives'' (italics mine).
    The film-maker goes on to make a raft of assertions not based in 
fact. At one point he claims that the ``Pinedale Anticline and Jonah 
gas fields [of Wyoming] are directly in the path of the thousand year 
old migration corridor of pronghorn antelope, mule deer and sage 
grouse.'' As Debunking Gasland's investigations revealed, however, only 
three species of pronghorn antelope are on the endangered list, and 
none are anywhere near Pinedale Anticline. Equally, so large are the 
numbers of Wyoming's mule deer that the state now has an official mule 
deer hunting season.
    An EPA investigation into water contamination ``due to hydraulic 
fracturing in Alabama'' in 2004 elicits ``no recollection'' at all from 
the Alabama State Oil and Gas Board official responsible for oversight 
of fracking in the state at the time. An allegation that shortly after 
Fox interviewed a Pennsylvania Department of Environmental Protection 
official, the department ``suffered the worst budget cuts in its 
history, amounting to over 700 staff either being fired or having 
reduced hours'' is shown to be blatantly untrue when a DEP press 
release is adduced revealing the DEP actually begun hiring ``68 new 
personnel'' in January 2010 specifically ``to protect Pennsylvania's 
residents and environment from the impact of increased natural gas 
exploration across the state''.
    Next up, Fox presents us with a local resident from Dunkard Creek, 
Washington, Pa., who runs us through the unpleasant story of a 35-mile 
stretch of Creek full of dead fish in 2009. While Fox lays the blame at 
the feet of local natural gas development, nobody seems to have 
informed him that a pre-Gasland EPA report concluded the water 
pollution was attributable to a build up of toxic ``algal bloom'' the 
result of discharges from coal mines. Even the local newspaper chipped 
in to describe this Gasland gaffe as a ``glaring error''

Can You Light Your Water on Fire?

    Finally, and most iconic of all, there's the much-vaunted and 
disturbing image of flammable running water from faucets. Gasland's 
publicity posters and DVD cover asks: ``Can You Light Your Water on 
Fire?'' Well yes, apparently many can--but sadly for Gasland, for 
reasons au naturelle. Fox highlights the instance of a flammable faucet 
in Fort Lupton, Colorado pinning the blame on gas development. The 
Colorado Oil and Gas Conservation Commission however disagree, 
maintaining, ``Dissolved methane in well water appears to be biogenic 
[natural occurring] in origin'' and they found ``no indications of oil 
and gas related impacts to the water well.''
    And it's not just the various EPA departments, including Fox's own, 
whose studies have found hydraulic fracking to be a safe process. In 
September 2010, STRONGER (State review of Oil and Natural Gas 
Environmental Regulations), an independent panel of national 
environmental, industry and EPA experts, not only pronounced 
Pennsylvania's fracking process ``safe in respect'' to shale gas 
development, it went on to claim the state's regulation process 
``merits special recognition''.
    While some contaminated groundwater has been found in the proximity 
of fracked wells and where wells have not been properly completed, it 
is hard to detract from the success of an industry and procedure that 
offers an enormous boost to the economy, provides real jobs, and keeps 
domestic gas prices low, creates real jobs and drives the economy. 
These are aspects of public service provision that seem entirely alien 
to some backwoods-living, self-proclaimed, finger-picking hippies, 
however.
    Fox once told New York's Time Out, ``Art is more important than 
politics. Politics is people lying to you and simplifying everything: 
art is about contradictions''. By Fox's own subjective understanding, 
being entirely bereft of ``contradictions'' (or nuance), Gasland 
qualifies as `politics'.
    Made by `Docurama Films' the logo on the DVD states: ``Everything 
else is pure fiction''. Removing the ``else'' and changing to ``pure 
Hollywood'' would be more on the money.

Q5. It seems many of the alleged environmental concerns associated with 
fracking--such as wastewater discharge--are not actually associated 
with the hydraulic fracking process and indeed exist at all oil and gas 
production activities regardless of whether fracking occurs. Does EPA 
properly distinguish between these categories in its study plan?
    A5. The anti-fracking crusaders, have never bothered to distinguish 
or explain, that leaking from the very rare, badly cemented or cased 
well, even if the well was fractured (almost all are) does not make 
fracking the culprit. There is no physics to support connectivity 
between the induced fracture, done thousands of feet underground, that 
would contaminate drinking water aquifers, found at a few hundred feet 
depth. An occasional ``scientist'' may be enlisted to offer a fanciful 
connecting theory whose possibility is just south of being hit by 
lightning. Communicating through the well itself, undesirable as it may 
be, has nothing to do with fracking.

Question submitted by Representative Chip Cravaak

Q1. Hydraulic fracturing has been in use since the 1950s and according 
to Dr. Cooper's testimony, over 1 million wells in the United States 
have been fracked. However, there have been very full incidents and 
according to Mrs. Jones, there are states such as Texas that currently 
effectively regulate the practice. How do we put the risks of hydraulic 
fracturing into perspective, when there are so many economic and 
societal benefits?
    A1. Mr. Cravaack. This is a self-explanatory issue in my view. Much 
of the opposition is a made up issue. Please see my answers above to 
Mr. Hall's questions.

Question submitted by Representative Eddie Bernice Johnson

Q1. Dr. Economides, during the hearing you were asked by Ms. Wilson (D-
FL) to discuss how natural gas wells are monitored, You stated that the 
industry is ``computer monitored in everything we do.'' Please describe 
in detail what kinds of technologies are used to monitor gas wells, 
what properties are monitored at each well, and how these technologies 
could be improved through additional research. Additionally, please 
discuss what best practices could be shared with other states for 
monitoring gas wells.
    A1. The industry monitors wells with electronic devices, measuring 
rates, fraction of water, gas, pressure and other variables. Often 
large, SCADA based systems monitor production and any irregularities, 
trigger alarms or cautions. The degree of sophistication ranges from 
manual recording (becoming rare) to satellite transmission to 
centralized control and monitoring centers. These systems are 
constantly improved and it is an active area of research by both the 
production and service indsutries.

Questions submitted by Representative Paul Tonko

Q1. For the record, it is my understanding that the practice of 
hydraulic fracturing includes fracturiing technology combined with a 
number of different technologies, some which have been developed in the 
last 20 years, are being used to access shale gas. My question for the 
panel is why do we continue to hear that these technologies have been 
used to access shale gas for 60 years?
    A1. Some shale gas has been produced for 60 years but the process 
has accelerated in the last ten and at a far faster pace the last five 
years. Fracturing of all other types of reservoirs (oil, tight gas, 
coal-bed methane) has been going on for 60 years.

Q2. What is the industry doing to coontinue this technological 
evolution to cleaner technologies?
    A2. I am not sure I understand this question. Do you mean to energy 
other than natural gas? You would be hard-pressed to find anything 
cleaner than natural gas.
                   Answers to Post-Hearing Questions
Responses by Dr. Paul Anastas, Administrator, Office of Research and 
        Development, U.S. Environmental Protection Agency

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                
                               Appendix I

                              ----------                              


                   Additional Material for the Record

Report Submitted by Dr. Michael J. Economides, Professor of Chemical 
        and Biomolecular Engineering, University of Houston

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

</pre></body></html>
